<html>
<title> - NOMINATIONS OF KIPP KRANBUHL, TO BE. ASSISTANT SECRETARY FOR FINANCIAL MARKETS, DEPARTMENT OF THE TREASURY; SARAH C. ARBES, TO BE ASSISTANT SECRETARY FOR LEGISLATION, DEPARTMENT OF HEALTH AND HUMAN SERVICES; AND JASON J. FICHTNER, TO BE A MEMBER OF THE SOCIAL SECURITY ADVISORY BOARD, SOCIAL SECURITY ADMINISTRATION</title>
<body><pre>[Senate Hearing 116-469]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-469

                 NOMINATIONS OF KIPP KRANBUHL, SARAH C. 
                     ARBES, AND JASON J. FICHTNER

=======================================================================

                                HEARING

                               BEFORE THE
                               
                          COMMITTEE ON FINANCE
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                                 ON THE

                             NOMINATIONS OF

    KIPP KRANBUHL, TO BE ASSISTANT SECRETARY FOR FINANCIAL MARKETS, 
 DEPARTMENT OF THE TREASURY; SARAH C. ARBES, TO BE ASSISTANT SECRETARY 
FOR LEGISLATION, DEPARTMENT OF HEALTH AND HUMAN SERVICES; AND JASON J. 
FICHTNER, TO BE A MEMBER OF THE SOCIAL SECURITY ADVISORY BOARD, SOCIAL 
                        SECURITY ADMINISTRATION

                               __________

                            FEBRUARY 5, 2020

                               __________
                               
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]                             


            Printed for the use of the Committee on Finance            
            
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
45-113-PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
            


                          COMMITTEE ON FINANCE

                     CHUCK GRASSLEY, Iowa, Chairman

MIKE CRAPO, Idaho                    RON WYDEN, Oregon
PAT ROBERTS, Kansas                  DEBBIE STABENOW, Michigan
MICHAEL B. ENZI, Wyoming             MARIA CANTWELL, Washington
JOHN CORNYN, Texas                   ROBERT MENENDEZ, New Jersey
JOHN THUNE, South Dakota             THOMAS R. CARPER, Delaware
RICHARD BURR, North Carolina         BENJAMIN L. CARDIN, Maryland
ROB PORTMAN, Ohio                    SHERROD BROWN, Ohio
PATRICK J. TOOMEY, Pennsylvania      MICHAEL F. BENNET, Colorado
TIM SCOTT, South Carolina            ROBERT P. CASEY, Jr., Pennsylvania
BILL CASSIDY, Louisiana              MARK R. WARNER, Virginia
JAMES LANKFORD, Oklahoma             SHELDON WHITEHOUSE, Rhode Island
STEVE DAINES, Montana                MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
BEN SASSE, Nebraska

             Kolan Davis, Staff Director and Chief Counsel

              Joshua Sheinkman, Democratic Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Grassley, Hon. Chuck, a U.S. Senator from Iowa, chairman, 
  Committee on Finance...........................................     1
Wyden, Hon. Ron, a U.S. Senator from Oregon......................     3
Portman, Hon. Rob, a U.S. Senator from Ohio......................     5

                         CONGRESSIONAL WITNESS

Alexander, Hon. Lamar, a U.S. Senator from Tennessee.............     2

                        ADMINISTRATION NOMINEES

Kranbuhl, Kipp, nominated to be Assistant Secretary for Financial 
  Markets, Department of the Treasury, Washington, DC............     7
Arbes, Sarah C., nominated to be Assistant Secretary for 
  Legislation, Department of Health and Human Services, 
  Washington, DC.................................................     8
Fichtner, Jason J., Ph.D., nominated to be a member of the Social 
  Security Advisory Board, Social Security Administration, 
  Washington, DC.................................................     9

               ALPHABETICAL LISTING AND APPENDIX MATERIAL

Alexander, Hon. Lamar:
    Testimony....................................................     2
Arbes, Sarah C.:
    Testimony....................................................     8
    Prepared statement...........................................    29
    Biographical information.....................................    30
    Responses to questions from committee members................    66
Fichtner, Jason J., Ph.D.:
    Testimony....................................................     9
    Prepared statement...........................................    70
    Biographical information.....................................    71
    Responses to questions from committee members................    84
Grassley, Hon. Chuck:
    Opening statement............................................     1
    Prepared statement...........................................    90
Kranbuhl, Kipp:
    Testimony....................................................     7
    Prepared statement...........................................    91
    Biographical information.....................................    92
    Responses to questions from committee members................    97
Portman, Hon. Rob:
    Opening statement............................................     5
Wyden, Hon. Ron:
    Opening statement............................................     3
    Prepared statement...........................................   108

                                 (iii)

 
                  NOMINATIONS OF KIPP KRANBUHL, TO BE.
                   ASSISTANT SECRETARY FOR FINANCIAL
                  MARKETS, DEPARTMENT OF THE TREASURY;
                    SARAH C. ARBES, TO BE ASSISTANT
                 SECRETARY FOR LEGISLATION, DEPARTMENT
                   OF HEALTH AND HUMAN SERVICES; AND
                  JASON J. FICHTNER, TO BE A MEMBER OF
                  THE SOCIAL SECURITY ADVISORY BOARD,
                     SOCIAL SECURITY ADMINISTRATION

                              ----------                              


                      WEDNESDAY, FEBRUARY 5, 2020

                                       U.S. Senate,
                                      Committee on Finance,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10 a.m., 
in Room SD-215, Dirksen Senate Office Building, Hon. Chuck 
Grassley (chairman of the committee) presiding.
    Present: Senators Thune, Cassidy, Young, Portman, Sasse, 
Wyden, Cantwell, Brown, Casey, Whitehouse, Hassan, and Cortez 
Masto.
    Also present: Republican staff: Brett Baker, Chief Health 
Policy Director, Jeffrey Wrase, Deputy Staff Director and Chief 
Economist; and Nicholas Wyatt, Tax, Infrastructure, and 
Nominations Policy Advisor. Democratic staff: David Berick, 
Chief Investigator; Elizabeth Jurinka, Chief Health Advisor; 
Tom Klouda, Senior Domestic Policy Advisor; Ian Nicholson, 
Investigator; and Joshua Sheinkman, Staff Director.

 OPENING STATEMENT OF HON. CHUCK GRASSLEY, A U.S. SENATOR FROM 
              IOWA, CHAIRMAN, COMMITTEE ON FINANCE

    The Chairman. Today the Finance Committee will hear from 
three nominees. We will hear from a nominee to be Assistant 
Secretary of the Department of Treasury; a nominee to be 
Assistant Secretary of the Department of Health and Human 
Services; and a nominee to the Social Security Advisory Board.
    First we will hear from Kipp Kranbuhl, nominated to be 
Assistant Secretary of Treasury for Financial Markets. This 
position is responsible for Federal debt management and 
essentially works to finance the Federal Government. Though 
this position certainly does not set Federal fiscal policy, 
which is done by the Congress, it carries out the day-to-day 
operations to keep our government funded so that we can make 
sure that all the programs are successfully financed.
    Next we will hear from Sarah Arbes, who is nominated to be 
Assistant Secretary of Legislation, Department of Health and 
Human Services. Ms. Arbes has been Acting Assistant Secretary 
for Legislation for the past 8 months, so I am pleased that we 
are working to get a confirmation on that position. Senators on 
this committee and their offices are likely familiar with Ms. 
Arbes, as she was Deputy ASL prior to her serving in Acting 
capacity. I greatly appreciated her assistance in efforts to 
lower prescription drug costs and other issues we have been 
working with the administration on. This is a bipartisan effort 
on the part of Senator Wyden and me--and members of this 
committee by a vote of 19 to 9. I know that we are working 
through problems with HHS regarding its responses to written 
inquiries and requests from me and other Senators on the 
committee. I appreciate those efforts, and I am pleased that 
the committee finally seems to be receiving some digital 
production on some very longstanding requests.
    However, in regard to that issue, I am frustrated by the 
pace of negotiations and that certain productions so far have 
been provided multiple times in an unusual format. I look 
forward to resolving this issue quickly and hope our staffs can 
continue a productive dialogue. I have long held that the 
Department must be responsive to congressional inquiries, and I 
ask that Ms. Arbes focus on ensuring a prompt and meaningful 
and efficient response.
    Can I call on Senator Alexander before you? Senator 
Alexander, you are here to introduce a person we all know very 
well. Go ahead.
    [The prepared statement of Chairman Grassley appears in the 
appendix.]

              STATEMENT OF HON. LAMAR ALEXANDER, 
                 A U.S. SENATOR FROM TENNESSEE

    Senator Alexander. Thank you, Mr. Chairman and Senator 
Wyden. It is a pleasure to introduce Sarah Arbes and to welcome 
her husband and their two children here. Sarah joined my staff 
in 2013. She has been a part of our health policy team, which 
has done a lot of work with the Finance Committee and the 
Finance Committee staff in a very successful way.
    She has also been able to do something not many of us could 
do. She worked with Senators Carper and Coons to actually amend 
the Affordable Care Act. And that is a rare occurrence around 
here. And that means she is a good listener and capable of 
working across party lines to try to get a result.
    She has been, as you indicated, at the Department of Health 
and Human Services as the principal Deputy Assistant Secretary 
for Legislation. She once worked for Senator McConnell. I found 
her to be, as Senator Baker used to say, an eloquent listener, 
so I am sure she heard what Senator Grassley had to say about 
electronic records being easier for you to deal with, and maybe 
she will be able to act on that.
    If I may, I would like to also say a word about Kipp 
Kranbuhl, the nominee for Assistant Secretary for Treasury. I 
have known him a long time. His wife Page was my first health-
care staffer. I am delighted to see him nominated to be 
Assistant Secretary. And I would add that if you have a 
softball team, he is a great player and you can add him to your 
group.
    So thank you, Mr. Chairman, for your time and for allowing 
me to come today on behalf of Sarah.
    The Chairman. I know you want to go right away. Let me just 
say one thing, and you kind of touched on it, so I will not go 
into any big detail about it now. But we do a great deal of 
oversight work, and we have had problems getting--we have been 
getting paper until recently, instead of electronic 
communication, on our oversight investigations. And I think you 
must know something about it, because you brought it up. And 
since you have some jurisdiction over--your committee has a lot 
of jurisdiction of HHS, if there is anything you could do to 
help us there, I would appreciate it.
    Senator Alexander. I would be glad to. I know something 
about it, because I saw you at breakfast. [Laughter.]
    The Chairman. Okay.
    Senator Alexander. I will be glad to work with you, Senator 
Grassley and Senator Wyden, on that. And I am confident Sarah 
will as well.
    The Chairman. Okay. Thank you very much.
    I interrupted my opening comment, and just a couple of 
seconds here, and then Senator Wyden.
    In regard to what we were just talking about, I also want 
to note that the ASL serves as a top advisor to the Secretary 
on legislative matters. The position is not directly 
responsible for regulations issued by the Department or its 
agencies, and I ask the Senators to keep that in mind as we 
conduct the hearing.
    Finally, we will hear from Jason Fichtner, nominated to be 
on the Social Security Advisory Board, created as a 
bipartisan--this is a quote from the law--``a bipartisan, 
independent Federal Government agency established in 1994 to 
advise the President, the Congress, and the Commissioner of 
Social Security on matters of policy and administration,'' end 
of quote.
    The Social Security Advisory Board is comprised of seven 
members, and Dr. Fichtner is one of three who are appointed by 
the President.
    Thank you for your willingness to serve, all of you, and to 
be public servants and to serve this President in your 
positions you have been appointed to. And we will look forward 
to your testimony in just a minute.
    Now, Senator Wyden.

             OPENING STATEMENT OF HON. RON WYDEN, 
                   A U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you very much, Mr. Chairman. We are 
going to consider three nominations this morning: Jason 
Fichtner, to serve on the Social Security Advisory Board; Sarah 
Arbes, who we know is nominated to serve as Assistant Secretary 
for Legislation at the Department of Health and Human Services; 
and Kipp Kranbuhl, who is nominated to serve as Assistant 
Treasury Secretary for Financial Markets.
    Now just a few comments on these nominees. If confirmed, 
Dr. Fichtner is going to be diving into important work the 
Social Security Advisory Board is doing with respect to 
customer service and IT. The Board also is working hard to 
address challenges that come with serving some of the most 
vulnerable seniors who receive Social Security, individuals--
and I remember this from my days when I was director of the 
Oregon Gray Panthers--who literally are unable to manage their 
own finances. So this is an important position.
    If confirmed, Mr. Kranbuhl will take on a job at the 
Treasury Department that deals with a lot of challenging 
subjects, including debt management, housing finance, and 
stability of our financial markets.
    Both of them are important roles that affect the well-being 
of millions of Americans. The job is all about bringing an 
even-handed approach and getting people from all sides to work 
in a cooperative fashion, and I hope that will be the case with 
all of these nominees.
    Finally, Sarah Arbes is nominated to serve in a key role at 
the Department of Health and Human Services. It is a key role 
because it involves working directly with the Congress as the 
Department's chief point of contact between us.
    For example, as the chairman noted, we defied the odds 
around here. We produced a bipartisan bill to stop 
pharmaceutical price gouging, and that is front and center on 
our agenda. It is something that I believe we can bring people 
together on and build it around principles this committee has 
outlined, starting with making sure those people who show up at 
the pharmacy counter no longer feel they are getting mugged, 
because that is the case today.
    So we take our oversight role very seriously on these 
issues. I think you know we have initiated a bipartisan effort 
with respect to investigating skyrocketing insulin prices, and 
some prices have gone up 13-fold in recent years. And the drug 
is not 13 times better. It is essentially the same drug, and 
has been for 50 years. So we are serious about these issues. 
And as I say, the committee sort of defied the odds not too 
long ago and produced a strong bill to rein in pharmaceutical 
price gouging.
    Now with respect to oversight specifically, we have sent a 
number of bipartisan letters to Health and Human Services on a 
variety of topics, including the appalling treatment of migrant 
children and families at our southern border.
    We have also focused on the waste of taxpayer dollars on 
public relations contacts for the head of CMS, a key part of 
HHS.
    I will tell you, Ms. Arbes--and of course you are hearing 
this as you walk into your nomination hearing--at times it has 
felt like prolonged bureaucratic root canal work trying to get 
responses to our oversight inquiries.
    Now, I am told there has been some recent progress on the 
committee's bipartisan investigation of children's shelters, 
and we appreciate that. I will tell you, my view is it has been 
much harder than it needs to be to get the information this 
committee and its members need to carry out our oversight 
responsibilities.
    Chairman Grassley and I feel it particularly important that 
oversight gets short shrift, and we are also co-chairs of the 
Whistleblowers Caucus. So these are important issues to us, and 
we have worked productively with you in the past. We are 
counting on you, if confirmed, walking in there and saying, we 
are going to turn this around with respect to being responsive 
and working with the Finance Committee in a bipartisan way and 
taking oversight seriously, which means responses that do not 
take eons and just have us waiting around forever and ever.
    There needs to be improvement in how the Department 
responds to the committee in that regard. And with respect to 
the case we're working on that you know about, we expect the 
remaining information to come to us within the next several 
days. And I have made it clear, I need to see that information. 
My colleagues want to see that information. And it is key to my 
moving this nomination forward.
    Thank you all for joining us. We have a lot to discuss. You 
have a number of members who are going to be here for 
questions.
    Mr. Chairman, thank you, and I look forward to working with 
you.
    [The prepared statement of Senator Wyden appears in the 
appendix.]
    The Chairman. Thank you very much, Senator Wyden. Now, 
Senator Portman for an introduction.

            OPENING STATEMENT OF HON. ROB PORTMAN, 
                    A U.S. SENATOR FROM OHIO

    Senator Portman. Thank you, Mr. Chairman. It is my 
pleasure. I appreciate your inviting me to do this this 
morning. Kipp Kranbuhl is the nominee I would like to 
introduce.
    As you know, Mr. Kranbuhl is already working at Treasury 
doing a good job there. For all the witnesses, we appreciate 
your service, but for Kipp I have a special admiration because 
he is taking his expertise in securities and financial markets 
from where he was successful and where he could be continuing 
to be successful and making a lot more money, and instead he is 
stepping into public service again at the Treasury Department.
    So I am pleased he is doing that. He will be nominated, and 
I hope confirmed, for Assistant Secretary of Treasury for 
Financial Markets, filling the role vacated by Matthew 
Rutherford. He is currently the Principal Deputy Assistant 
Secretary for Financial Markets, performing many of the same 
duties he would be doing as the Assistant Secretary.
    He has impressive education credentials, in addition to 
apparently great softball skills, which I heard about for the 
first time today from Senator Alexander. But on the education 
side, and his skills side, he is the right person for the job. 
He has a bachelor's degree in political science and economics 
from Duke. He has an MBA from the University of Michigan. The 
most important detail of his educational background is the fact 
that he attended the same high school I did. In fact, I met 
Kipp back when he was a senior in high school when I was 
attending a reunion, and little did I know that I would have 
the honor of introducing him some 25 years later to such an 
important role.
    In addition to all of his softball skills, he also has a 
lot of skills and practical experience in financial markets, 
making him well qualified to join Treasury in this job.
    He first served as Deputy Assistant Secretary for Small 
Business, Community Development, and Affordable Housing Policy, 
eventually adding the role of Acting Assistant Secretary for 
Financial Institutions. After 2 years total in both of these 
roles, Kipp was asked to step in as the Principal Deputy 
Assistant Secretary for Financial Markets, where he has been 
since last August.
    It is great to see his family with him here today. I notice 
that his wife Page is here, who also worked for Senator 
Alexander for many years. And I don't know, Mr. Chairman, these 
HELP Committee staffers are kind of taking over around here. 
[Laughter.]
    But I am grateful that his children are here too. So to 
Curry and Turner, thank you for being here, proud of your dad. 
I would also like to recognize Kipp's mom who is here, Dr. Ann 
Weichert Kranbuhl. She came all the way from Cincinnati today. 
She is a distinguished oncologist in our community and 
volunteers for the Cincinnati Children's Hospital Foundation 
board of directors, where she works with my wife Jane. She has 
clearly passed along her passion for public service to Kipp.
    Based on his career experience and the work he has done so 
far, I have no doubt that, if confirmed, Kipp will make us 
proud in Cincinnati, as he has in his roles already. I believe 
he will serve our country with honor and dignity, and I am 
proud to support his nomination before the committee.
    The Chairman. Thank you, Senator Portman. One person at the 
table has not been introduced yet, so I will do my level best 
to do justice to the outstanding qualifications of Dr. Jason 
Fichtner. He is currently senior lecturer, international 
economics, and associate director of the Masters of 
International Economics and Finance programs at Johns Hopkins 
University School of Advanced International Studies.
    He is also a fellow at the Bipartisan Policy Center and on 
the board of directors of the National Academy of Social 
Insurance.
    Dr. Fichtner previously worked at the Social Security 
Administration, serving in positions that included Acting 
Deputy Commissioner of Social Security.
    Dr. Fichtner has a very impressive background that includes 
stints at the Joint Economic Committee as well as at the 
Internal Revenue Service.
    Given the position he has been nominated to, I think it is 
important to highlight the years he spent at the Social 
Security Administration. It is one thing to understand how 
Social Security as a policy is supposed to work, but entirely 
different to have insight, which he has, into how a government 
agency actually functions.
    So I thank you all for being here, and we are going to 
start with Mr. Kranbuhl. And for all of you, take time to say 
whatever you want the committee to know about you or any policy 
decisions you want to make, and introduce your family as well 
if you want to do that.
    So, proceed, Mr. Kranbuhl.

STATEMENT OF KIPP KRANBUHL, NOMINATED TO BE ASSISTANT SECRETARY 
FOR FINANCIAL MARKETS, DEPARTMENT OF THE TREASURY, WASHINGTON, 
                               DC

    Mr. Kranbuhl. Thanks for the kind introduction, Senator 
Portman, Chairman Grassley, Ranking Member Wyden, members of 
the committee. Thank you for the opportunity to be here before 
you today.
    I am honored to be the President's nominee to be the 
Assistant Secretary of the Treasury for Financial Markets, and 
I am grateful for Secretary Mnuchin's confidence in me.
    Before proceeding, I would like to take a moment to 
acknowledge the love and support of my family, colleagues, and 
friends, including those here with me: my wife of 16 years, 
Page, whose years of public service working on Capital Hill for 
Senator Alexander and others have inspired me; our two curious 
and determined children, Curry and Turner; my mother, Dr. Ann 
Weichert Kranbuhl; and my father, Dr. Michael Kranbuhl, who was 
unable to join us today. Their tireless work as physicians in 
southwest Ohio instilled in me the value of helping others.
    For the past 22 years I have worked in the financial 
markets and securities industry. Through this work, I developed 
practical experience with many of the policy issues covered by 
Treasury's Office of Financial Markets. This has enabled me to 
appreciate the impact that many of our Nation's policies and 
regulations have on all Americans.
    Since the spring of 2017, I have been privileged to serve 
in a variety of capacities within the Office of Domestic 
Finance at the Treasury Department, and I have appreciated the 
opportunity to engage with many of you and your staffs 
throughout this time.
    I began my work at the Treasury Department as the Deputy 
Assistant Secretary for Small Business, Community Development, 
and Affordable Housing Policy. After roughly a year, I was 
asked to take on the role of Acting Assistant Secretary for 
Financial Institutions. I held this position for nearly a year 
prior to taking on my current role as the Principal Deputy 
Assistant Secretary for Financial Markets, where I have worked 
with Treasury's teams from the Offices of Federal Finance, 
Capital Markets, and Public Finance.
    In my time at Treasury, I have led or participated in 
hundreds of stakeholder meetings in order to gather input from 
a broad range of sources so as to inform our perspectives from 
all sides. Through these efforts, I have worked with others at 
Treasury to formulate policy recommendations that have led to 
significant progress toward improving the competitiveness of 
the American financial system, while ensuring that taxpayer 
protection and safety and soundness are at the forefront of 
everything that we do.
    We have worked closely with our executive branch colleagues 
in other departments and regulatory agencies, as well as 
Congress, in order to reduce the risks to the financial markets 
and the American people, while fostering the functioning of 
vibrant financial markets.
    We are also responsible for the financing of the Federal 
Government and the management and issuance of Federal debt--the 
Treasury Department's original purpose, and one of its most 
important. Here, we have worked diligently and successfully to 
maintain our commitment to achieving the lowest cost of 
financing for the American taxpayer by expanding both our 
product portfolio and our investor base.
    Additionally, while keeping the interests of our Nation at 
the top of mind, we have worked closely with our international 
partners in order to prepare for the continuing evolution of 
the global financial markets amidst ever-changing times.
    As I approach the Treasury building each morning on my way 
to work, I walk past scores of visitors who have come to 
Washington from all parts of our country and who are lined up 
to catch a glimpse of our Federal buildings and of how our 
government functions. As I do, I am reminded of the 
responsibility and commitment that I have made to each of them 
as Americans. They inspire, focus, and motivate me.
    If confirmed for this position, I look forward to 
continuing to work closely with Congress, Secretary Mnuchin, 
the outstanding Treasury staff, and others in the 
administration, and to continuing to serve the American people.
    Thank you again for the honor of this hearing, and I look 
forward to answering your questions.
    [The prepared statement of Mr. Kranbuhl appears in the 
appendix.]
    The Chairman. We will hear now from Sarah Arbes.

    STATEMENT OF SARAH C. ARBES, NOMINATED TO BE ASSISTANT 
   SECRETARY FOR LEGISLATION, DEPARTMENT OF HEALTH AND HUMAN 
                    SERVICES, WASHINGTON, DC

    Ms. Arbes. Chairman Grassley, Ranking Member Wyden, members 
of the committee, thank you for having me here today. It is a 
privilege to appear--[stumbling]--I am so nervous. [Laughter.]
    It is a privilege to appear before you as President Trump's 
nominee to serve as Assistant Secretary for Legislation at HHS. 
I would like to thank Secretary Azar and the many others at HHS 
who have been helpful with my nomination at the Department.
    Here with me today is my family--my husband Justin and our 
two children, Reid and June; and my parents, Craig and Janie 
Cudworth. They are my rock, and without their support I would 
not be where I am today.
    Finally, I wish to recognize the amazing HHS Legislative 
Affairs team who work tirelessly every day to fulfill the HHS 
mission to enhance and protect the health and well-being of 
Americans, in part by serving this great institution. They are 
the best team in Washington, and I am so proud to call each and 
every one of them colleagues.
    So I have to tell you, it is really surreal sitting on this 
side of the dais. After nearly a decade as a Senate staffer, I 
fondly remember sitting where your staff sits right now, giving 
advice on hearing strategy, member interest, and ways to 
advance your policy goals. It is those formative years that 
have helped me prepare for the role that I am seeking your 
support for today.
    My experiences in both the majority and minority under 
Chairman Alexander, Leader McConnell, and Senator Jim Talent 
taught me about listening to constituents, the power of 
bipartianship, and the importance of precedence. I owe each of 
them a debt of gratitude for the unique lessons of leadership I 
learned and the opportunity to serve alongside them as they 
worked tirelessly for the great States of Tennessee, Kentucky, 
and Missouri.
    The Office of the Assistant Secretary for Legislation plays 
a critical role in ensuring the communication between the 
executive and the legislative branches that our founding 
fathers envisioned. If confirmed, it would be my job to ensure 
that you receive the technical assistance that you need to 
draft legislation and answers to your questions about the 
Department's programs.
    Additionally, it is the responsibility of this position to 
ensure that you are informed in a timely manner of the 
administration's initiatives and policies, so that together we 
can serve the American people better.
    Over the last 3 years, I have been the Principal Deputy in 
HHS Legislative Affairs. In this role, I am the policy lead for 
our team. And when I think back to all the issues the 
Department has collaborated with this committee on in that 
time, I realize just how much we have accomplished together. 
The list is long.
    If you will indulge me just a moment, I will name just a 
few. We are turning the tide on the opioid epidemic, lowering 
the cost of prescription drugs, providing relief to Americans 
who suffered after Hurricanes Harvey and Irma, protecting 
American medical research from foreign threats, helping more 
foster children find their forever homes, and strengthening 
Medicare.
    If confirmed, I pledge to continue my commitment to the 
close collaboration between HHS, this committee, and Congress 
that will help more Americans live longer, healthier, happier 
lives.
    Thank you again for the opportunity to be here today, and I 
look forward to your questions.
    [The prepared statement of Ms. Arbes appears in the 
appendix.]
    The Chairman. Thank you; and now Dr. Fichtner.

STATEMENT OF JASON J. FICHTNER, Ph.D., NOMINATED TO BE A MEMBER 
    OF THE SOCIAL SECURITY ADVISORY BOARD, SOCIAL SECURITY 
                 ADMINISTRATION, WASHINGTON, DC

    Dr. Fichtner. Thank you. Chairman Grassley, Ranking Member 
Wyden, and members of the committee, thank you for the 
opportunity to appear before you today. And, Chairman Grassley, 
thank you for the very kind introduction.
    I want to take a moment quickly to thank my friends who are 
here today to support me, including my spouse Sara, who is 
sitting behind me today. I also want to thank the President for 
nominating me to serve as a member of the Social Security 
Advisory Board.
    Over a decade ago, I was privileged to serve in several 
positions at the Social Security Administration, including as 
the Acting Principal Deputy Commissioner of Social Security. In 
that capacity, I worked with Congress, the White House, the 
Social Security Advisory Board, stakeholders, and the public to 
support the vital programs administered by the Social Security 
Administration and to improve the service the organization 
provides to the public.
    I was also the Secretary to the Social Security Board of 
Trustees. Additionally, I was instrumental in improving the 
administration's communication materials to the public, 
including the ``When to Start Receiving Retirement Benefits'' 
publication, a publication that informs people how Social 
Security benefits fit into their retirement decision, and one 
that is still used today.
    I believe that my educational and professional experiences 
make me an ideal candidate to serve on this Board. With respect 
to my education, I received my undergraduate degree from the 
University of Michigan, my master's degree in public policy 
from Georgetown University, and my Ph.D. in public 
administration and policy from Virginia Tech. Professionally, 
along with my previous experience at the Social Security 
Administration, I have worked as an economist for the Internal 
Revenue Service and as a senior economist for the Joint 
Economic Committee of the United States Congress.
    I have a long record of published research on issues 
related to Social Security's retirement and disability 
programs, as well as retirement security issues in general. I 
also have a long history of working in a bipartisan manner, 
bringing people together to discuss, deliberate, and address 
the challenges facing the Social Security Administration and 
the vital programs it administers.
    The Social Security Advisory Board makes recommendations to 
the President, the Congress, and the public that, among other 
things, will ensure the quality of service delivery that the 
Social Security Administration provides, including increasing 
the public's understanding of program benefits.
    The heart of any organization is its employees, those who 
work tirelessly every day to fulfill the mission and deliver 
quality services. One of the accomplishments of which I am most 
proud from my tenure at the Social Security Administration is 
getting to know the employees of the agency, many of whom I 
remain in contact with today, and some of whom have shown up 
here today to support me. It is truly a great privilege to once 
again be asked to serve the public and work with those at the 
Social Security Administration.
    The Social Security Advisory Board plays an important role 
in advising how our Nation's important social insurance 
programs can be improved and strengthened and providing advice 
and guidance to the Social Security Administration on ways to 
improve the administration of these very valuable programs.
    Should I be confirmed as a member of the Social Security 
Advisory Board, I pledge to continue working in a bipartisan 
manner to ensure that our Nation's Social Security programs 
provide the best possible service to the public.
    Thank you again for inviting me to testify today, and I 
would be happy to answer any questions.
    [The prepared statement of Dr. Fichtner appears in the 
appendix.]
    The Chairman. We will have 5-minute rounds, starting with 
this Senator and Senator Wyden, and then it looks like it's 
Portman, Casey, Toomey, Whitehouse, Young, Hassan, Sasse, 
Cortez Masto, and Thune.
    First of all, we have always for nominees four obligatory 
questions, so I will read the question and then each of you 
would be expected to say ``yes'' or ``no'' or something like 
that.
    First, is there anything that you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Mr. Kranbuhl. No, sir.
    Ms. Arbes. No, sir.
    Dr. Fichtner. No, sir.
    The Chairman. Okay; thank you. Do each of you know of any 
reason, personal or otherwise, that would in any way prevent 
you from fully and honorably discharging the responsibilities 
of the office to which you have been nominated?
    Mr. Kranbuhl. No, sir.
    Ms. Arbes. No, sir.
    Dr. Fichtner. No, sir.
    The Chairman. Okay; thank you for that.
    Do you agree, without reservation, to respond to any 
reasonable summons to appear and testify before any duly 
constituted committee of the Congress, if you are confirmed?
    Mr. Kranbuhl. Yes, sir.
    Ms. Arbes. Yes, sir.
    Dr. Fichtner. Yes, sir.
    The Chairman. Okay. Finally, do you commit to provide a 
prompt response in writing to any questions addressed to you by 
any Senator of this committee?
    Mr. Kranbuhl. Yes, sir.
    Ms. Arbes. Yes, sir.
    Dr. Fichtner. Yes, sir.
    The Chairman. Now it might not surprise you, Ms. Arbes, I 
am going to start out with that last point. You heard what 
Senator Wyden said about the issue of our oversight. Maybe I do 
not speak as strongly as he does, but let me associate myself 
with his remarks on the importance of oversight.
    So the first question deals with what Senator Wyden went 
into. And then I also had this discussion with Senator 
Alexander. In May of last year, Senator Wyden and I sent an 
oversight letter to HHS regarding reports of mismanagement and 
abuse occurring in facilities belonging to the HHS Office of 
Refugee Resettlement and their grantees.
    HHS initially refused to provide Ranking Member Wyden and 
me with digital productions. And then when some digital 
documents were provided, those digital documents were provided 
in a manner that was unsearchable.
    In the past, HHS has provided document production that can 
at least be made searchable very easily. In most other agencies 
of the Federal Government, we do not have any problem 
whatsoever with digital communication.
    So, a very simple question: would HHS commit to providing 
consistent, usable, searchable digital productions to the 
committee? And I would emphasize the words ``consistent, 
usable, searchable,'' and I would even add ``sortable.''
    Ms. Arbes. Sir, I am absolutely happy to take that back to 
the Department. We will strongly consider finding ways to make 
our documents searchable.
    The Chairman. Okay. We have received some productions 
electronically, but those productions until very recently have 
been primarily unsearchable or unsortable. This makes such a 
large amount of information very, very difficult to use. When 
respondents to the committee provide digital production, it is 
widely understood and expected that they are to be produced in 
a searchable form, or at the very least, in a form that can be 
converted into a searchable format easily.
    So I need to ask again, could you commit to provide 
consistent, usable, and searchable digital production to the 
committee?
    Ms. Arbes. So we are happy to have a further discussion 
about searchable documents. What we have a difficult time with 
is making documents editable. We do need to protect the 
integrity of the documents coming from the Department.
    But I do pledge to work with you and your staff, as we have 
thus far. We have made a tremendous number of accommodations 
for the committee and pledge to continue doing so on a case-by-
case basis.
    The Chairman. Well, you know things like this happen. We 
are told that, well, it is the Counsel of the Department that 
is the problem, so we talk to them. And then they say it is the 
problem of Legislative Affairs. You know, when we get this sort 
of double-talk--and I am not accusing you of double-talk 
because I am sure you are here to tell us what you can do or 
not do, and I do not know what you can do or not do. But the 
point is that it is kind of like, when we just ask all of you, 
would you cooperate with information for Congress--the extent 
to which all of you say ``yes''--and not just you three. I am 
talking about, over a period of 25 years, I have been advising 
people when they come to my office, and you are going to 
respond to our request for oversight, maybe you ought to say 
``maybe'' instead of ``yes.''
    You know, because we do not really get the cooperation we 
are promised, we cannot do our constitutional job of oversight. 
So the bottom line of it is, basically you kind of feel like--I 
do not know whether it is political people in these agencies or 
whether it is the professional people, but it is just like they 
are sticking their finger in our eye. Because it just does not 
make sense that we would get a spreadsheet that is sorted out 
over four things, and when we get it from the Department of 
Defense, we can read it. When we get it from HHS, we cannot 
read it. And that is kind of the problem.
    So I think I will call on Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman. And as always, we 
are teaming up on oversight. And that will be my second 
question.
    But I want to start, if I could, Ms. Arbes, with respect to 
the coronavirus. It seems that there are developments almost by 
the hour every single day. And the administration says they are 
evaluating their response every single day.
    Can you tell me what that means to people in this country 
who may have been exposed?
    Ms. Arbes. Sir, I am not a--I am a communicator by trade; I 
am not a public health expert. But I can assure you that our 
public health experts are working around the clock to 
communicate best practices to the American people as possible--
as much as possible.
    Some of the same standards that apply for preventing the 
flu also apply here: washing hands regularly, sneezing into 
your elbow, other ways of prevention of disease. And if there 
is additional 
follow-up that I can provide that would be helpful for your 
office, I am happy to share that with you.
    Senator Wyden. So if you have been exposed, are you telling 
people what they might do? In other words, I heard about 
washing your hands. We have all heard about that. But my 
question was, what does this mean to people who may have been 
exposed? Those are our constituents, and of course they are 
seeing these news reports hour after hour. So is there anything 
else you can tell me about that?
    Ms. Arbes. The risk to Americans is very, very low. And the 
number of patients who have been affected in the United States 
remains very, very low. And we pledge to continue communicating 
with the American people and with Congress about ways that 
Americans can lower their risk.
    Senator Wyden. So how is the administration communicating 
that information to the local and State health officials?
    Ms. Arbes. The Centers for Disease Control has a 
streamlined process for communicating directly with State and 
local health departments. I would have to defer to them on the 
specifics of exactly how that happens.
    Senator Wyden. Okay, why don't you get us that? Can you do 
that within, say, by close of business today?
    Ms. Arbes. Sure. No problem.
    Senator Wyden. Okay. And what will the Department do to 
keep us, the Congress--as you know, the Finance Committee and 
the HELP Committee play key roles in this. What are you going 
to do to keep us updated with respect to the agency's actions?
    Ms. Arbes. There is an Interagency Task Force that has been 
created, that Secretary Azar chairs. From the Legislative 
Affairs division, we are closely coordinating with our 
interagency partners. We speak to or email each other multiple 
times a day. We are also in touch with the health committees of 
jurisdiction. Secretary Azar, along with CDC Director Redfield; 
the NIH lead for Infectious Disease, Tony Fauci; and Dr. Bob 
Kadlec, who is the Assistant Secretary for Program Response, 
were up here with their State Department and Homeland Security 
colleagues, and Chief of Staff Mulvaney just this morning was 
briefing all Senators.
    This is the second of two briefings. They also had one last 
week, and we also continue one-off communications with our 
principals at----
    Senator Wyden. Let me finish with the oversight issue. We 
have worked with you before, and you have always been very 
professional. So I want to start with that, because I want you 
to know I would take great exception with your comment that the 
Department has made tremendous accommodations--those were your 
words--to work with us on our oversight requests.
    The reality is very different. I mean we were stonewalled, 
and I use that word specifically, for months and months with 
respect to these child shelters. That took place even after we 
narrowed our request.
    And with respect to documents, we do not want to edit your 
documents. We just want to be able to search them. So I will 
let you wrap up this round, because I think you can tell that 
both the chairman and I feel strongly about it.
    What are you going to do to turn this situation around? For 
example, what I would do--unsolicited, but my opinion--I would 
say I am going to report to this committee when you guys make a 
request. I am going to give you a status report every 2 weeks. 
You know, we are not going to have the Finance Committee in the 
dark, because I am very disappointed with respect to Lynn 
Johnson and the team. I went over all these things for weeks 
when she was being considered.
    So what do you think of that? When we have an investigation 
that we think is important, and it is bipartisan, will you 
commit this morning to give us a status report every 2 weeks?
    Ms. Arbes. Absolutely, sir. If that works for your team, we 
are happy to do that.
    Senator Wyden. Done. Thank you, Mr. Chairman.
    Ms. Arbes. May I--if it is all right, Mr. Ranking Member, 
may I respond?
    The Chairman. Yes, please. Go ahead.
    Ms. Arbes. So one thing I want you to know is, I took over 
the leadership of Leg Affairs just this summer. And it was the 
first time I had an opportunity to see what was happening in 
our oversight division. And there have been great strides in 
being much more responsive in the Department.
    Specifically to the ORR letter, we just in November were 
able to pull a career staffer who spends full time responding 
to this letter. And I think you have seen now increased 
document productions, and you have seen a deliberative response 
to that letter.
    And my sincere pledge to you is that kind of response will 
continue.
    The Chairman. Okay.
    Because they are not here, I am skipping over three members 
of the committee to go to Senator Whitehouse.
    Senator Whitehouse. Thank you, Mr. Chairman. I have a 
number of questions, and I would like to inquire if there will 
be time for a second round in order to accommodate them?
    The Chairman. I think with the number of people we have 
here, we cannot have a second round. And I do have an 11:30 
meeting I have to go to. Go ahead with your first round.
    Senator Whitehouse. Okay; can we re-start me?
    The Chairman. Yes. Start his 5 minutes over again.
    Senator Whitehouse. So let me start with Ms. Arbes. First 
of all, welcome. I thank you for the good meeting in my office. 
If you will recall, in the office we discussed the problem of 
what in HHS/CMS arcana we call the rural imputed floor. And as 
you know, that drives reimbursement to hospitals and providers 
in various areas.
    And as you further know, when Ms. Verma came in as 
Administrator, she unilaterally undid the rule for imputed 
rural floor under which we had been operating. And here is the 
effect that happened.
    I showed you this map when we were there together. Here is 
Rhode Island [indicating]. Here is Massachusetts. Here is 
Connecticut. We are the geographically smallest State. So these 
are not big differences.
    If you go from Rhode Island across the border here to St. 
Anne's Hospital, it is probably a 5-minute drive. If you go to 
Charlton, it is maybe 15. If you go to Sturdy, maybe 15 or 20. 
These are hospitals that are very close to our border.
    Because of what CMS Administrator Verma did, these 
hospitals in Massachusetts get 1.2868 as their wage index. We 
get 1.03.
    I have been unable to get a serious or a straight answer 
out of Administrator Verma about this, why a 25-percent 
differential is appropriate in hospitals that close to each 
other?
    And if you go from our east border to our west border, it 
gets worse. Here is Westerly Hospital in Rhode Island. It is 
less than 15 minutes down the road to Lawrence Memorial. Here, 
the margin favoring the Connecticut hospitals is 1.3525. It is 
a 30-percent differential.
    Can you explain under what circumstances it makes sense for 
hospitals within an hour's drive of each other to be reimbursed 
with differentials in reimbursement as great as 25 or 30 
percent?
    [Pause.]
    Senator Whitehouse. No, you cannot. I understand that. And 
it is an unfair question to you, because this is not your job. 
But to the point that the chairman and the ranking member made, 
trying to get information or responses out of that 
organization, out of Administrator Verma's CMS, is so 
infuriating that I now have to be having this conversation with 
you, a good and decent person who is doing a different job, 
because I have no other opportunity.
    And I have hospitals for which this really makes a 
difference. It is a $25-million hit that one hospital took. 
That to me is unfair. And Administrator Verma has got FOIA 
requests from our hospital association that she has not 
answered. If you could see to getting that done, that would be 
helpful.
    And what we were told, what we were told when we first 
questioned this, knowing full well what the damage was going to 
be, this unilateral decision that she made, what we were told 
was, ``Oh, this is part of a broader reform of the imputed 
rural floor.''
    Ms. Arbes, we have seen no sign of any ``broader reform'' 
effort. I do not think we have been told the truth. I do not 
think we have been treated fairly. And I think information 
requests from hospitals that are affected by this have been 
stonewalled by Ms. Verma.
    As you can see, I am very angry about this. We are not 
being treated fairly. There is no good and legitimate reason, 
and fair questions are not being answered.
    So could you, and whoever is here from the organization as 
your minder and handler, please take that back? I spoke about 
it with Secretary Azar just this morning in the briefing you 
discussed on coronavirus.
    Ms. Arbes. Yes, sir. You have my word, I will take it back.
    Senator Whitehouse. Very well. And I think you kept my copy 
of this map, did you not?
    Ms. Arbes. Yes, sir, I did.
    Senator Whitehouse. You have that. Very good.
    So just a quick question for Mr. Kranbuhl, and then we will 
come back to you. 45Q, the carbon capture regulation--this 
thing passed us practically unanimously. Everybody is for it. 
It has been sitting over there for 2 bloody years. Can you 
please kick loose that regulation?
    Mr. Kranbuhl. I appreciate the concern you have. I will do 
my best to certainly take it up with our team, sir.
    Senator Whitehouse. Can you explain to me why it takes 2 
years to write that regulation?
    Mr. Kranbuhl. I cannot. I am not on our tax policy team, 
sir.
    Senator Whitehouse. I think even if you were on your tax 
policy team, you couldn't explain why it took 2 years.
    Thank you.
    The Chairman. The next person, I guess, is Senator Cortez 
Masto.
    Senator Cortez Masto. Good morning. Congratulations on your 
nominations. Welcome to your families.
    Ms. Arbes, I am going to give you a break right now and 
will go to the other two gentlemen who are sitting next to you.
    Let me start with Mr. Kranbuhl. Last September, the 
Treasury Department released its report on housing finance 
reform. If you are confirmed to serve as Assistant Secretary 
for Financial Markets, will you implement the recommendations 
in the report that capital markets should still provide long-
term fixed-rate financing for mortgages?
    Mr. Kranbuhl. In our report, we recommend that there should 
be legislative guarantee. Obviously, if that is not in place, 
we believe that the existing support should remain in effect 
through the Preferred Stock Purchase Agreements.
    Senator Cortez Masto. So that is a ``yes''?
    Mr. Kranbuhl. We believe that should continue to exist and 
are committed to doing so, yes.
    Senator Cortez Masto. Okay; and if you are confirmed, will 
you restrict Fannie Mae and Freddie Mac financing for vacation 
homes, investment properties, and cash-out refinances?
    Mr. Kranbuhl. In our report, we recommended that additional 
study be done on a range of these topics, but we have not made 
a recommendation to----
    Senator Cortez Masto. And what is the time frame for that 
study? And when can we expect a report back?
    Mr. Kranbuhl. Actually, we recommended that FHFA conduct 
that study. So I do not have a time frame for the agency's 
work.
    Senator Cortez Masto. Okay. And the Treasury housing 
finance report recommended alternative approaches to the highly 
successful National Housing Trust Fund, which has been 
beneficial to the State of Nevada. The Housing Trust Fund 
investments have provided housing for low-income elderly 
people, and low-income families in Nevada.
    If you are confirmed, will you recommend any changes to the 
National Housing Trust Fund? And if so, what would you 
recommend?
    Mr. Kranbuhl. In our report, we did not make any specific 
recommendations on altering the Housing Trust Fund or the 
Capital Magnet Fund. We recommended improved approaches to 
affordable housing goals, and to working toward greater 
accountability to ensure their success, to demonstrate their 
success.
    We look forward to working with you, and continue to work 
with others on coming up with ideas on ways to approach this 
challenging topic.
    Senator Cortez Masto. Thank you.
    Dr. Fichtner, in 2017 the Social Security Advisory Board 
held a roundtable with experts to solicit ideas for longer-
range research and program evaluations that the agency might 
conduct.
    One of the recommendations was to explore the sources of 
economic insecurity in retirement, including fraud experienced 
by seniors. Unfortunately, plenty of that fraud comes in the 
form of Social Security scams. Individuals have filed nearly 
73,000 reports with the Federal Trade Commission about Social 
Security imposters in the first 6 months of 2019. That amounts 
to about $17 million in reported losses.
    Do you think the Advisory Board should be taking a closer 
look at new and better ways that SSA could stem fraud related 
to the impersonation of its employees?
    Dr. Fichtner. The short answer is, yes, Senator. And good 
morning. Thank you for being here. I appreciate that. But the 
Advisory Board should definitely help the administration, the 
agency, on what we can do to prevent fraud, waste, and abuse, 
including obviously imposters.
    One of the things I was glad to see was, I went on the 
Advisory Board's website and they did have a warning to be 
careful of frauds that are going on right now. So there is more 
they can do, and, if confirmed, I will do----
    Senator Cortez Masto. Thank you; and I would like to work 
with you to the extent possible with the Board. This is an area 
that I have worked on in the past, and I think it is something 
that needs to be addressed. So I appreciate your comments.
    Let me ask you this. What would be your top research 
priorities for the Board?
    Dr. Fichtner. So one is, obviously, reducing improper 
payments, fraud, waste, and abuse, and that includes identity 
fraud.
    The second would be the research agenda programs, including 
demonstration projects for those on SSDI whom we might be able 
to help get back to work.
    A third would be IT modernization. The agency still has 
millions of lines of COBOL that it uses for----
    Senator Cortez Masto. Say that again.
    Dr. Fichtner. Millions of lines of COBOL. The agency has to 
train people outside of Baltimore to keep up their systems. It 
is like a form of indentured servitude for those who actually 
code these programs. They have jobs for life right now. It is 
still a process to move those systems over to more modern code.
    So IT modernization is definitely one of the top priorities 
we would help the agency with on the Board.
    Senator Cortez Masto. Thank you; and again, congratulations 
on your nominations.
    Dr. Fichtner. Thank you, Senator.
    The Chairman. Senator Casey?
    Senator Casey. Thanks, Mr. Chairman. I want to start this 
morning with Ms. Arbes--Medicaid in particular. This is a 
program that, frankly, I think until recently a lot of 
Americans may have under-appreciated. But until the threats to 
Medicaid increased and the proposals to cut it, to change it, 
on some days to even obliterate a lot of it, I do not think 
many Americans had a full sense of how important it is to the 
country.
    It is a program that I think speaks to our values, about 
how we provide health care for children, many of whom, most of 
whom are in urban and rural communities. It is a program that 
makes it possible for a lot of hospitals to stay open, 
especially in rural America.
    I represent a State that has 67 counties, but 48 are 
considered rural. So Medicaid is not just about some distant 
health-care program, it is about health care and jobs and the 
viability of hospitals.
    It obviously plays a determinative role in whether or not 
someone can get into a nursing home. Most Americans are not 
wealthy enough to pay for that care. Absent Medicaid, it cannot 
happen. It will not work.
    It is of great significance to people with disabilities, 
especially children. And I do not understand, and will never 
understand, the obsession by some to cut or to change it.
    Now we have a proposal to block-grant Medicaid. I think it 
is--I do not think it is lawful, but it is obviously an 
approach the administration has taken. I have been asking for 
information by way of letters to the administration. I have 
written four, on four different occasions, to request more 
information from the administration, whether it is from 
Secretary Azar or Administrator Verma.
    The first document I saw that was relevant to this question 
of block grants was the HHS announcement. The press release in 
this case was detailing HHS's, quote, ``healthy adult 
opportunity'' guidance. A very strange name for what was being 
proposed.
    So I would ask you--and I know you have worked in the 
Senate. You know how important this is to the chairman and 
others, to make document production and the availability of 
documents and information a high priority.
    So I would ask you to commit to producing the documents 
that are responsive to my requests.
    Ms. Arbes. Sir, I am happy to work with CMS, to the extent 
that we are able. But it is--we will be--at the end of the day, 
the documents are with CMS, and we will work very closely with 
them in partnership to be as responsive as we can be.
    Senator Casey. Well, just to give you a sense of the 
letters: March of 2019, October of 2019, February of this year. 
You, I think, understand this, having done the work that you 
have done. I hope we would be able to sit down and work out an 
agreement as to how to get those documents.
    It seems to be, in my judgment, at least in the work that I 
do, an administration-wide problem. It is especially egregious 
when you are talking about vulnerable Americans, vulnerable 
Pennsylvanians, who are served by this program.
    This is not some, you know, ``theoretical'' government 
program. This is about people's lives. And I hope you would 
approach it that way, were you to be confirmed.
    Secondly, in the context of Medicaid more broadly, but in 
particular managed care, I have written to Administrator Verma 
asking that CMS investigate a particular company's conduct in 
terms of how it provided managed care, and provide documents 
detailing how CMS dealt with this particular case, which 
involved the permanent injury to a child.
    I had an opportunity to sit down with Administrator Verma 
last year, late last year, and we might have--and I think we 
do, based upon that meeting--some common ground. But I have not 
received the information that I need that is responsive to 
those questions about Medicaid managed care, an issue that cuts 
across geographic boundaries and different areas of the 
country.
    So I would ask you, again, to commit to producing the 
documents that I requested in the context of Medicaid managed 
care.
    Ms. Arbes. Sir, I am happy to follow up with the 
Administrator and her team and check on the status and see 
where things stand.
    Senator Casey. Let me just--I will submit a question for 
the record for Dr. Fichtner regarding Social Security, but I 
will do that in writing and ask that you respond. Thank you.
    Dr. Fichtner. Yes, sir.
    The Chairman. Senator Brown is the next one.
    Senator Brown. Thank you, Mr. Chairman.
    I join--I know Senator Cortez Masto has strong feelings 
about this too, on the Banking Committee. And, Mr. Kranbuhl, I 
want to talk to you about that.
    If you are confirmed, a key piece of your portfolio will be 
housing finance policy, including GSE reform, as you know. I 
understand you are involved in developing the Treasury 
Department's housing finance reform report. In the Banking 
Committee we held several hearings last year on housing 
finance, Senator Crapo and I did.
    We heard from a number of stakeholders. There was consensus 
around a few key principles. They told the committee that 
housing reform, finance reform, must preserve access to the 
affordable 30-year fixed-rate mortgage; ensure a broad, 
national market; and have GSEs that function like utilities, 
with limits on returns.
    They provide a government backstop. They treat lenders of 
all sizes equally. Essentially, they preserve the duty to serve 
in affordable housing goals. They preserve the family market. 
They boost funds for affordable housing.
    We know we face in this country an affordable housing 
crisis. A quarter of renters--I think you know these numbers, 
but they are so important--a quarter of renters spend half 
their income on housing, and home ownership is out of reach for 
more and more people in Rhode Island, and Nevada, and 
Louisiana, and Washington State, and all of us.
    We have huge racial disparities that are getting worse. 
Black home ownership rate is back to the level it was, 
unbelievably, before we outlawed housing discrimination. It is 
back to those levels.
    I am concerned the proposal you helped author will make 
home ownership and rental housing even more expensive and less 
available for families across the country. The affordable 
housing goals and the duty to serve ensure that GSEs are 
providing access to mortgage loans and affordable rental 
housing for low- and 
moderate-income borrowers, and in hard-to-serve markets like 
rural areas, not just for suburban homes and high-cost 
apartments.
    In its report that you had a role in, apparently, Treasury 
states that, quote, ``The GSEs' statutory mandate should be 
reform''; that ``GSEs' statutory affordable housing goals 
should be replaced.''
    But when Secretary Mnuchin testified in September, he told 
the Banking Committee that ``Treasury supports the duty to 
serve, as well as the affordable housing goals.'' That is a 
quote, the opposite of what is in your report.
    So we are clear, does Treasury--clarify this, please. Does 
Treasury support maintaining a duty to serve under-served 
markets, contributions to affordable housing funds, and the 
GSEs' affordable housing goals in any housing finance system? 
What is its position?
    Mr. Kranbuhl. Thank you for your question. I appreciate 
your passion on the topic. Our position is that we believe that 
these goals are all important; that they need to be revised, 
reformed to allow for greater accountability. But we recommend 
no cuts to any of these--any of these positions, any of these 
goals.
    Senator Brown. So ``important''? Does that mean essential? 
Everything is important in this town, and in this government, 
and in this Treasury Department. So does that mean duty to 
serve, affordable housing goals, are those essential to what we 
ultimately agree on? Or are they just ``important''?
    Mr. Kranbuhl. Well, I believe they are essential to the 
ongoing accessibility of affordable housing. Our recommendation 
recommends that these be reformed so they can, as you said, 
make more progress than has been made thus far.
    Senator Brown. Thank you. We will continue to follow up and 
watch, and thank you for that.
    One other issue. I have found something that is really 
troubling: the involvement of private equity in our housing 
system. Across the country, we have seen private equity 
companies buying up single-family homes, turning them into 
rental properties, leaving them vacant, I assume for tax 
reasons in some cases.
    They were especially interested in buying up manufactured 
housing communities and apartment buildings where they raise 
rents and force out tenants. And if you are in manufactured 
housing, you are in what we call a ``trailer park''--if you are 
in one of those places and a private equity firm buys that park 
and dramatically raises rents, you cannot really move your 
house very easily at any reasonable kind of cost.
    As part of its work on housing markets and affordable 
housing, has Treasury been tracking the breadth and scope of 
private equity investors, what they are doing, what they are 
considering, as they buy up broad swaths of communities? Has 
Treasury monitored private equity's impact on housing 
affordability and quality?
    Mr. Kranbuhl. Treasury is watching a range of impacts on 
affordable housing in looking for solutions to improve the 
crisis we face. Any recommendations you have to help us in that 
process would be welcome.
    Senator Brown. Okay. Thank you for the offer. What are you 
doing about--are you personally aware, or have you heard 
conversations among the right people at Treasury about a 
concern about them buying these manufactured housing places?
    Mr. Kranbuhl. We are aware of what you are describing, sir. 
We certainly appreciate the current law requiring duty to serve 
manufactured housing.
    Senator Brown. So if you--do you recognize it as a serious 
problem?
    Mr. Kranbuhl. I would have to learn more about the specific 
challenges it presents, but I certainly appreciate that it 
could be a challenge.
    Senator Brown. Could you outline, by letter to us, sort of 
an evaluation of how serious it is with recommendations about 
what you could do at Treasury, or what we could do in Congress?
    Mr. Kranbuhl. I would be happy to work with you further to 
answer any questions you have on this, and work with you and 
your staff to try to make sure this problem is addressed.
    Senator Brown. A year ago in the chairman's home State, I 
met with a number of families that had had this happen to them, 
and their rents were going from, I recall, upper 200s to $400, 
over a year or so. And what that means to somebody who is 
living there who may have spent $60,000 for their home, have 
the plot in the housing community, and then see their rent 
increase by 50 percent when they are already spending 50 
percent of their income on housing is, it is just devastating 
to the communities. And we have to find a way to fight back, 
and we look to Treasury for leadership.
    Thank you.
    The Chairman. Senator Cassidy?
    Senator Cassidy. Thank you.
    I think I have had a chance to work with all three of you. 
I am sorry that Senator Casey is not here, Ms. Arbes, because 
he would be reassured regarding the Medicaid program. It is 
voluntary. A State does not have to do it. It is only for the 
expansion population. And it begins to put in accountability 
measures that are sorely lacking in Medicaid right now.
    And so I think we will find better outcomes for those 
folks.
    Mr. Kranbuhl, I am always favorably disposed to somebody 
whose parents are both physicians, as I am married to a doctor 
and I too am one, but let me specifically ask: I recently 
learned that nearly $26 billion in matured unclaimed debt 
presently sits on the books at Treasury. These funds are 
related to the fact that Americans have made the patriotic 
decision to purchase U.S. Savings Bonds backed by the full 
faith and credit of our government.
    The Senate is currently considering legislation introduced 
by my Louisiana colleague, Senator Kennedy, to reunite these 
funds with their owners or heirs.
    Can you tell me more about the work Treasury is doing via 
online tools to help Americans locate their mature savings 
bonds? And remember, I have one worth $50 for my son, and I 
cannot find the sucker. So what do we do about that?
    Mr. Kranbuhl. I appreciate the question. It is something I 
know we are working closely with Senator Kennedy and his team 
on. Our Office of Fiscal Management is working to create a 
digital platform, and I look forward to working with you more 
on that in any way I can help.
    Senator Cassidy. Do you think this would be enough to 
resolve the issue? There are over $337 million in Louisiana 
owed to my constituents, and unless they know to look on that 
online platform--you know, if mama bought it and mama died, 
they are not going to think about that.
    So is the online tool going to be enough?
    Mr. Kranbuhl. I am not certain it will be enough, but we 
look forward to coming up with any ideas you might have and 
ways we can help to improve that.
    Senator Cassidy. So I take that as a pledge, if you will, 
to work with me and Senator Kennedy as regards how to approach 
this?
    Mr. Kranbuhl. Yes, sir.
    Senator Cassidy. Thank you.
    Dr. Fichtner, I thought that Social Security had already 
updated their IT systems, having, by the way--speaking of 
giving you more about my life again than you care to know--been 
the subject of identity theft, and yet you tell me there are a 
million lines of COBOL. So what about all this money we have 
already given you, so to speak? What has happened to it? And 
how much inadequacy is there still there?
    Dr. Fichtner. Senator, thank you. Information technology is 
an ongoing improvement process. As you know, the Social 
Security Administration is very, very large and has a lot of 
records, including medical records. I am not sure about today, 
but when I was there 10 years ago Social Security was the 
largest repository of electronic medical records in the world.
    The information volumes coming into the agency are large, 
and those systems have to be updated in priority fashion. And 
they are still trying to update them. And that includes 
websites. That includes the ability for online filing, 
processing claims, processing online requests for disability, 
for retirement. That is an ongoing process.
    The money has been spent wisely. I know the current 
Commissioner has been talking to you about the agency's budget 
needs. And I am also looking forward to seeing the agency's 
budget request.
    Senator Cassidy. So let me ask you this, then. There is one 
of your colleagues, Social Security colleagues, or future 
colleagues, who said recently on the House side she is 
concerned that Social Security is used as a unique identifier 
for medical records, because it gives one number which accesses 
both your health record as well as your financial records.
    And that one number used for both is double jeopardy, if 
you will. Implicit in that is that she said if we were going to 
improve the privacy that Americans have, we need to have one 
identifier for one, another identifier for the other.
    What are your thoughts about that?
    Dr. Fichtner. I completely agree, Senator. And to Senator 
Cortez Masto's earlier comment on identity theft and fraud, one 
of the issues that Social Security is helping to work with 
Medicare on at HHS now is moving over to a Medicare number that 
is not the Social Security number, so there can be two separate 
numbers. So I think that is very important.
    Senator Cassidy. And would that Medicare number be only 
once you become eligible for Medicare? Or would that number be 
one that you would have that would protect your privacy of your 
medical records throughout your life?
    Dr. Fichtner. That I actually do not know, Senator. It is a 
very good question, and I will look into it. But I think you 
make a very good point, that there could be an issue of having 
a separate health care record number.
    Of course there are privacy concerns that people have about 
having national identity numbers in general. There was always a 
concern----
    Senator Cassidy. So effectively Social Security is a 
national identifier number now, it has just taken you in two 
directions, and we only want it to go in one. Correct?
    Dr. Fichtner. That is correct, Senator. And there has been 
a lot of concern that Social Security has become a national 
identifier, and that is one of the problems we have when we're 
thinking about fraud, waste, abuse, and identity theft.
    Senator Cassidy. So if I am going to keep an insurance 
company--or we should not say an insurance company, but someone 
less reputable, from delving into a--they steal my Social on 
the dark web. Now they can get into my medical records, and 
maybe into my genetic code, which gives implications about my 
family members. We need to have a separate unique identifier at 
least to increase the probability of separation.
    Dr. Fichtner. That is correct. I would also say that, 
regardless of what number we use and how many numbers we have, 
we have to make sure those numbers are secure.
    Senator Cassidy. Got it. Thank you. I yield back.
    The Chairman. Before I call on Senator Cantwell, this is 
how we will end this meeting, after Senator Whitehouse is done.
    Senator Wyden and I are going to put our questions for a 
second round in the record for you to answer in writing. And 
then one sort of admonition here. Speaking for both Senator 
Wyden and me, for Ms. Arbes, I hope you have taken home from 
this meeting that we are very serious about getting this 
oversight stuff wrapped up in a way that is information that is 
searchable, sortable, so we can do our work right. And there is 
no reason for this to go on the months that it has.
    Senator Cantwell?
    Senator Cantwell. Thank you, Mr. Chairman. And 
congratulations to all the nominees.
    I would like, Mr. Kranbuhl, to go back to housing, and 
affordable housing, if I could. If you are confirmed as 
Assistant Secretary for Financial Markets, one of the key 
responsibilities will be housing finance and GSE reform. And as 
my colleagues said, we are in the middle of an affordable 
housing crisis, not just for low-income people but middle-class 
families as well, particularly in the Pacific Northwest.
    This is practically every corner of our State. Housing 
prices have been soaring, and people are priced out of the 
market. My colleague, Senator Young, and I on this committee 
have been working to improve the Low-Income Housing Tax Credit 
so that people can buy affordable housing. Treasury's recent 
housing reform plan would restrict access for certain types of 
loans, including the high-balance loans, which are the only 
types loan borrowers can afford in markets like Seattle. It 
also proposes to restrict types of loans that make it possible 
for Fannie and Freddie to offer affordable pricing to low- and 
moderate-income buyers.
    So how would you increase affordability?
    Mr. Kranbuhl. That is something we are working closely with 
our colleagues at HUD to explore. The President has established 
a White House Council on Affordable Housing to study these 
issues, and we are actively engaged at Treasury on the topic.
    I look forward to any ideas you might have to improve the 
access to affordable housing. As you mentioned, it is a crisis 
that needs to be addressed as best as possible.
    Senator Cantwell. Well, with that layup, I will tell you 
that the best way to do it is to increase the amount of capital 
for the affordable housing tax credit. Ninety percent of the 
federally financed affordable housing that gets built in the 
United States gets built with the tax credit.
    So if we do not increase the amount of capital available to 
that tax credit, we are not going to get out of this problem 
very quickly. And our previous hearings in this committee have 
distinguished from testimony that we are now paying 25 percent 
more for the population because they do not have affordable 
housing.
    So to me it is an economic issue of: make this investment, 
stimulate the economy, and then reduce the cost that these 
people are bringing. We actually have hospitals in our State 
that are now buying affordable housing opportunities because it 
is cheaper for them to help finance affordable housing than to 
see this rotation of patients come through their hospitals. 
That is how dramatic the problem is.
    So do you think increasing the affordable housing tax 
credit is one of those options?
    Mr. Kranbuhl. I think that we should explore all options, 
including looking at the potential impact that the Low-Income 
Housing Tax Credit could have on improving the situation.
    Senator Cantwell. Well, one of the things that we could 
easily do is fix the 4-percent floating rate that I think makes 
the program less effective by creating a 4-percent floor. So we 
can get that information to you, and you can look at that and 
give us some feedback. But that might be a very cost-effective 
way to just immediately provide 20 percent more housing in the 
market.
    But I am glad to hear my colleague, Senator Brown, talk 
about the problems in Ohio. This is not just a Seattle problem 
because we have a hot economy; this is a problem that is based 
on demographic trends, according to Harvard analysis. I can 
tell you, I have been a participant in so many reports 
released. This is a huge shift.
    It is an aging population that does not have enough money 
for affordable housing. It is returning veterans who do not 
have enough affordable housing. It is workplace market rate-
based housing too. It is the devastation that we have never 
recovered from since the recession, and the lack of supply. It 
is really a lack of supply issue that we have to correct.
    So I hope that we can work with you and, Mr. Chairman, I 
hope at some point in time we can have a hearing on this as 
well--the possibilities of affordable housing solutions--
because it really is facing so many parts of our State. And I 
can say particularly from an agricultural perspective, it is 
hard to even get agriculture to work for us without affordable 
housing. So I hope we can address this issue.
    The Chairman. Thank you. Now, Senator Whitehouse.
    Senator Whitehouse. Thank you.
    The Chairman. For 5 minutes. Is that okay?
    Senator Whitehouse. Sure. That should be fine.
    Mr. Kranbuhl, as you know, we talked in my office about the 
financial sector ringing right now with warnings about climate 
change financial impacts. And I have brought this to the 
attention of my colleagues in the July 18, 2018 letter that I 
gave a copy of to you when we met. I sent another letter in 
December of 2019 to all the members of the Senate Banking 
Committee warning of these.
    I have provided every colleague the binder that I gave to 
you of reports relating these various economic risks. They 
include--I will just go through a couple right now. The Bank 
for International Settlements' Green Swan Report says that 
central banks, regulators, and supervisors have increasingly 
recognized that climate change is a source of major systemic 
financial risks.
    Is the phrase ``major systemic financial risks'' one that 
is a serious phrase in the financial world?
    Mr. Kranbuhl. It is a serious phrase, yes, sir.
    Senator Whitehouse. It goes on to say, ``Climate 
catastrophes are even more serious than most systemic financial 
crises,'' and that ``exceeding climate tipping points could 
lead to catastrophic and irreversible impacts that would make 
quantifying financial damages impossible.''
    ``Catastrophic and irreversible'' is self-evidently 
dangerous language, is it not?
    Mr. Kranbuhl. Yes, sir.
    Senator Whitehouse. Blackrock recently wrote to the 
financial community that in the near future, and sooner than 
most anticipate, there will be a significant reallocation of 
capital. Indeed, they forecast an entire change in the way 
financial markets operate, did they not?
    Mr. Kranbuhl. Yes, sir.
    Senator Whitehouse. Yes, they did.
    McKinsey has put out a report: ``Climate change could make 
long-duration borrowing unavailable, impact insurance costs and 
availability, and reduce terminal values and trigger capital 
reallocation asset repricing.''
    Are those also significant warnings?
    Mr. Kranbuhl. Yes, sir.
    Senator Whitehouse. The Bank of England has warned that 
``the combination of the weight of scientific evidence and the 
dynamics of the financial system suggest that in the fullness 
of time climate change will threaten financial resilience and 
longer-term prosperity, and that, in particular, investments in 
fossil fuels and related technologies may take a huge hit.''
    And it is not just the Bank of England. Thirty-four central 
bank presidents got together to warn the financial community, 
and I quote here, ``Estimates of losses are large, and range 
from $1 trillion to $4 trillion when considering the energy 
sector alone, or up to $20 trillion when looking at the economy 
more broadly. Average global incomes may be reduced by up to a 
quarter by the end of the century.''
    Are those serious warnings as well, from 34 central bank 
presidents?
    Mr. Kranbuhl. Yes, sir.
    Senator Whitehouse. Cambridge University recently proposed 
that the existence of a carbon bubble could discount global 
wealth by U.S. $1 to $4 trillion, a loss comparable to the 2008 
financial crisis.
    Freddie Mac, which is not an environmental organization, 
described, just on coastal property value loss, that the 
economic losses and social disruption may happen gradually, but 
they are likely to be greater in total than those experienced 
in the housing crisis and the Great Recession.
    And I did not have time to get it made up, because it just 
came out, but a January 2020 report from the Stanford Graduate 
School of Business notes that the financial risks from climate 
change are systemic and singular in nature, and I quote here: 
``Global economic losses from climate change could reach $23 
trillion, three or four times the scale of the 2008 financial 
crisis.''
    For those of us who weathered that, that is a pretty 
serious warning, is it not?
    Mr. Kranbuhl. Yes, sir.
    Senator Whitehouse. So my question to you is, given that 
even Fed Chairman Powell has said, ``I think the public has 
every right to expect, and will expect, that we will ensure 
that the financial system is resilient and robust against the 
risks from climate change,'' what are you doing at Treasury? It 
seems to me you are ignoring these warnings. And if so, why? 
And I would be delighted to have you take time answering it 
now, but I also would make that a question for the record so 
that I get as full and fair and complete an answer as I can.
    Mr. Kranbuhl. I appreciate your passion on this topic, and 
this important issue----
    Senator Whitehouse. It is not just my passion. It is 
frightening warnings from people who know their stuff and are 
not even environmentalists.
    Mr. Kranbuhl. As Secretary Mnuchin said, this is--climate 
change is one of the range of important environmental issues 
that becomes an economic issue because there is no question 
that environmental issues impact our economy.
    I hope that we can all work together to help solve this 
challenging issue.
    Senator Whitehouse. Well, let us take that as a QFR then, 
if I may, so I can get a more specific answer to my specific 
questions.
    One, does Treasury take this seriously? Two, what 
demonstrations are there that the Treasury takes this 
seriously? Three, is Treasury ignoring this problem? Four, is 
Treasury ignoring this problem because of pressure from the 
fossil fuel industry? And if none of that is true, what are you 
doing to protect our financial system against the catastrophes 
that are so clearly warned of by so many sources? Fair enough 
question?
    Mr. Kranbuhl. Yes, sir.
    Senator Whitehouse. Thank you.
    The Chairman. And thank you, Senator Whitehouse.
    In closing, obviously I should thank you once again for 
your attendance and participation today, for the members who 
were here as well as for you folks who are on the panel, the 
nominees. I thank you for your willingness to serve in these 
critical roles that you are up for.
    And for the committee staff and members, for questions to 
be submitted for the record, I ask that that be done by 5 
o'clock Friday, February 7th.
    Meeting adjourned. Thank you all very much.
    [Whereupon, at 11:26 a.m., the hearing was concluded.]

                            A P P E N D I X

              Additional Material Submitted for the Record

                              ----------                              


    Prepared Statement of Sarah C. Arbes, Nominated to be Assistant 
   Secretary for Legislation, Department of Health and Human Services
    Chairman Grassley, Ranking Member Wyden, members of the committee, 
thank you for having me here today. It is a privilege to appear before 
you as President Trump's nominee to serve as Assistant Secretary for 
Legislation at HHS. I would also like to thank Secretary Azar and the 
many others at HHS who have helped with my nomination.

    Here with me today is my family--my husband Justin and our two 
children, Reid and June, as well as my parents, Craig and Janie 
Cudworth. They are my rock, and without their support, I would not be 
where I am today. Finally, I wish to recognize the amazing HHS 
legislative affairs team who work tirelessly every day to fulfill the 
HHS mission to enhance and protect the health and well-being of all 
Americans in part by serving this great institution. They are the best 
team in Washington, and I'm proud to call each and every one of them 
colleagues.

    I have to tell you that it's surreal sitting on this side of the 
dais. After nearly a decade as a Senate staffer, I fondly remember 
sitting where your staff sit now, giving advice on hearing strategy, 
member interests, and ways to advance your policy goals. It's those 
formative years that have helped to prepare me for the role I am 
seeking your support for today.

    My experiences in both the majority and minority under Chairman 
Alexander, Leader McConnell, and Senator Jim Talent taught me about 
listening to constituents, the power of bipartisanship, and the 
importance of precedence. I owe each of them a debt of gratitude for 
the unique lessons of leadership I learned and the opportunity to serve 
alongside them as they worked tirelessly for the great States of 
Tennessee, Kentucky, and Missouri.

    The Office of the Assistant Secretary for Legislation plays a 
critical role in ensuring the communication between the executive and 
legislative branches that our Founding Fathers envisioned. If 
confirmed, it would be my job to ensure you receive the technical 
assistance you need to draft legislation and answers to your questions 
about the Department's programs. Additionally, it is the responsibility 
of this position to ensure you are informed in a timely manner of the 
administration's initiatives and policies so that, together, we can 
serve the American people better.

    Over the last 3 years, I have been the principal deputy in HHS 
legislative affairs. In this role, I am the policy lead for our team. 
When I think back to all of the issues that the Department has 
collaborated with this committee on in that time, I realize how much we 
have accomplished together.

    The list is long.

    If you'll indulge me a moment, I'll name just a few. We are turning 
the tide in the opioid epidemic, lowering the cost of prescription 
drugs, providing relief to Americans who suffered after Hurricanes 
Harvey and Irma, protecting American medical research from foreign 
threats, ensuring quality nursing home care, helping more foster 
children find their forever homes, and strengthening Medicare.

    If confirmed, I pledge to continue my commitment to the close 
collaboration between HHS, this committee, and Congress that will help 
more Americans live longer, healthier, happier lives.

    Thank you again for the opportunity to be here today. I look 
forward to your questions.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

 1.  Name (include any former names used): Sarah Cudworth Arbes 
(married name), Sarah Melice Cudworth (maiden name).

 2.  Position to which nominated: Assistant Secretary for Legislation, 
U.S. Department of Health and Human Services.

 3.  Date of nomination: October 30, 2019.

 4.  Address (list current residence, office, and mailing addresses):

 5.  Date and place of birth: July 14, 1979, in Richmond, VA.

 6.  Marital status (include maiden name of wife or husband's name):

 7.  Names and ages of children:

 8.  Education (list all secondary and higher education institutions, 
dates attended, degree received, and date degree granted):

        Syracuse University (Syracuse, New York); attended 2004-2005, 
        master of public administration granted July 1, 2005.

        The University of Oklahoma (Norman, Oklahoma); attended 1997-
        2001, bachelor of arts in journalism granted May 12, 2001.

        USDA Graduate School (Washington, DC); attended 2004, no degree 
        received.

        Carl Albert State College (Poteau, Oklahoma); attended 1998-
        1999, no degree received.

        Louisiana School for Math, Science, and the Arts (Natchitoches, 
        Louisiana); attended 1995-1997, high school diploma granted May 
        24, 1997.

        Franklinton High School (Franklinton, Louisiana); attended 
        1994-1995; no degree received.

        Bowling Green School (Franklinton, Louisiana); attended 1993-
        1994, no degree received.

 9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment for each job):

        June 2019-present; Acting Assistant Secretary for Legislation, 
        U.S. Department of Health and Human Services, Washington, DC.

        March 2017-present; Principal Deputy Assistant Secretary for 
        Legislation, U.S. Department of Health and Human Services, 
        Washington, DC.

        February 2016-March 2017; vice president (health and retirement 
        policy), Business Roundtable, Washington, DC.

        February 2013-January 2016; Deputy Health Policy Director, U.S. 
        Senate Committee on Health, Education, Labor, and Pensions 
        (Chairman Lamar Alexander (R-TN)), Washington, DC.

        January 2011-February 2013; Legislative Assistant, U.S. Senator 
        Mitch McConnell (R-KY), Washington, DC.

        January 2010-January 2011; vice president, government affairs, 
        Retail Industry Leaders Association, Arlington, VA.

        July 2007-December 2009; senior director, government affairs, 
        Retail Industry Leaders Association, Arlington, VA.

        January 2007-July 2007; Legislative Assistant (Schedule C 
        Appointee), U.S. Department of Labor, Washington, DC.

        November 2006-January 2007; Legislative Correspondent and 
        Senior Constituent Caseworker, U.S. Senator Jim Talent (R-MO), 
        Washington, DC.

        February 2003-November 2006; Caseworker, U.S. Senator Jim 
        Talent (R-MO), Washington, DC.

        October 2002-February 2003; media planner, Lyons and Sucher 
        Advertising, Arlington, VA.

        September 2002-October 2002 (approx.); media assistant, Earle 
        Palmer Brown, Bethesda, MD.

        Fall 2002 (approx.); waitress, McCormick and Schmick's Seafood 
        Restaurant, Reston, VA.

        December 2001-September 2002; E. James White Communications, 
        media assistant, Herndon, VA.

        Off and on employment between 2001-2004 (approx.); sales 
        associate, Bicycle Pro Shop, Washington, DC.

        November 2001-December 2001; intern, U.S. Senator Tim 
        Hutchinson (R-AR), Washington, DC.

        August 2001-October 2002; bartender, Mike's American Grill, 
        Springfield, VA.

        June 2001-August 2001; sales associate, Village Cycle Center, 
        Chicago, IL.

10.  Government experience (list any current and former advisory, 
consultative, honorary, or other part-time service or positions with 
Federal, State, or local governments held since college, including 
dates, other than those listed above):

        None.

11.  Business relationships (list all current and former positions held 
as an officer, director, trustee, partner (e.g., limited partner, non-
voting, etc.), proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, other business enterprise, or 
educational or other institution):

        None.

12.  Memberships (list all current and former memberships, as well as 
any current and former offices held in professional, fraternal, 
scholarly, civic, business, charitable, and other organizations dating 
back to college, including dates for these memberships and offices):

        2017-present; participant, ASIA Families.

        2002-2003; board member, the OU Alumni Capital Club.

        2000-2001; chair, Union Programming Board, the University of 
        Oklahoma.

        1997-1999; chapter president and founder, OU Circle K 
        International.

        October 1997-present; member, Delta Gamma Fraternity.

13.  Political affiliations and activities:

        a.  List all public offices for which you have been a candidate 
        dating back to the age of 18.

       None.

        b.  List all memberships and offices held in and services 
        rendered to all political parties or election committees, 
        currently and during the last 10 years prior to the date of 
        your nomination.

       2014 Election Cycle, phone bank volunteer, National Republican 
Senate Committee (NRSC).

       October 2014 (one week), campaign volunteer, Mitch McConnell for 
U.S. Senate.

        c.  Itemize all political contributions to any individual, 
        campaign organization, political party, political action 
        committee, or similar entity of $50 or more for the past 10 
        years prior to the date of your nomination.

       None.

14.  Honors and awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement received 
since the age of 18):

        The Professional Scholar Award, Maxwell School of Citizenship 
        and Public Affairs, Department of Public Administration, 
        Syracuse University.

        10-year Federal service recognition.

15.  Published writings (list the titles, publishers, dates, and 
hyperlinks (as applicable) of all books, articles, reports, blog posts, 
or other published materials you have written):

        Cudworth, Sarah. (2007). ``The U.S. Coast Guard: Land-Based Law 
        Enforcement Authority and Effective Coordination With State and 
        Local Government.'' Student Association of Terrorism and 
        Security Analysis Journal on Terrorism and Security Analysis, 
        Volume 2, Pages 37-43.

16.  Speeches (list all formal speeches and presentations (e.g., 
PowerPoint) you have delivered during the past 5 years which are on 
topics relevant to the position for which you have been nominated, 
including dates. Provide the committee with one digital copy of each 
formal speech and presentation):

        I did not prepare a PowerPoint presentation or a written speech 
        for any of the following public speaking engagements:

        January 23, 2019; Role: Presenter; Organizer: Tarplin, Downs, 
        and Young; Audience: Clients of the organization; Topic: 
        Informal presentation of HHS priorities on Capitol Hill.

        October 10, 2018; Role: Presenter; Organizer: America's 
        Physician Group; Audience: Board of Directors--2018 Colloquium; 
        Topic: Informal presentation of HHS priorities on Capitol Hill.

        May 2017; Role: Presenter; Organizer: American Benefits 
        Council; Audience: Policy Board of Directors Meeting; Topic: 
        Presentation of HHS priorities on Capitol Hill.

        September 14, 2015; Role: Panelist; Organizer: Ripon Society; 
        Audience: Members of the Ripon Society; Topic: Discussion of 
        Senate HELP Committee health-care policies in Congress.

        May 19, 2015; Role: Presenter; Organizer: Enquiron, The 
        Partnership to Fight Chronic Disease and Population Health 
        Alliance; Audience: Webinar; Topic: Discussion of workplace 
        wellness legislation in Congress.

        April 23, 2014; Role: Presenter; Organizer: Self-Insurance 
        Institute of America, Inc.; Audience: Legislative/Regulatory 
        Conference; Topic: Senate Republican staff perspective on 
        health-care reform.

17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

        I have over a decade of experience serving four U.S. Senators 
        and three cabinet Secretaries. These positions have afforded me 
        a deep reverence for and understanding of the integral 
        relationship between the executive and legislative branches of 
        government, which is critical to the success of any agency's 
        Assistant Secretary for Legislation (ASL). From constituent 
        casework and congressional oversight to witness hearing 
        preparation and legislative technical assistance, the ASL 
        ensures Congress gets what it needs to govern while the 
        agency's mission is advanced. I have legislative and executive 
        branch experience in fulfilling all of these important 
        functions.

        Additionally, I am a proven leader. In my current role, I 
        manage a team of two dozen employees--both career and political 
        staff--with a multimillion-dollar budget. I have established 
        and refined processes that ensure the agency and the Congress 
        are served in a timely, responsive manner, and that every 
        member of the team understands the mission and feels like a 
        valuable contributor toward the mission.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

 1.  Will you sever all connections (including participation in future 
benefit arrangements) with your present employers, business firms, 
associations, or organizations if you are confirmed by the Senate? If 
not, provide details.

        I am currently serving as the Acting Assistant Secretary for 
        Legislation and Principal Deputy Assistant Secretary for 
        Legislation at HHS. If confirmed, I will become the Assistant 
        Secretary for Legislation at HHS. I am not currently employed 
        by any other entity.

 2.  Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, provide details.

        No.

 3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

        No.

 4.  If you are confirmed by the Senate, do you expect to serve out 
your full term or until the next presidential election, whichever is 
applicable? If not, explain.

        Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

 1.  Indicate any current and former investments, obligations, 
liabilities, or other personal relationships, including spousal or 
family employment, which could involve potential conflicts of interest 
in the position to which you have been nominated.

        My spouse and I are currently invested in the following funds: 
        (1) SPDR S&P Oil & Gas Exploration & Production ETF (XOP) and 
        (2) Vanguard Energy ETF (VDE). Upon re-entering Federal 
        service, I signed an ethics pledge that we would keep the value 
        of these funds below the Office of Government Ethics' 
        regulatory exemption level for sector funds--an agreement which 
        we have honored.

 2.  Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years (prior to the 
date of your nomination), whether for yourself, on behalf of a client, 
or acting as an agent, that could in any way constitute or result in a 
possible conflict of interest in the position to which you have been 
nominated.

        None.

 3.  Describe any activity during the past 10 years (prior to the date 
of your nomination) in which you have engaged for the purpose of 
directly or indirectly influencing the passage, defeat, or modification 
of any legislation or affecting the administration and execution of law 
or public policy. Activities performed as an employee of the Federal 
government need not be listed.

        I was employed as a lobbyist at the Retail Industry Leaders 
        Association (RILA) between the fourth quarter of 2009 and the 
        fourth quarter of 2010, and at Business Roundtable (BRT) in 
        calendar year 2016. For the committee's convenience, I have 
        included in this submission RILA and BRT's Form LD-2s 
        (Attachment 1) and below is a summary of the bills I lobbied on 
        during the reporting period:

2009 Q4:

    Health

        Proposals related to Employee Retirement Income Security Act 
(ERISA).
        S. 391, Healthy Americans Act.
        S. 1099/H.R. 2520, Patients Choice Act.
        S. 1679, Affordable Health Choices Act.
        S. 1796, America's Healthy Future Act.
        H.R. 3200, America's Affordable Health Choices Act of 2009.

    Labor

        Proposals related to Family Medical Leave Act (FMLA).
        Proposals related to Americans with Disabilities Amendments 
Act (ADAA) rulemaking.
        S. 1580/H.R. 2067, Protecting the America's Workers Act.
        S. 1584/H.R. 2981, Employment Non-Discrimination Act of 2009.
        S. 1647, Assistance for Unemployed Workers Extension.
        S. 1681, Health Insurance Industry Antitrust Enforcement Act 
of 2009.
        H.R. 800/S. 1041, Employee Free Choice Act.
        H.R. 1542/S. 910, Healthy Families Act.
        H.R. 3326, FY 2010 Defense Appropriations Act (issues related 
to binding arbitration in Federal employee contracts).
        H.R. 3548, Unemployment Compensation Extension Act.

     Pensions

        Proposals related to pension funding, including legislation to 
provide temporary pension-funding relief.

    Tax

        Proposals related to revenue raisers for health reform.
        Work Opportunity Tax Credit (WOTC).

    Technology

        Proposals related to behavioral advertising and data security.
        H.R. 2221, Data Accountability and Trust Act.

2010 Q1:

    Banking
        S. 1212/H.R. 2695, Credit Card Fair Free Act of 2009.
        H.R. 627, Credit CARD Act and Durbin-Bond Consumer Discount 
and Fee Transparency Amendment to H.R. 627.
        H.R. 2382, Credit Card Interchange Fees Act of 2009.

    Health

        Proposals related to Employee Retirement Income Security Act 
(ERISA).
        S. 391, Healthy Americans Act.
        S. 1099/H.R. 2520; Patients Choice Act.
        S. 1679, Affordable Health Choices Act.
        S.1796, America's Healthy Future Act.
        H.R. 3200, America's Affordable Health Choices Act of 2009.
        H.R. 3590, Patient Protection and Affordable Care Act.
        H.R. 3962, Affordable Care for America Act.
        H.R. 4872, Health Care and Education Reconciliation Act of 
2010.

    Labor

        Proposals related to Americans with Disabilities Amendments 
Act (ADM) rulemaking.
        S. 910/H.R. 1542, Healthy Families Act.
        S. 1041/H.R. 800, Employee Free Choice Act.
        S. 1580/H.R. 2067, Protecting America's Workers Act.
        S. 1584/H.R. 2981, Employment Non-Discrimination Act of 2009.
        S.1756, Protecting Older Workers Against Discrimination Act.
        S. 2882/H.R. 3408; Taxpayer Responsibility Accountability and 
Consistency Act.
        H.R. 2847, Hiring Incentives to Restore Employment (HIRE Act).
        H.R. 4853, Work-Life Balance Award Act of 2010.

    Tax

        Work Opportunity Tax Credit (WOTC).
        H.R. 2847, Hiring Incentives to Restore Employment (HIRE Act).
        H.R. 3590, Patient Protection and Affordable Care Act.
        H.R. 4872, Health Care and Education Reconciliation Act of 
2010.

     Technology: Issues related to behavioral advertising, data 
security, and privacy.

2010 Q2:

    Financial Services

        S. 1212/H.R. 2695, Credit Card Fair Free Act.
        H.R. 2382; Credit Card Interchange Fees Act of 2009.
        H.R. 6247, Credit CARD Act.

     Health

        H.R. 3590, Patient Protection and Affordable Care Act 
implementing regulations related to ERISA health plans.
    Labor

        Proposals related to Americans with Disabilities Amendment Act 
(ADAA) and Genetic Information Nondiscrimination Act rulemaking.
        Proposals related to Independent Contractor Classification Act 
rulemaking.
        Proposals related to OSHA 300 Log, chemical hazard, and 
walking/working surfaces rulemaking.
        Proposals related to persuader activity rulemaking.
        S. 910/H.R. 1542, Healthy Families Act.
        S. 1041/H.R. 800, Employee Free Choice Act.
        S. 1580/H.R. 2067, Protecting America's Workers Act.
        S. 1756, Protecting Older Workers Against Discrimination Act.
        S. 3254, Employee Misclassification Act.

     Homeland Security

        Proposals related to the National Strategy for Trusted 
Identities in Cyberspace.

     Retirement

        Proposals related to pension funding, including legislation to 
provide temporary pension funding relief.

    Tax

        H.R. 2857, Hiring Incentives to Restore Employment (HIRE Act).
        H.R. 3590, Patient Protection and Affordable Care Act.
        H.R. 4972, Health Care and Education Reconciliation Act of 
2010.

2010 Q3:

     Health

        H.R. 3590, Patient Protection and Affordable Care Act 
implementing regulations related to ERISA health plans.

    Labor

        Proposals related to Americans with Disabilities Amendments 
Act (ADDA) rulemaking.
        Proposals related to the Independent Contractor Classification 
Act rulemaking.
        Proposals related to persuader activity rulemaking.
        Patient Protection and Affordable Care Act issues related to 
unemployment insurance.
        Rulemaking pertaining to independent contractor 
classification, OSHA Form 300 logs, chemical handing, OSHA enforcement, 
regulations pertaining to Americans with Disabilities Act (ADA) and 
point of sale machines and genetic information.
        Nominations of National Labor Relations Board (NLRB) 
appointees Becker, Pearce, and Hayes.
        S. 910/H.R. 1542, Healthy Families Act.
        S. 1041/H.R. 800, Employee Free Choice Act.
        S. 1580/H.R. 2067, Protecting America's Workers Act.
        S. 1756, Protecting Older Workers Against Discrimination Act.
        S. 3254, Employee Misclassification Act.
        S. 3772/S. 182/H.R. 12, Paycheck Fairness Act.
        H.R. 3149, Equal Employment for All Act.
        H.R. 4213, Unemployment Compensation Extension Act of 2010.

    Tax

        H.R. 2847, Hiring Incentives to Restore Employment (HIRE Act).
        H.R. 3590, Patient Protection and Affordable Care Act.
        H.R. 4872, Health Care and Education Reconciliation Act of 
2010.

     Technology

        Issues related to behavioral advertising and data security and 
privacy.

2010 Q4:

     Health

        H.R. 3590, Patient Protection and Affordable Care Act 
implementing regulations related to ERISA health plans.

    Labor

        Issues related to Americans with Disabilities Amendments Act 
rulemaking.
        S. 910/H.R. 1542, Healthy Families Act.
        S. 1041/H.R. 800, Employee Free Choice Act.
        S. 1580/H.R. 2067, Protecting America's Workers Act.
        S. 1584/H.R. 2981, Employment Non-Discrimination Act of 2009.
        S. 1647, Assistance for Unemployed Workers Extension.
        S. 1681, Health Insurance Industry Antitrust Enforcement Act 
of 2009.
        S. 2790/H.R. 4092, Pandemic Protection for Workers, Families, 
and Businesses Act.
        H.R. 3326, FY 2010 Defense Appropriations Bill and issues 
related to binding arbitration in Federal employee contracts.
        H.R. 3548, Unemployment Compensation Extension Act.
        H.R. 3911, Emergency Influenza Containment Act.
        General FMLA-related bills.

     Retirement

        Issues relating to pension funding, including legislation to 
provide temporary pension funding relief.

    Tax

        Issues related to revenue raisers for health reform.
        Work Opportunity Tax Credit (WQTC).

    Technology

        Issues related to behavioral advertising and data security.
        H.R. 2221, Data Accountability and Trust Act.

2016 Q1:

    Health

        Issues related to the House of Representatives Health Care 
Task Force.
        S. 2045/H.R. 2050, Middle Class Health Benefits Tax Repeal Act 
of 2015.
        S. 2075, American Worker Health Care Tax Relief Act of 2015.
        H.R. 879, Ax the Tax on Middle Class Americans' Health Plans 
Act.

    Retirement

        RIN 1210-AB32, Department of Labor Proposed Definition of 
Fiduciary.
        RIN 1545-BM58, Internal Revenue Service Nondiscrimination 
Relief for Closed Defined Benefit Pension Plans.
        RIN 1210-2A25, Department of Labor Proposed Definition of 
Fiduciary.

2016 Q2:

    Health

        Issues related to the House of Representatives Health Care 
Task Force.
        RIN-3046-AB01, Equal Employment Opportunity Commissions final 
rule on Employer Wellness Programs.
        Retirement: Issues related to Pension Benefit Guaranty 
Corporation funding.

2016 Q3:

    Health

        RIN-3046-AB01, Equal Employment Opportunity Commission's final 
rule on Employer Wellness Programs.
        Issues related to Affordable Care Act 40-percent excise tax on 
health benefits.
        Issues related to final Qualified Entity Rule from Centers for 
Medicare and Medicaid Services.
        Issues related to regulations on Health Reimbursement 
Arrangements.
        Issues related to the House Health Care Task Force Better Way 
Project.

2016 Q4:

    Budget

        Issues related to Federal budget process reforms.
        Issues related to FY 2017 budget.
        Provisions related to repeal and replace of the Affordable 
Care Act.
    Health

        Issues related to Affordable Care Act 40-percent excise tax on 
health benefits.
        Issues related to the exclusion and deduction for employee 
health benefits.
        Issues related to ERISA pre-emption.

 4.  Explain how you will resolve any potential conflict of interest, 
including any that are disclosed by your responses to the above items. 
(Provide the committee with two copies of any trust or other 
agreements.)

        For the two funds my spouse and I are currently invested in, 
        within 90 days of confirmation, we will divest of these 
        holdings and provide the committee with a copy of the 
        divestiture. As for any lobbying recusals, I have fulfilled the 
        terms of the most recent ethics agreement signed upon re-
        entering Federal service (Attachment 2). For any conflict of 
        interest questions that may arise while I am serving in the HHS 
        position, I will seek the advice of the HHS career ethics 
        officials.

                       D. LEGAL AND OTHER MATTERS

 1.  Have you ever been the subject of a complaint or been 
investigated, disciplined, or otherwise cited for a breach of ethics 
for unprofessional conduct before any court, administrative agency 
(e.g., an Inspector General's office), professional association, 
disciplinary committee, or other ethics enforcement entity at any time? 
Have you ever been interviewed regarding your own conduct as part of 
any such inquiry or investigation? If so, provide details, regardless 
of the outcome.

        No.

 2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than a minor traffic offense? Have you ever been interviewed 
regarding your own conduct as part of any such inquiry or 
investigation? If so, provide details.

        No.

 3.  Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

        No.

 4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

        No.

 5.  Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

        None.

                     E. TESTIFYING BEFORE CONGRESS

 1.  If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

        Yes.

 2.  If you are confirmed by the Senate, are you willing to provide 
such information as is requested by such committees?

        Yes.

                                 ______
                                 

                              Attachment 1
                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 

                              Attachment 2

                            October 31, 2019

Ms. Elizabeth Fischmann
Associate General Counsel for Ethics
Designated Agency Ethics Official
U.S. Department of Health and Human Services
Room 710-E, Hubert H. Humphrey Building
200 Independence Avenue, SW
Washington, DC 20201

Dear Ms. Fischmann:

    The purpose of this letter is to describe the steps that I will 
take to avoid any actual or apparent conflict of interest in the event 
that I run confirmed for the position of Assistant Secretary for 
Legislation, U.S. Department of Health and Human Services.

    As required by 18 U.S.C. Sec. 208(a), I will not participate 
personally and substantially in any particular matter in which I know 
that I have a financial interest directly and predictably affected by 
the matter, or in which I know that a person whose interests are 
imputed to me has a financial interest directly and predictably 
affected by the matter, unless I first obtain a written waiver, 
pursuant to 18 U.S.C. Sec. 208(b)(1), or qualify for a regulatory 
exemption, pursuant to 18 U.S.C. Sec. 208(b)(2). I understand that the 
interests of the following persons are imputed to me: any spouse or 
minor child of mine; any general partner of a partnership in which I am 
a limited or general partner; any organization in which I serve as 
officer, director, trustee, general partner or employee; and any person 
or organization with which I am negotiating or have an arrangement 
concerning prospective employment.

    Within 90 days of my confirmation, I will divest my interests in 
the following holdings:

        SPDR S&P Oil & Gas Exploration & Production ETF (XOP);
        Vanguard Energy ETF (VDE).

Until I have completed this divestiture, I will not participate 
personally and substantially in any particular matter that to my 
knowledge has a direct and predictable effect on the financial 
interests of any holding of either of these funds that is invested in 
the sector that is the focus of the fund, unless I first obtain a 
written waiver, pursuant to 18 U.S.C. Sec. 208(b)(1), or qualify for a 
regulatory exemption, pursuant to 18 U.S.C. Sec. 208(b)(2).

    I understand that I may be eligible to request a Certificate of 
Divestiture for qualifying assets and that a Certificate of Divestiture 
is effective only if obtained prior to divestiture. Regardless of 
whether I receive a Certificate of Divestiture, I will ensure that all 
divestitures discussed in this agreement occur within the agreed upon 
timeframes and that all proceeds are invested in non-conflicting 
assets,

    If I have a managed account or otherwise use the services of an 
investment professional during my appointment, I will ensure that the 
account manager or investment professional obtains my prior approval on 
a case-by-case basis for the purchase of any assets other than cash, 
cash equivalents, investment funds that qualify for the exemption at 5 
CFR Sec. 2640.201(a), or obligations of the United States.

    In order to avoid potential conflicts of interest during my 
appointment as Assistant Secretary for Legislation, I, my spouse, or 
any minor children of mine will not acquire any direct financial 
interest in entities listed on the FDA prohibited holdings list or in 
entities involved, directly or through subsidiaries, in the following 
industries: (1) research, development, manufacture, distribution, or 
sale of pharmaceutical, biotechnology, or medical devices, equipment, 
preparations, treatment, or products; (2) veterinary products; (3) 
healthcare management or delivery; (4) health, disability, or workers 
compensation insurance or related services.; (5) food and/or beverage 
production, processing or distribution; (6) communications media; (7) 
computer hardware, computer software, and related internet 
technologies; (8) wireless communications; (9) social sciences and 
economic research organizations; (10) energy or utilities; (11) 
commercial airlines, railroads, ship lines, and cargo carriers; or (12) 
sector mutual funds that concentrate their portfolios on one country 
other than the United States. In addition, we will not acquire any 
interests in sector mutual funds that concentrate in any of these 
sectors.

    I understand that as an appointee I must continue to abide by the 
Ethics Pledge (Executive Order No. 13770) that I previously signed and 
that I will be bound by the requirements and restrictions therein in 
addition to the commitments I have made in this ethics agreement.

    I will meet in person with you during the first week of my service 
in the position of Assistant Secretary for Legislation in order to 
complete the initial ethics briefing required under 5 CFR 
Sec. 2638.305. Within 90 days of my confirmation, I will document my 
compliance with this ethics agreement by notifying you in writing when 
I have completed the steps described in this ethics agreement.

    I have been advised that this ethics agreement will be posted 
publicly, consistent with 5 U.S.C. Sec. 552, on the website of the U.S. 
Office of Government Ethics with ethics agreements of other 
Presidential nominees who file public financial disclosure reports.

            Sincerely,

            Sarah Arbes

                                 ______
                                 
                                           Date: September 21, 2017

MEMORANDUM FOR ELIZABETH J. FISCHMANN
        Designated Agency Ethics Official

SUBJECT: Notification of Commitment to Recuse

This memorandum is to provide you with further details of the recusal 
arrangement I have implemented to ensure that I comply with certain 
provisions of Executive Order 13770 (the Ethics Pledge). This recusal 
obligation is in addition to those detailed in my signed Ethics 
Agreement dated September 21, 2017.

During the 2 years before the date of my appointment, I was a federally 
registered lobbyist. Accordingly, under Executive Order 13770 (January 
28, 2017). the Ethics Pledge, I will not for a period of 2 years after 
the date of my appointment, or participate in any particular matter on 
which I lobbied within the 2 years before the date of my appointment, 
or participate in the specific issue area in which that particular 
matter falls, unless covered by a waiver issued pursuant to section 3. 
The Office of the Counsel to the President has advised that, as used in 
the Ethics Pledge, the term ``specific issue area'' means a 
``particular matter of general applicability.'' This second term, a 
particular matter of general applicability, has been defined in 
regulations issued by the Office of Government Ethics as ``a particular 
matter that is focused on the interests of a discrete and identifiable 
class of persons, but does not involve specific parties.'' 5 CFR 
Sec. 2640.102(m). It may include governmental action such as 
legislation or policy making that is narrowly focused on the interests 
of a discrete and identifiable class of person. It does not extend to 
the consideration or adoption of broad policy options that are directed 
to the interest of a large and diverse group of persons. In accordance 
with guidance from the Office of Government Ethics and interpretations 
of the executive order, and alter examination of any relevant 
information regarding the nature of my lobbying assignments (including 
reports filed under the Lobbying Disclosure Act), it has been 
determined that I must recuse from the following particular matter and 
``specific issue areas'':

     1) H.R. 879, Ax the Tax on Middle Class Americans' Health Plans 
Act, all provisions;
     2) H.R. 2050 and S. 2045, Middle Class Health Benefits Tax Repeal 
Act of 2015, all provisions;
     3) S. 2075, American Worker Health Care Tax Relief Act of 2015, 
all provisions;
     4) RIN-3046-AB01, Equal Employment Opportunity Commission's final 
rule on Employer Wellness Programs;
     5) House of Representatives Health Care Task Force;
     6) House Health Care Task Force Better Way Project;
     7) Affordable Care Act's 40% excise tax on health benefits;
     8) Final Qualified Entity Rule from CMS;
     9) Workplace Wellness rules;
    10) Regulations on Health Reimbursement Arrangements;
    11) Federal budget process reforms;
    12) Exclusions and deductions for employee health benefits;
    13) ERISA pre-emption.

In order to help ensure that I do not participate officially in these 
matters, I have taken or will take the following steps, similar to 
those outlined in my Ethics Agreement (1) Matters from which I am 
recused will be delegated to another Deputy ASL, or elevated to the 
ASL, as appropriate, for disposition without my input or 
recommendation, and (2) I have advised my immediate administrative 
staff and other appropriate ASL staff of this recusal and directed them 
to screen all mailers that are processed through them to ensure that 
any matters that could affect any of these entities are referred to the 
appropriate people above, to ensure the matter is handled in accordance 
with this memorandum.

            Sarah Arbes

cc: Acting ASL
   Deputy Assistant Secretaries for Legislation
   Stanley Olesh, OGC Ethics Division

                                 ______
                                 
                                           Date: September 21, 2017

MEMORANDUM FOR THE RECORD

SUBJECT: Ethics Agreement

In order to avoid any financial conflict of interest in violation of 18 
U.S.C. 208(a) or the appearance of a financial conflict of interest as 
defined in the Standard of Ethical Conduct for Employees of the 
Executive Branch, 5 CFR Sec. 2635.502, and to adhere to the Ethics 
Pledge instituted by Executive Order 13770 issued on January 28, 2017 
and entitled ``Ethics Commitments by Executive Branch Appointees'' (the 
Ethics Pledge) I am issuing the following statement.

As an appointee I have signed the Ethics Pledge and I will be bound by 
the requirements and restrictions therein even if not specifically 
mentioned in this or any other ethics agreement.

Before beginning the covered Federal position, I resigned from the non-
federal position listed on my OGE 278e (Public Financial Disclosure 
Report) with Business Roundtable. Pursuant to the Ethics Pledge, I will 
not, for a period of 2 years from the date of my appointment to the 
covered position, participate in an official capacity in any particular 
matter involving specific parties that is directly and substantially 
related to Business Roundtable, unless an exception applies or I am 
granted a waiver. Under most circumstances, the 2-year Pledge prior-
employer recusal obligation will supersede the 1-year prior employer 
recusal obligation under 5 CFR Sec. 2635.502; however, in the limited 
circumstances when the Pledge recusal would not apply but the 
regulatory recusal would still apply, then I agree to be disqualified, 
for a period of 1 year from the date of my resignation from the 
respective entity or the date my services for the entity otherwise 
ceased, from participating in any particular matter involving specific 
parties in which any of the above entities is a party or represents a 
party, unless I am first authorized to participate, pursuant to 5 CFR 
Sec. 2635.502(d).

As required by 18 U.S.C. Sec. 208(a), I will not participate personally 
and substantially in any particular matter that has a direct and 
predictable effect on my financial interests or those of any person 
whose interests are imputed to me, unless I first obtain a written 
waiver pursuant to section 208(b)(1) or qualify for a regulatory 
exemption pursuant to section 208(b)(2). I understand that the 
interests or the following persons are imputed to me: any spouse or 
minor child of mine; any general partner of a partnership in which I am 
a limited or general partner; any organization in which I serve as 
officer, director, trustee, general partner or employee; and any person 
or organization with which I am negotiating or have an arrangement 
concerning prospective employment.

In order to avoid potential conflicts of interest during my 
appointment, I agree that I (and anyone whose financial interests are 
imputed to me, such as a spouse or minor children) will not acquire any 
further financial interests in entities listed on the FDA prohibited 
holdings list or in entities involved, directly or through 
subsidiaries, in tile following industries: (1) research, development, 
manufacture, distribution, or sale of pharmaceutical, biotechnology, or 
medical devices, equipment, preparations, treatments, or products: (2) 
veterinary products or cosmetics: (3) healthcare management or 
delivery; (4) health, disability, or workers compensation insurance or 
related services; (5) food and/or beverage production, processing or 
distribution: (6) communications media; (7) computer hardware, computer 
software, and related internet technologies; (8) wireless 
communications; (9) social sciences and economic research 
organizations; (10) energy or utilities; (11) commercial airlines, 
railroads, ship lines, and cargo carriers; or (12) sector mutual funds 
that concentrate their portfolios in any of these sectors or on one 
country other than the United States. If I have a managed account or 
otherwise use the services an investment professional during my 
appointment, I will ensure that the account manager or investment 
professional obtains my prior approval on case-by-case basis for the 
purchase of any assets other than cash, cash equivalents, investment 
funds that qualify for the exemption at 5 CFR Sec. 2640.201(a), or 
obligations of the United States.

In accordance with Executive Order 13770 (January 28, 2017), the Ethics 
Pledge, I will not for a period of 2 years after the date of my 
appointment participate in any particular matter on which I lobbied 
within the 2 years before the date of my appointment, or participate in 
the specific issue area in which that particular matter falls, unless 
covered by a waiver issued pursuant to section 3. The Office of the 
Counsel to the President has advised that, as used in the Ethics 
Pledge, the term ``specific issue area'' means a ``particular matter of 
general applicability.'' This second term, a particular matter of 
general applicability, has been defined in regulations issued by the 
Office of Government Ethics as ``a particular matter that is focused on 
the interests of a discrete and identifiable class of persons, but does 
not involve specific parties.'' 5 CFR Sec. 2040.102(111). It may 
include governmental action such as legislation or policy making that 
is narrowly focused on the interest of a discrete and identifiable 
class of person. It does not extend to the consideration or adoption of 
broad policy options that are directed to the interests of a large and 
diverse group of persons. As with any of my recusal obligations, if I 
have questions about the scope of my obligations under the Ethics 
Pledge, I will ask for guidance.

A copy of this memorandum will be distributed to the appropriate 
personnel to enable them to assist in screening matters that may 
involve my participation and which may be implicated by the above 
disqualification provisions. Matters from which I am disqualified 
should be referred to another Deputy ASL, or elevated to the ASL, as 
appropriate, without my knowledge or involvement. To help ensure that I 
do not participate officially in these matters, I have instructed my 
immediate staff and other affected individuals to directly handle, or 
refer to the appropriate person(s), any matter from which I am recused. 
In order to ensure that this ethics agreement continues to be 
effective. I will take the following steps in the future: (1) I will 
revise and update this memorandum whenever that is warranted by changes 
in my financial interests or other changed circumstances, and provide 
the OGC Ethics Division with a copy; and (2) I will advise my immediate 
administrative staff of any such changes.

            Sarah Arbes

cc: Stanley Olesh, OGC/Ethics
   Acting ASL
   Deputy Assistant Secretaries for Legislation

                                 ______
                                 

                             ETHICS PLEDGE

As a condition, and in consideration, of my employment in the United 
States Government in an appointee position invested with the public 
trust I commit myself to the following obligations, which I understand 
are binding on me and are enforceable under law:

    1. Appointees Leaving Government to Lobby Agency. I will not, 
within 5 years after the termination of my employment as an appointee 
in any executive agency in which I am appointed to serve, engage in 
lobbying activities with respect to that agency.

    2. Appointees Leaving Government. If, upon my departure from the 
Government, I am covered by the post-employment restrictions on 
communicating with employees of my former executive agency set forth in 
section 207(c) of title 18, United States Code, I agree that I will 
abide by those restrictions.

    3. Appointees Leaving Government to Lobby Senior Officials. In 
addition to abiding by the limitations of paragraphs 1 and 2, I also 
agree, upon leaving Government service, not to engage in lobbying 
activities with respect to any covered executive branch official or 
non-career Senior Executive Service appointee for the remainder of the 
Administration.

    4. Appointees Acting on Behalf of a Foreign Government or Party. I 
will not at any time after the termination of my employment in the 
United States Government, engage in any activity on behalf of any 
foreign government or foreign political party which, were it undertaken 
on January 20, 2017, would require me to register under the Foreign 
Agents Registration Act of 1938, as amended.

    5. Lobbyist Gift Ban. I will not accept gifts from registered 
lobbyists or lobbying organizations for the duration of my service as 
an appointee.

    6. All Appointees Entering Government. I will not for a period of 2 
years from the date of my appointment participate in any particular 
matter involving specific parties that is directly and substantially 
related to my former employer or former clients, including regulations 
and contracts.

    7. Lobbyists Entering Government. If I was a registered lobbyist 
within the 2 years before the date of my appointment, in addition to 
abiding by the limitations of paragraph 6, I will not for a period of 2 
years after the date of my appointment participate in any particular 
matter on which I lobbied within the 2 years before the date of my 
appointment or participate in the specific issue area in which that 
particular matter falls.

    8. Employment Qualification Commitment. I agree that any hiring or 
other employment decisions I make will be based on the candidate's 
qualifications, competence, and experience.

    9. Assent to Enforcement. I acknowledge that the Executive Order 
entitled ``Ethics Commitments by Executive Branch Appointees,'' issued 
by the President on January 28, 2017, Which I have read before signing 
this document, defines certain terms applicable to the foregoing 
obligations and sets forth the methods for enforcing them. I expressly 
accept the provisions of that executive order as a part of this 
agreement and as binding on me. I understand that the obligations of 
this pledge are in addition to any statutory or other legal 
restrictions applicable to me by virtue of Government service.

Sarah Cudworth Arbes                                            April 
12, 2017

                                 ______
                                 
          Questions Submitted for the Record to Sarah C. Arbes
                 Question Submitted by Hon. John Thune
    Question. As you know, I've long been concerned with workforce and 
quality-of-care issues at the Indian Health Service in South Dakota. At 
times, it has been difficult to navigate inquiries and get answers to 
important questions. If confirmed, will you commit to ensuring timely 
responses and overall, to facilitating improved quality of care at IHS?

    Answer. Yes, I commit to ensuring timely responses. While the 
Assistant Secretary for Legislation cannot directly facilitate improved 
quality of care at IHS, I commit to ensuring your ideas to improve the 
workforce and quality of care at IHS facilities in South Dakota receive 
full consideration by the appropriate officials in the Department.

                                 ______
                                 
                 Questions Submitted by Hon. Ron Wyden
    Question. I'm concerned about this administration's treatment of 
our most vulnerable populations, including children and pregnant women.

    Back in October 2019, along with Energy and Commerce Chairman 
Pallone, I sent Secretary Azar a letter highlighting the unprecedented 
trend in the number of children losing health coverage under the Trump 
administration and asking the Secretary for documents and information 
related to the children's coverage losses in Medicaid and CHIP. I still 
have not received a response.

    When will I receive an answer to this outstanding letter? What will 
you do to ensure that when Congress asks the Department for 
information--especially when it relates to our oversight 
responsibilities to protect the most vulnerable--that members will 
receive timely and responsive answers?

    Answer. HHS responded to you and Chairman Pallone on February 11, 
2020. I will continue to work to ensure that all congressional 
communications are answered in an appropriate and timely manner.

    Question. As discussed during the hearing, neither the Finance 
Committee nor its members believe the Department of Health and Human 
Services (HHS) has responded to investigative requests in either a 
timely or complete manner. In addition, majority and minority Finance 
Committee staff have repeatedly asked HHS to produce documents in 
electronic form that are useable for the committee's oversight 
responsibilities with limited success.

    During the question period, you indicated to Chairman Grassley that 
HHS did not want to produce documents and information in electronic 
form that were ``editable,'' expressing concern that doing so would 
threaten a document's integrity. To be clear, the committee has long 
abided by applicable Senate rules and practices dedicated to protecting 
the integrity of documents and information it receives.

    The bottom line: the committee must receive the information it 
requests in a timely fashion, and have the ability to apply common 
tools for searching, sorting, and analyzing the information and data 
produced to it by HHS in all of its investigations.

    To better understand and improve the processes for responding to 
congressional oversight requests in place at HHS, please answer the 
following questions.

    Describe the Department's current standard policies and legal basis 
for producing documents and providing information in response to 
requests from the following requestors, including but not limited to 
priority, timeliness, format, content, legal review, redaction, and 
physical production and delivery: Senate Committees; ranking members; 
and individual Senators.

    Answer. The longstanding practice of the HHS legislative affairs 
oversight team is to respond to letters as soon as practicable. Despite 
ASL's recent efforts to increase staff devoted to responding to 
congressional oversight requests, requests for information outpace 
internal staff resources. Therefore, we follow the guidance from the 
Office of Legal Counsel, Congressional Research Service, and the 
Government Accountability Office in responding to congressional 
requests. In following that guidance, the Department prioritizes 
letters in order of leadership to chairs/ranking members to committee 
of jurisdiction members, then to individual members of Congress. 
Members and staff are always welcome to reach out to me or any member 
of the HHS legislative affairs team to request expedited consideration 
as needed.

    HHS is committed to providing documents to Congress in a timely 
manner in a format that facilitates ongoing congressional oversight. 
Specific to the staff level discussions that have taken place with the 
Senate Finance Committee, HHS has committed to providing documents in 
more user-friendly formats. Our ongoing productions of documents in a 
more user-friendly format illustrates that commitment. Additionally, if 
an accommodation is required on a specific document to make it more 
accessible for review and analysis, the committee's requests will be 
considered on a case-by-case basis.

    Question. Please explain why HHS is unwilling to provide responses 
in the form of electronic documents and spreadsheets with common 
functional capabilities unblocked?

    Answer. HHS is sensitive to the committee's need for data that can 
be easily reviewed and analyzed. Pursuant to staff-level discussions, 
HHS will work to ensure that documents are provided to the committee in 
a manner that allows meaningful investigative work and enables maximum 
usability of the documents, while preserving the integrity of the 
documents. If an accommodation is required on a specific document to 
make it more accessible for review and analysis, the committee's 
requests will be considered on a case-by-case basis. This includes 
transmittal of documents in formats outside of PDFs.

    Question. If confirmed, what changes will you make to the 
Department's procedures to ensure that the Department promptly and 
completely responds to requests from the committee and its members?

    Answer. Upon assuming the position of Acting Assistant Secretary 
for Legislation in June 2019, I prioritized responding to an 
unacceptable backlog of oversight letters, made necessary personnel 
changes, and altered the mission of our team to be more accommodating 
to the important oversight role of Congress. That process took several 
months, and it is my belief that these changes have improved HHS's 
responsiveness to this committee. Further, my commitment to you in the 
hearing to provide progress reports every 2 weeks on your request for 
documents related to the Office of Refugee Resettlement is another step 
in the right direction toward a constructive working relationship 
between our offices. If confirmed, I look forward to an open, honest 
dialogue with the committee about what may be possible to meet your 
needs.

    Question. HHS's private-sector and agency peers, including private-
sector attorneys, routinely produce documents to the committee in their 
original electronic file formats (i.e., datasets provided in comma-
separated-value (CSV)/Excel Workbooks, and emails, memos, and 
presentations in Word or text-recognizable PDF). These formats provide 
information to the committee that are ``useable'' for investigative 
purposes since they are in a format in which functions are unlocked, 
and information is searchable and sortable. For example, when 
responsive documents are originated in spreadsheets, HHS should furnish 
the spreadsheets to the committee in formats that are compatible with 
Microsoft Excel (either Excel itself or comma-separated values), which 
allow the committee to use all Excel tools to analyze data therein.

    Will you commit to produce documents in useable electronic formats, 
as detailed above? If not, why not?

    Answer. HHS will work to ensure that documents are provided to the 
committee in a manner that allows meaningful investigative work and 
enables maximum usability of the documents, while preserving the 
integrity of the documents.

                                 ______
                                 
               Questions Submitted by Hon. Maria Cantwell
    Question. In your testimony, you point out the importance of 
responding to congressional inquiries in a timely manner. On January 
27, 2020, my colleagues and I sent a letter to Secretary Azar after the 
first U.S. case of the 2019 novel coronavirus was found in Washington 
State. During this public health emergency, we expected an expedited 
reply. To date, we have not yet received a response.

    Answer. First, it is important to know that any letter received by 
a member of Congress is taken very seriously. Upon receipt it is 
immediately routed to senior leaders in the Department for their 
awareness and consideration. Further, we endeavor to respond to every 
letter we receive.

    Regarding this specific letter, because of the speed with which 
matters are evolving related to COVID-19, and because the policymakers 
who would respond to your letter are the same ones working around the 
clock to mitigate this public health emergency, HHS has prioritized 
ensuring members of Congress have the latest developments and 
information. Congressional letters which would typically receive a 
timely written response on agency letterhead are instead being 
responded to immediately through member-level briefings, member-level 
phone calls with agency principals, and email communications with 
staff.

    The Centers for Disease Control and Prevention (CDC) has offered, 
and stands ready to facilitate a personal briefing for you with CDC 
Director Dr. Robert Redfield regarding the original case in your home 
State. The email your staff recently received to alert you of a 
transfer of several positive patients from California to one of 
Washington's premier infectious disease hospitals, and the closed-door 
briefing with the HHS's top public health experts that you attended 
with other Senators are other examples of this ongoing and frequent 
outreach.

    Question. If confirmed, how will you prioritize responding to 
letters?

    Answer. The longstanding practice of the HHS legislative affairs 
team is to respond to every policy letter as soon as practicable. 
Despite ASL's best efforts, the volume of letters we receive outpaces 
internal staff resources. Therefore, we follow the guidance of the 
Office of Legal Counsel, Congressional Research Service, and the 
Government Accountability Office in responding to congressional 
requests. In following that guidance, the Department prioritizes 
letters in order of leadership to chairs/ranking members to committee 
of jurisdiction members, then to individual members of Congress. 
Members and staff are always welcome to reach out to me or any member 
of the HHS legislative affairs team to request expedited consideration 
as needed.

    Question. Will you commit to providing members of Congress prompt 
responses to requests for information, particularly in the case of a 
public health emergency like the coronavirus?

    Answer. Yes.

                                 ______
                                 
              Question Submitted by Hon. Michael F. Bennet
    Question. I am currently working on the Verifying Accurate Leading-
edge IVCT Development (VALID) Act of 2020 with Senator Burr to develop 
comprehensive regulation for in vitro clinical tests. As we continue to 
work on the bill, will you ensure that the administration, including 
FDA, CDC, and CMS, continues to provide technical assistance to ensure 
that it provides an effective regulatory framework for in vitro 
clinical tests?

    Answer. Yes. FDA, CDC, and CMS have appreciated the opportunity to 
provide you with robust technical assistance in drafting this 
legislation. As long as you have questions, we will be here to help 
where possible with technical input.

                                 ______
                                 
               Questions Submitted by Hon. Sherrod Brown
    Question. Medicaid and lead testing: Childhood lead exposure 
remains a serious public health challenge for communities across the 
country. With Medicaid serving as an essential health coverage source 
for the Nation's children, the Centers for Medicare and Medicaid 
Services (CMS) plays a critical role in the prevention, screening, and 
treatment of children affected by lead exposure. For 20 years, Federal 
law has required blood lead screening ``as appropriate for age and risk 
factors'' for all children enrolled in Medicaid. In 2016, CMS under the 
previous administration took a number of actions aimed at improving 
blood lead screening and testing for Medicaid-eligible children, 
including the collection of data to try and help ensure the delivery of 
blood lead screening. However, despite this progress, according to a 
recent report from the Government Accountability Office (GAO) (GAO-19-
481), data on statutorily mandated blood lead screenings remains 
incomplete.

    In October 2019, several of my colleagues and I sent a letter to 
CMS requesting information on how the agency planned to address the 
deficiencies in lead screening data. We have yet to receive a response 
to our letter or the questions listed below. I ask that you please 
engage with your colleagues to respond to these questions.

    What specific actions has CMS taken or does CMS plan to take to 
address the issues and recommendations related to blood lead screening 
included in the 2019 GAO report?

    What steps has CMS taken or does CMS plan to take to assist states 
with planning improvements to ensure complete and accurate reporting of 
data on blood lead screening?

    What actions has CMS taken or does CMS plan to take, in 
collaboration with the Centers for Disease Control and Prevention (CDC) 
or other Federal agencies, to develop improved methods of capturing 
data related to Medicaid beneficiaries who receive blood lead 
screenings?

    In addition to working with the CDC and other Federal agencies to 
improve lead screening data reporting, how is CMS working with Women, 
Infants, and Children (WIC) agencies or Head Start programs on ways 
State agencies can coordinate and partner to identify and screen at-
risk children?

    What, if any, additional support or oversight authority from 
Congress does CMS feel it needs in order to ensure the prevention, 
screening, and treatment for children impacted by lead exposure?

    Answer. On February 11, 2020, CMS provided you with a fulsome 
response to your letter and these questions. If you have any follow-up, 
please reach out and I would be happy to facilitate additional 
information.

    Question. Timely responses to member inquiries: There have been 
several occasions recently where I have sent a letter to HHS or another 
office within HHS's purview and failed to receive a timely or 
comprehensive response.

    If confirmed, what steps will you take to ensure that CMS and other 
offices within HHS respond to letters from members of Congress in a 
timely and comprehensive manner?

    Answer. The longstanding practice of the HHS legislative affairs 
team is to respond to every policy letter as soon as practicable. 
Despite ASL's best efforts, the volume of letters we receive outpaces 
internal staff resources. Therefore, we follow the guidance of the 
Office of Legal Counsel, Congressional Research Service, and the 
Government Accountability Office in responding to congressional 
requests. In following that guidance, the Department prioritizes 
letters in order of leadership to chairs/ranking members to committee 
of jurisdiction members, then to individual members of Congress. 
Members and staff are always welcome to reach out to me or any member 
of the HHS legislative affairs team to request expedited consideration 
as needed.

            Question Submitted by Hon. Robert P. Casey, Jr.
    Question. During your confirmation hearing, I mentioned the 
importance of Medicaid. It speaks to our values--about how we provide 
health care to our children, seniors, and people with disabilities, as 
well as support the economic vitality of hospitals, particularly in 
underserved urban and rural areas, and communities across the country. 
Millions of Americans fought to protect Medicaid and the Affordable 
Care Act in 2017. Yet, for some reason, the administration continues to 
be obsessed with undermining the program through massive budget cuts 
and illegal proposals to cap spending. Equally troubling, there seems 
to be an administration-wide decision to keep Americans in the dark 
about how these decisions are made and what the impact might be. The 
public deserves better. The voices of Americans deserve to be part of 
the decision-making process.

    I have requested a series of documents with respect to Medicaid 
block grants and Medicaid managed care. During the hearing, you 
committed to follow up with me on ensuring those documents are 
produced. Please provide an update on when I should expect a response 
to the following document requests.

    Documents responsive to the requests made in my letter to Secretary 
Azar dated February 3, 2020 regarding the administration's ``Healthy 
Adult Opportunity'' guidance. This letter follows up on insufficient 
responses to two prior letters from 2019.

    Documents responsive to the requests made in my letter dated July 
31, 2019 to Administrator Verma regarding Medicaid managed care.

    Answer. The longstanding practice of the HHS legislative affairs 
oversight team is to respond to letters and accompanying document 
production request as soon as practicable. Despite ASL's recent efforts 
to increase staff devoted to responding to congressional oversight 
requests, requests for information outpace internal staff resources. 
Therefore, we follow the guidance of the Office of Legal Counsel, 
Congressional Research Service, and the Government Accountability 
Office in responding to congressional requests. In following that 
guidance, the Department prioritizes letters in order of leadership to 
chairs/ranking members to committee of jurisdiction members, then to 
individual members of Congress. Members and staff are always welcome to 
reach out to me or any member of the HHS legislative affairs team to 
request expedited consideration as needed.

    I have directed ASL and CMS staff to coordinate responses and 
explore what document productions are possible for the requests 
referenced above. We will follow up in the near future.

                                 ______
                                 
               Question Submitted by Hon. Mark R. Warner
    Question. On November 8, 2019, I sent a letter to Mr. Roger 
Severino, the Director of the Office for Civil Rights at Department of 
Health and Human Services, expressing concerns about the Department's 
failure to act following the mass exposure of sensitive medical images 
and information by health organizations.

    That letter flagged a report revealing that millions of Americans 
had their private medical images and personal health information 
exposed online due to unsecured picture archiving and communication 
servers. I have not received a response from Mr. Severino and--despite 
my staff following up--the Department has not acted to remove those 
images. As I write this question, millions of images and sensitive 
patient information of American citizens remain online.

    In your role as the Department of Health and Human Services chief 
liaison to Congress, how would you improve the Department's 
responsiveness to urgent matters such as this?

    Can you commit that my letter will receive a response and that the 
Department will act to address this serious security vulnerability?

    Answer. On December 18, 2019, OCR provided you with a fulsome 
response to your letter and these questions. If you have any follow-up 
questions, please reach out.

                                 ______
                                 
 Prepared Statement of Jason J. Fichtner, Ph.D.\1\, Nominated to be a 
     Member of the Social Security Advisory Board, Social Security 
                             Administration
---------------------------------------------------------------------------
    \1\ The views expressed here are my own and do not necessarily 
reflect the views of any other person or organization.
---------------------------------------------------------------------------
    Chairman Grassley, Ranking Member Wyden, and members of the 
committee, thank you for the opportunity to appear before you today.

    My name is Jason Fichtner, and I am a senior lecturer of 
international economics and associate director of the Masters of 
International Economics and Finance (MIEF) program at the Johns Hopkins 
University School of Advanced International Studies (SAIS). I am also a 
fellow at the Bipartisan Policy Center (BPC) and on the board of 
directors of the National Academy of Social Insurance (NASI). All 
opinions I express today are my own and do not necessarily reflect the 
views of my employers or any other organization or person.

    I want to thank the President for nominating me to serve as a 
member of the Social Security Advisory Board (SSAB). Over a decade ago, 
I was privileged to serve in several positions at the Social Security 
Administration, including as the Acting Principal Deputy Commissioner 
of Social Security. In that capacity, I worked with the Congress, the 
White House, the Social Security Advisory Board, stakeholders, and the 
public to support the vital programs administered by the Social 
Security Administration and to improve the service the organization 
provides. I was also the Secretary to the Social Security Board of 
Trustees. Additionally, I was instrumental in improving the 
administration's communication materials to the public, including 
``When to Start Receiving Retirement Benefits,'' a publication that 
informs people how Social Security benefits fit into their retirement 
decision and that is still used today.

    I believe that my educational and professional experiences make me 
an ideal candidate to serve on this Board. With respect to my 
education, I received my undergraduate degree from the University of 
Michigan, my master's degree in public policy from Georgetown 
University, and my Ph.D. in public administration and policy from 
Virginia Tech. Professionally, along with my previous service at the 
Social Security Administration, I've worked as an Economist for the 
Internal Revenue Service and as a Senior Economist for the Joint 
Economic Committee of the United States Congress.

    I have a long record of published research on issues related to 
Social Security's retirement and disability programs, as well as 
retirement security in general. I also have a long history of working 
in a bipartisan manner, bringing people together to discuss, 
deliberate, and address the challenges facing the Social Security 
Administration and the vital programs it administers. The Social 
Security Advisory Board makes recommendations to the President, the 
Congress, and the public that, among other things, will ensure the 
quality of service delivery that the Social Security Administration 
provides, including increasing the public's understanding of program 
benefits.

    The heart of any organization is its employees, those who work 
tirelessly every day to fulfill the mission and deliver quality 
services. One of the accomplishments of which I am most proud from my 
tenure at the Social Security Administration was getting to know the 
employees of the agency, many of whom I remain in contact with to this 
day. It is a truly a great privilege to once again be asked to serve 
the public and work with those at the Social Security Administration.

    The Social Security Advisory Board plays an important role in 
advising how our Nation's important social insurance programs can be 
improved and strengthened, and providing advice and guidance to the 
Social Security Administration on ways to improve the administration of 
these valuable programs. Should I be confirmed as a member of the 
Social Security Advisory Board, I pledge to continue working in a 
bipartisan manner to ensure that our Nation's social security programs 
provide the best possible service to the public.

    Thank you again for inviting me to testify today, and I would be 
happy to answer any questions.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

 1.  Name (include any former names used): Jason Janas Fichtner.

 2.  Position to which nominated: Member, Social Security Advisory 
Board.

 3.  Date of nomination: August 28, 2018.

 4.  Address (list current residence, office, and mailing addresses):

 5.  Date and place of birth: August 1, 1971, Detroit, Michigan.

 6.  Marital status (include maiden name of wife or husband's name):

 7.  Names and ages of children:

 8.  Education (list all secondary and higher education institutions, 
dates attended, degree received, and date degree granted):

        Ernest W. Seaholm High School, Birmingham, Michigan. Attended: 
        September 1985-June 1989. High school diploma, June 1989.

        Pennsylvania State University. Attended September 1989-December 
        1990; transferred to University of Michigan.

        University of Michigan. Attended January 1991-December 1992. 
        Bachelor of arts degree, December 1992.

        Georgetown University. Attended August 1993-May 1995. Master of 
        public policy, May 1995.

        Virginia Tech University. Attended September 1999-December 
        2005. Doctor of philosophy (Ph.D.) in public administration and 
        policy, December 2005.

 9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment for each job):

        Johns Hopkins University, Paul H. Nitze School of Advanced 
        International Studies, Washington, DC; senior lecturer, 
        international economics, associate director, Masters of 
        International Economics and Finance (MIEF) program, July 2018-
        present.

        Bipartisan Policy Center, Washington, DC, fellow, April 2018-
        present; performed academic research.

        Mercatus Center at George Mason University, Arlington, VA; 
        senior research fellow, September 2010-June 2018; performed 
        academic research.

        U.S. Social Security Administration, Washington, DC; August 
        2007-September 2010. Positions held: Deputy Commissioner for 
        Social Security (Acting); Chief Economist; and Associate 
        Commissioner for Retirement Policy.

          Served as the Principal Deputy Commissioner for the Social 
Security Administration, providing leadership and management of the 
Social Security programs (retirement, survivors, and disability), as 
well as the Supplemental Security Income (SSI) program.

          Served as Secretary to the Board of Trustees of the Social 
Security Trust Funds and as the lead executive for the Social Security 
Administration on the Trustees Working Group, which oversees the 
methodologies and assumptions for the Annual Report.

          Responsible for executive leadership to develop and execute 
economic policy for the agency.

          Managed Ph.D. and master level research staff in the conduct 
of social insurance policy analysis based on major social initiatives 
and economic trends.

        Joint Economic Committee--United States Congress, Washington, 
        DC; Senior Economist, 1999 (106th Congress)-2007 (110th 
        Congress).

          Advised members of Congress and their staffs on matters of 
economic policy.

        Arthur Andersen LLP, Office of Federal Tax Services, Economic 
        Analysis Group, Washington, DC; senior consultant, 1998-1999.

          Developed econometric models to evaluate intercompany 
transfer pricing practices of multinational corporations in various 
industries to ensure compliance with U.S. and international tax 
regulations.

        U.S. Department of Treasury, Internal Revenue Service, 
        Washington; DC; Compliance Research Division--Projections and 
        Forecasting Group Economist, 1995-1998.

          Forecasted electronically filed individual and business tax 
returns, Forms 1040PC, and tax returns of exempt organizations, 
individual refunds, and fiduciary tax returns.

        Independent Sector, Washington, DC; research assistant, 1993-
        1994.

          Researched and analyzed statistical data on the nonprofit 
sector for inclusion in Independent Sector research publications.

        Johns Hopkins University, Paul H. Nitze School of Advanced 
        International Studies, Washington; DC; adjunct professor, 2011-
        2018.

        Georgetown University, McCourt School of Public Policy, 
        Washington, DC; adjunct professor, 2006-2017.

        Virginia Tech, Center for Public Administration and Policy, 
        Alexandria, VA; adjunct professor, 2008-2010.

10.  Government experience (list any current and former advisory, 
consultative, honorary, or other part-time service or positions with 
Federal, State, or local governments held since college, including 
dates; other than those listed above):

        None other than those listed above.

11.  Business relationships (list all current and former positions held 
as an officer, director, trustee, partner (e.g., limited partner, non-
voting, etc.), proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, other business enterprise, or 
educational or other institution):

        Aside from those previously listed above: TIAA--Editing 
        services for Financial Literacy and Retirement Security 
        Project; MSL Group--Research services--Author research paper on 
        financial security; Committee for a Responsible Federal 
        Budget--Writing research papers on Social Security Disability 
        Insurance; MJ Willard/National Telecommuting Institute, Inc.--
        Consulting on Social Security Disability demonstration project 
        design; Urban Institute--Honorarium for focus group on research 
        project; and American Retirement Association--Honorarium for 
        co-authoring research paper.

12.  Memberships (list all current and former memberships, as well as 
any current and former offices held in professional, fraternal, 
scholarly, civic, business, charitable, and other organizations dating 
back to college, including dates for these memberships and offices):

        National Academy of Social Insurance--Board member, current 
        treasurer; member from 2017-present; board member, 2017-
        present; and treasurer from May 2018-present.

        National Rifle Association, life member since 2000 (est.).

        Georgetown University, McCourt School Alumni Board, 2005-2014; 
        chair, 2005-2006; fund-raising chair, 2007-2010.

        Academic association memberships--Pre-2010/2011. But no longer 
        a member of any of the following: member of the American 
        Economic Association; member of the National Tax Association; 
        member of the Association for Public Policy Analysis and 
        Management; and member of the American Society for Public 
        Administration.

13.  Political affiliations and activities:

        a.  List all public offices for which you have been a candidate 
        dating back to the age of 18.

       N/A.

        b.  List all memberships and offices held in and services 
        rendered to all political parties or election committees, 
        currently and during the last 10 years prior to the date of 
        your nomination.

       N/A.

        c.  Itemize all political contributions to any individual, 
        campaign organization, political party, political action 
        committee, or similar entity of $50 or more for the past 10 
        years prior to the date of your nomination.

       Tobias Reed, candidate for Treasurer, State of Oregon, 2016, 
$250.

       Trey Hollingsworth, candidate for U.S. Congress, 2016, $150.

       John McCain, candidate for President of the United States, 2008, 
$250.

14.  Honors and awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement received 
since the age of 18):

        As listed in my CV:

        U.S. Department of Treasury, Internal Revenue Service, 
        Washington, DC; performance awards, 1996, 1997, and 1998; Chief 
        Compliance Officer's award, 1997; and special act award, 1995.

        Virginia Polytechnic Institute and State University (Virginia 
        Tech), Blacksburg and Alexandria, VA; Pi Alpha Alpha Honor 
        Society, Phi Kappa Phi Honor Society, and Outstanding Recent 
        Alumnus of the College of Architecture and Urban Studies for 
        2009-2010 Award.

        Georgetown University, Washington, DC; Public Policy Department 
        Scholar, and Colin Campbell Alumni Award, 2006.

        University of Michigan, Ann Arbor, Michigan; Class Honors 
        Graduate; and Princeton University Foundation for Student 
        Communication Scholar, 1992.

15.  Published writings (list the titles, publishers, dates, and 
hyperlinks (as applicable) of all books, articles, reports, blog posts, 
or other published materials you have written):

        I do not maintain, nor can I recall or create, a list of all 
        published materials. To the best of my knowledge, below is a 
        list of those published works for which I do maintain records. 
        Hyperlinks are provided, and most of these publications are 
        also available for download from the following website: https:/
        /sites.
        google.com/site/jasonjfichtner/publications.

Publications

        ``Supplemental Transition Accounts for Retirement: A Proposal 
        to Increase Retirement Income Security and Reform Social 
        Security,'' with Gary Koenig and William G. Gale. Public Policy 
        and Aging Report, Vol. 28, No. Suppl. 1. August 2018.

        ``Global Aging and Public Finance,'' Business Economics, Vol. 
        53, No. 2, April 2018. First online January 2018.

        ``Legislative Impact Accounting: Incorporating Prospective and 
        Retrospective Review Into a Regulatory Budget,'' with Patrick 
        A. McLaughlin and Adam N. Michel. Public Budgeting and Finance, 
        Vol. 38, No. 2, Summer 2018. First online December 2017.

        ``Supplemental Transition Accounts for Retirement (START): A 
        Proposal to Increase Retirement Income Security and Reform 
        Social Security,'' with Gary Koenig and William G. Gale. AARP 
        Public Policy Institute, January 2018.

        ``Enhancing U.S. Retirement Security Through Coordinated Reform 
        of Social Security Disability and Retirement Insurance 
        Programs,'' with Jason S. Seligman. The Journal of Retirement, 
        Vol. 4, No. 1. Summer 2016.

        ``Beyond All or Nothing: Reforming Social Security Disability 
        Insurance to Encourage Work and Wealth,'' with Jason S. 
        Seligman. Chapter 13 in SSDI Solutions: Ideas to Strengthen the 
        Social Security Disability Insurance Program, McCrery-Pomeroy 
        SSDI Solutions Initiative, Committee for a Responsible Federal 
        Budget, Infinity publishing, 2016.

        ``The Hidden Cost of Federal Tax Policy,'' with Jacob M. 
        Feldman, The Mercatus Center at George Mason University, 2015.

        ``Hospitals and the Proposed Virginia Medicaid Expansion,'' 
        with Marc D. Joffe. The Thomas Jefferson Institute for Public 
        Policy, April 2015.

        ``The Power of the Purse: Rethinking Runaway Debt and a Broken 
        Budgeting Process,'' in Triumphs and Tragedies of the Modern 
        Congress, M. Angerholzer III, J. Kitfield, C. Lu, and N. 
        Ornstein (eds.), Praeger, October 2014.

        The Economics of Medicaid: Assessing the Costs, and 
        Consequences, J. Fichtner (ed.), The Mercatus Center at George 
        Mason University, 2014. ``The Federal Side of the Budget 
        Equation,'' Chapter 3.

        ``Public Disability Insurance Programs in the Context of 
        Pension Reforms,'' with Jason S. Seligman. Chapter 7 in 
        Pensions: Policies, New Reforms and Current Challenges, T. 
        Reilly (ed.), Nova Science Publishers, 2014.

        ``Retirement Behavior and the Global Financial Crisis,'' with 
        John W.R. Phillips and Barbara A. Smith. Chapter 5 in Reshaping 
        Retirement Security: Lessons From the Global Financial Crisis, 
        R. Maurer, O. Mitchell, and M. Warshawsky (eds.), Oxford 
        University Press, 2012.

        ``Social Security Reform and Economic Growth,'' with Charles 
        Blahous. Chapter 15 in The 4% Solution: Unleashing the Economic 
        Growth America Needs, B. Miniter (ed.), Crown Business 
        Publisher, Random House, Inc., 2012.

        ``Three Approaches to Fostering Economic Competitiveness,'' 
        Chapter 5 in Governing to Win: Enhancing National 
        Competitiveness Through New Policy and Operating Approaches, C. 
        Prow (ed.), IBM Center for the Business of Government, Rowman 
        and Littlefield Publishers, Inc., 2012.

        ``Revenue Estimation: A Comparison of Tax Distribution 
        Tables,'' Tax Notes, Vol. 105, No. 13, December 20. 2004.

        ``A Comparison of Tax Distribution Tables: How Missing or 
        Incomplete Information Distorts Perspectives,'' a report of The 
        Heritage Center for Data Analysis, The Heritage Foundation, 
        November 9. 2004. Included as Chapter 7 in The Secret Chamber 
        or the Public Square?--What Can Be Done to Make Tax Analysis 
        and Revenue Estimation More Transparent and Accurate, D. 
        Mastromarco, D. Burton, and W. Beach (eds.), The Heritage 
        Foundation. 2005.

        The Mercatus Center, George Mason University. ``Consequences of 
        Financing Paid Parental Leave Using Social Security,'' with 
        Veronique de Rugy and Charles Blahous. Mercatus Policy Brief, 
        June 2018.

        ``Reforming the Social Security Disability Insurance Program to 
        Encourage Work and Labor Force Participation: Lessons from the 
        United Kingdom,'' with Jack Salmon. Mercatus Policy Brief, June 
        2018.

        ``Curbing the Surge in Year-End Federal Government Spending: 
        Reforming `Use It or Lose It' Rules--2018 Update,'' with Joe 
        Albanese. Mercatus Research, June 2018.

        ``Saving Social Security Disability Insurance: Designing and 
        Testing Reforms Through Demonstration Projects,'' with Jason S. 
        Seligman. Mercatus Working Paper, June 2018.

        ``The Role of the Interest Deduction in the Corporate Tax 
        Code,'' with Hunter Cox. Mercatus on Policy, March 2018.

        ``Integrating Corporate Taxes: An Important Element of Tax 
        Reform,'' with Tracy C. Miller. Mercatus on Policy, December 
        2017.

        ``Getting to True Tax Reform in 2017: A Better Way,'' with Adam 
        N. Michel, Veronique de Rugy, and Angela S. Kuck. Mercatus 
        Policy Primer, April 2017.

        ``Border Adjustment Tax: What We Know (Not Much) and What We 
        Don't (All the Rest),'' with Veronique de Rugy and Adam N. 
        Michel. Mercatus Policy Brief, February 2017.

        ``Curbing the Surge in Year-End Federal Government Spending: 
        Reforming `Use It or Lose It' Rules--2016 Update,'' with Adam 
        N. Michel. Mercatus Research, September 2016.

        `` `Fixing' the Tax Code: Key Principles for Successful, 
        Sustainable Reform,'' with Veronique de Rugy, Matthew D. 
        Mitchell, Angela S. Kuck, and Adam N. Michel. Mercatus Economic 
        Perspectives, May 2016.

        ``The OECD's Conquest of the United States: Understanding the 
        Costs and Consequences of the BEPS Project and Tax 
        Harmonization,'' with Adam N. Michel. Mercatus Research, March 
        2016.

        ``Biennial Budgeting: A Look at Intents vs. Outcomes,'' with 
        Angela S. Kuck and Adam N. Michel. Mercatus on Policy, March 
        2016.

        ``Don't Put American Innovation in a Patent Box: Tax Policy, 
        Intellectual Property, and the Future of R&D,'' with Adam N. 
        Michel. Mercatus on Policy, December 2015.

        ``Locking Out Prosperity: The Treasury Department's Misguided 
        Regulation to Address the Symptoms of Corporate Inversions 
        While Ignoring the Cause,'' with Courtney S. Michaluk and Adam 
        N. Michel. Mercatus on Policy, December 2015.

        ``Can a Research and Development Tax Credit Be Properly 
        Designed for Economic Efficiency?'', with Adam Michel. Mercatus 
        Research, July 2015.

        ``Legislative Impact Accounting: Rethinking How to Account for 
        Policies' Economic Costs in the Federal Budget Process,'' with 
        Patrick A. McLaughlin. Mercatus Working Paper, June 2015.

        ``Saving Social Security Disability Insurance: Reforms Within 
        the Context of Holistic Social Security Reform,'' with Jason S. 
        Seligman. Mercatus Working Paper, March 2015.

        ``Options for Corporate Capital Cost Recovery: Tax Rates and 
        Depreciation,'' with Adam Michel. Mercatus Research, January 
        2015.

        ``Curbing the Surge in Year-End Federal Government Spending: 
        Reforming `Use It or Lose It' Rules,'' with Robert Greene. 
        Mercatus Working Paper, September 2014.

        ``The United States' Debt Crisis: Far From Solved,'' with 
        Veronique de Rugy. Mercatus on Policy, August 2014.

        ``Reforming the Mortgage Interest Deduction,'' with Jacob 
        Feldman. Mercatus Working Paper, June 2014.

        ``Medicaid Overview,'' with John Pulito. Mercatus Research, 
        December 2013.

        ``Budget Conference 2013: Principles for a Credible Deal,'' 
        with Veronique de Rugy. Mercatus Research, December 2013.

        ``The Debt Limit Debate 2013: Addressing Key Myths,'' with 
        Veronique de Rugy. Mercatus Economic Perspectives, October 
        2013.

        ``The Hidden Costs of Tax Compliance,'' with Jacob Feldman. 
        Mercatus Research, May 2013.

        ``The Debt Ceiling: Assets Available to Prevent Default,'' with 
        Veronique de Rugy. Mercatus Research, January 2013.

        ``Reducing Debt and Other Measures for Improving U.S. 
        Competitiveness,'' with Jakina Debnam. Mercatus Research Paper, 
        November 2012.

        ``Limiting Social Security's Drag on Economic Growth,'' with 
        Charles Blahous. Mercatus Research Paper, November 2012.

        ``Taxing Marriage: Microeconomic Behavioral Responses to the 
        Marriage Penalty and Reforms for the 21st Century,'' with Jacob 
        Feldman. Mercatus Working Paper, September 2012.

        `` `Fixing' the Tax Code: Key Principles for Successful 
        Reform,'' with Veronique de Rugy and Matthew D. Mitchell. 
        Mercatus Economic Perspectives, November 2011.

        ``When Are Tax Expenditures Really Spending? A Look at Tax 
        Expenditures and Lessons From the Tax Reform Act of 1986,'' 
        with Jacob Feldman. Mercatus Working Paper, November 2011.

        ``Why the United States Needs to Restructure the Corporate 
        Income Tax,'' with Nick Tuszynski. Mercatus Working Paper, 
        November 2011.

        ``A Sisyphean Task? Attempts to Control Medicare Spending via 
        the Inpatient Prospective System and the Fee-for-Service 
        Physician Reimbursement System,'' with John Pulito. Mercatus 
        Working Paper, September 2011.

        ``The Debt Limit Debate,'' with Veronique de Rugy. Mercatus 
        Working Paper, May 2011.

        ``The Debt Ceiling Debate: What Is at Stake,'' with Veronique 
        de Rugy. Mercatus Research Summary, April 2011.

        ``Lessons from the 1986 Tax Reform Act: What Policy Makers Need 
        to Learn to Avoid the Mistakes of the Past,'' with Jacob 
        Feldman. Mercatus Working Paper, April 2011.

        ``The 1 Percent Solution: Balancing the Federal Budget.'' 
        Mercatus Working Paper, February 2011.

        ``Can We Trust the Social Security Trust Funds?'', with 
        Veronique de Rugy. Mercatus on Policy, January 2011.

        ``Uncertainty and Taxes: A Fatal Policy Mix,'' with Katelyn 
        Christ. Mercatus Working Paper, December 2010.

        ``Artificially Sweetening the COLA.'' Mercatus on Policy, 
        November 2010.

U S. Social Security Administration

        ``Estimated Retirement Benefits in the Social Security 
        Statement,'' November 2008.

United States Congress--Joint Economic Committee (JEC)--Committee 
                    Reports and Studies

        ``Reforming the U.S. Corporate Tax System to Increase Corporate 
        Tax Competitiveness,'' May 2005.

        ``Providing Tax Equity for Mutual Fund Investors: Changing the 
        Tax Treatment of Capital Gain Distributions,'' April 2004.

        ``A Comparison of Tax Distribution Tables: How Missing or 
        Incomplete Information Distorts Perspectives,'' December 2003.

        ``The Misleading Effects of Averages in Tax Distribution 
        Analysis,'' September 2003.

        ``The Taxation of Individual Retirement Plans: Increasing 
        Choice for Seniors,'' September 2002.

        ``Extending the Budget Enforcement Act: Revision of PAYGO Rules 
        Necessary for Better Tax Policy,'' May 2002.

        ``The Taxation of Mutual Fund Investors: Performance, Saving, 
        and Investment,'' April 2001.

        ``Encouraging Personal Saving and Investment: Changing the Tax 
        Treatment of Unrealized Capital Gains,'' June 2000.

        ``A Guide to Tax Policy Analysis: The Central Tendency of 
        Federal Income Tax Liabilities in Distributional Analysis,'' 
        May 2000.

        ``A Guide to Tax Policy Analysis: Problems With Distributional 
        Tax Tables,'' January 2000.

JEC Policy Briefs

        ``Taxpayers Misclassified in Tax Distribution Analysis,'' 
        Research Report #110-24, July 2008.

        ``Tax Distribution Tables Can Be Misleading,'' Research Report 
        #110-12, September 2007.

        ``Top 10 Percent of Filers Account for Most Federal Income 
        Taxes,'' Research Report #110-4, April 2007.

        ``Providing Tax Equity for Mutual Fund Investors,'' Research 
        Report #109-40, July 2006.

        ``Federal Income Tax System Is Highly Progressive After Recent 
        Tax Cuts,'' Research Report #109-36, May 2006.

        ``Millions of Taxpayers Have Zero or Negative Federal Income 
        Tax Liability,'' Research Report #109-21, October 2005.

        ``Tax Distribution Analysis and Shares of Income Taxes Paid--
        Updated Analysis,'' Research Report #109-20, October 2005.

        ``Improve the U.S. Corporate Tax System to Increase Tax 
        Competitiveness in a Global Economy,'' Research Report #109-8; 
        May 2005.

        ``Tax Distribution Analysis and Shares of Taxes Paid,'' 
        Research Report #109-4, April 2005.

Conference Papers and Presentations

        ``Household Reactions and Strategic Responses to Retirement 
        Wealth Building and Decumulation in a Low Interest Rate 
        Environment,'' with Jason S. Seligman. 2017 Symposium--Saving 
        and Retirement in an Uncertain Financial Environment. Pension 
        Research Council, Wharton Business School, University of 
        Pennsylvania, Philadelphia, Pennsylvania. May 4-5, 2017.

        ``Beyond All or Nothing: Reforming SSDI to Encourage Work and 
        Wealth,'' with Jason S. Seligma. McCrery-Pomeroy SSDI Solutions 
        Conference. Committee for a Responsible Federal Budget, 
        Washington, DC. August 4, 2015.

        ``Retirement Behavior and the Global Financial Crisis,'' with 
        John W.R. Phillips. 2011 Symposium--Reshaping Retirement 
        Security: Lessons From the Global Financial Crisis. Pension 
        Research Council, Wharton Business School, University of 
        Pennsylvania, Philadelphia, Pennsylvania. May 5-6, 2011.

        ``The Politics of Distribution Tables in Tax Policy Analysis.'' 
        Association for Public Policy Analysis and Management (APPAM), 
        Twenty-Eighth Annual Research Conference, Madison, Wisconsin. 
        November 2-4, 2006.

        ``A Comparison of Tax Distribution Tables: How Missing or 
        Incomplete Information Distorts Perspectives.'' Presented at 
        the Virginia Tech College of Architecture and Urban Studies 
        Research Symposium 2006, Blacksburg, Virginia. February 1-2, 
        2006.

        ``A Comparison of Tax Distribution Tables: How Missing or 
        Incomplete Information Distorts Perspectives.'' Presented at 
        The Heritage Foundation conference titled The Secret Chamber or 
        the Public Square: How Washington Makes Tax Policy, Washington, 
        DC. December 9. 2004.

Congressional Testimony

        ``Curbing Wasteful Year-End Federal Government Spending: 
        Reforming `Use It or Lose It' Rules.'' United States Senate, 
        Committee on Homeland Security and Governmental Affairs, 
        Subcommittee on Federal Spending Oversight and Emergency 
        Management. Hearing on ``Prudent Planning or Wasteful Binge? 
        Another Look at End of the Year Spending.'' October 20, 2017.

        ``Restoring and Modernizing Social Security Through Sustainable 
        Reform.'' United States House of Representatives, Committee on 
        the Budget. Hearing on ``Restoring the Trust for Americans at 
        or Near Retirement.'' July 13, 2016.

        ``Restoring Equity and Fairness to the Social Security Windfall 
        Elimination Provision (WEP) and Government Pension Offset 
        (GPO).'' United States House of Representatives, Committee on 
        Ways and Means, Subcommittee on Social Security. Hearing on 
        ``Social Security and Public Servants: Ensuring Equal 
        Treatment.'' May 22, 2016.

        ``Curbing Wasteful Year-End Federal Government Spending: 
        Reforming `Use It or Lose It' Rules.'' United States Senate, 
        Committee on Homeland Security and Governmental Affairs, 
        Subcommittee on Federal Spending Oversight and Emergency 
        Management. Hearing on ``Prudent Planning or Wasteful Binge? A 
        Look at End of the Year Spending.'' September 30, 2015.

        ``Addressing the Real `Retirement Crisis' Through Sustainable 
        Social Security Reform.'' United States Senate, Committee on 
        Finance, Subcommittee on Social Security, Pensions, and Family 
        Policy. Hearing on ``Strengthening Social Security to Meet the 
        Needs of Tomorrow's Retirees.'' May 21, 2014.

        ``Reforming Social Security to Better Promote Retirement 
        Security.'' United States House of Representatives, Committee 
        on Ways and Means, Subcommittee on Social Security. Hearing on 
        ``The President's and Other Bipartisan Entitlement Reform 
        Proposals.'' May 23, 2013.

        Increasing America's Competitiveness by Lowering the Corporate 
        Tax Rate and Simplifying the Tax Code. United States Senate 
        Committee on Finance. Hearing on ``Extenders and Tax Reform: 
        Seeking Long-Term Solutions.'' January 31, 2012.

Dissertation

        ``Distribution Tables and Federal Tax Policy: A Scoring Index 
        as a Method for Evaluation.'' Virginia Tech, School of Public 
        and International Affairs, Center on Public Administration and 
        Policy. 2005.
MarketWatch Articles
        ``Will President-Elect Trump and Congress `Take a Stand' on 
        Social Security?'' (December 13, 2016).

        ``The retirement age for Social Security needs to rise to 70'' 
        (November 7, 2016).

        ``The good news and the bad news about the 2017 Social Security 
        increase'' (October 19, 2016).

        ``Social Security insolvency is now one year closer'' (July 11, 
        2016).

        ``Will change come to the Social Security Windfall Elimination 
        Provision?'' (April 5, 2016).

        ``Crisis in Social Security disability insurance averted, but 
        not gone'' (November 30, 2015).

        ``How to fix the Social Security Disability Insurance program'' 
        (September 30, 2015).

        ``No cost-of-living adjustment for Social Security in 2016?'' 
        (July 28, 2015).

        ``Social Security disability fund will run empty next year'' 
        (April 3, 2015).

        ``Why finding a good doctor will get even harder'' (March 23, 
        2015).

        ``Lee-Rubio tax-reform plan presents huge win for retirees'' 
        (March 17, 2015).

        ``Social Security is in crisis'' (July 31, 2014).

        ``Keep up the pressure to save Social Security'' (June 25, 
        2013).

        ``Give up tax breaks for retirement savers?'' (February 11, 
        2013).

        ``Chained CPI: Diet COLA for Social Security'' (December 20, 
        2012).

        ``Convert to a Roth IRA before taxes go up'' (December 19, 
        2012).

        ``Top money move for a secure retirement'' (November 14, 2012).
The Hill
        http://thehill.com/opinion/finance/359355-paint-by-numbers-
        lawmaking-waters-down-tax-reform (November 8, 2017).

        http://thehill.com/blogs/pundits-blog/finance/334215-is-there-
        really-a-retirement-savings-crisis-in-the-us (May 19, 2017).

        http://thehill.com/blogs/pundits-blog/economy-budget/327666-
        reforming-earned-income-tax-credit-could-be-a-bipartisan (April 
        18, 2017).

        http://thehill.com/blogs/congress-blog/economy-a-budget/238769-
        an-actuarial-ombudsman-for-the-public (July 18, 2012).
Roll Call
        http://www.rollcall.com/news/opinion/opinion-no-news-bad-news-
        looming-social-security-crisis (June 11, 2018).
U.S. News and World Report
        https://www.usnews.com/opinion/economic-intelligence/2014/04/
        28/congress-wasteful-tax-extenders-bill-is-bad-for-the-economy 
        (April 18, 2014).

        https://www.usnews.com/opinion/blogs/economic-intelligence/
        2013/05/28/the-complex-tax-code-hurts-the-economy (May 28, 
        2013).

        https://www.usnews.com/opinion/blogs/economic-intelligence/
        2012/09/18/eliminate-the-marriage-tax-penalty (September 18, 
        2012).

        https://www.usnews.com/debate-club/should-the-buffett-rule-
        become-law/reducing-spending-not-taxing-millionaires-is-a-real-
        solution (April 16, 2012).

        https://www.usnews.com/debate-club/do-the-rich-pay-their-fair-
        share-in-taxes/claim-that-rich-dont-pay-enough-based-on-
        perception-not-fact (December 16, 2011).

16.  Speechs (list all formal speeches and presentations (e.g., 
PowerPoint) you have delivered during the past 5 years which are on 
topics relevant to the position for which you have been nominated, 
including dates):

        ``Supplemental Transition Accounts for Retirement,'' with Gary 
        Koenig. Presentation to the National Association of Plan 
        Advisors. Washington, DC. July 24, 2018.

        ``Panel Discussion of Henry J. Aaron's Lunch Keynote Address on 
        Social Security,'' National Academy of Social Insurance, 30th 
        Annual Policy Research Conference. Washington, DC. January 30, 
        2018.

        ``Global Aging and Public Finance,'' National Association of 
        Business Economics, 59th Annual Meeting, Cleveland, Ohio. 
        September 24, 2017.

        ``Household Reactions and Strategic Responses to Retirement 
        Wealth Building and Decumulation in a Low Interest Rate 
        Environment,'' with Jason S. Seligman. 2017 Symposium--Saving 
        and Retirement in an Uncertain Financial Environment. Pension 
        Research Council, Wharton Business School, University of 
        Pennsylvania, Philadelphia, Pennsylvania May 4-5, 2017.

        ``Discussion: Academy Report to the New Administration--
        Restoring Social Security to Long-term Balance,'' National 
        Academy of Social Insurance, 29th Annual Policy Research 
        Conference. Washington, DC. January 26, 2017.

        ``Beyond All or Nothing: Reforming SSDI to Encourage Work and 
        Wealth,'' with Jason S. Seligman. McCrery-Pomeroy SSDI 
        Solutions Conference, Committee for a Responsible Federal 
        Budget. Washington, DC. August 4, 2015.

Although I did not have a formal speech written or PowerPoint 
presentation, the following discussions on Social Security were 
broadcast on C-SPAN:

        ``Social Security Solvency,'' June 8, 2018; https://www.c-
        span.org/video/?446714-1/representatives-john-larson-tom-rice-
        discuss-social-security.

        Additional C-SPAN broadcasts on other topics besides Social 
        Security can be found here: https://www.c-span.org/search/
        ?searchtype=All&guery=Jason+
        Fichtner.

Although I did not have a formal speech written or PowerPoint 
presentation, the following discussions on retirement security issues 
were taped and broadcast by the Brookings Institution:

        ``Fixing the U.S. retirement system--does Canada have the 
        answers?'', November 2, 2017; https://www.brookings.edu/events/
        fixing-the-u-s-retirement-system-
        does-canada-have-the-answers/.

        ``Are new directions needed in State retirement policy?'', 
        October 7, 2015; https://www.brookings.edu/events/are-new-
        directions-needed-in-state-retirement-policy/.

17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

        I have served in numerous positions in the Social Security 
        Administration, providing leadership and management of the 
        Social Security programs. I have served as the Secretary to the 
        Board of Trustees of the Social Security Trust Funds and as the 
        lead executive for the Social Security Administration on the 
        Trustees Working Group, which oversees the methodologies and 
        assumptions for the Annual Report. I have helped develop and 
        execute policy for the Social Security Administration. While at 
        the Social Security Administration, I served as a liaison with 
        the Social Security Advisory Board, the White House, the 
        National Economic Council, the Office of Management and Budget, 
        the Senate Finance Committee, the House Ways and Means 
        Committee, and various other government and nongovernmental 
        stakeholders. All of these experiences qualify me to serve as a 
        member on the Social Security Advisory Board.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

 1.  Will you sever all connections (including participation in future 
benefit arrangements) with your present employers, business firms, 
associations, or organizations if you are confirmed by the Senate? If 
not provide details.

        No. The position for which I am being considered does not 
        require me to sever all connections with my current employers 
        or associations. I will however be bound by ethics agreements 
        made with the Office of Government Ethics (OGE), and will sever 
        any current or future potential or actual conflicts of interest 
        that are identified by OGE.

 2.  Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, provide details.

        Yes. The position for which I am being considered does not 
        require me to sever all connections with my current employers 
        or associations. I will continue to maintain my employment with 
        Johns Hopkins University and my association as a fellow with 
        the Bipartisan Policy Center. I will also continue my 
        association (unpaid) with the National Academy of Social 
        Insurance. I will however be bound by ethics agreements made 
        with the Office of Government Ethics (OGE), and will sever any 
        current or future potential or actual conflicts of interest 
        that are identified by OGE.

 3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

        No.

 4.  If you are confirmed by the Senate, do you expect to serve out 
your full term or until the next presidential election, whichever is 
applicable? If not, explain.

        Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

 1.  Indicate any current and former investments, obligations, 
liabilities, or other personal relationships, including spousal or 
family employment, which could involve potential conflicts of interest 
in the position to which you have been nominated.

        N/A.

 2.  Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years (prior to the 
date of your nomination), whether for yourself, on behalf of a client, 
or acting as an agent, that could in any way constitute or result in a 
possible conflict of interest in the position to which you have been 
nominated.

        N/A.

 3.  Describe any activity during the past 10 years (prior to the date 
of your nomination) in which you have engaged for the purpose of 
directly or indirectly influencing the passage, defeat, or modification 
of any legislation or affecting the administration and execution of law 
or public policy. Activities performed as an employee of the Federal 
government need not be listed.

        N/A.

 4.  Explain how you will resolve any potential conflict of interest, 
including any that are disclosed by your responses to the above items. 
(Provide the committee with two copies of any trust or other 
agreements.)

        I will consult with the designated agency ethics officer, and I 
        will not participate personally and substantially in any 
        particular matter that to my knowledge has a direct and 
        predictable effect on the financial interests of those in which 
        I have a business affiliation past, present, or future.

 5.  Two copies of written opinions should be provided directly to the 
committee by the designated agency ethics officer of the agency to 
which you have been nominated and by the Office of Government Ethics 
concerning potential conflicts of interest or any legal impediments to 
your serving in this position.

        See attached document for draft preclearance letter from OGE.

                       D. LEGAL AND OTHER MATTERS

 1.  Have you ever been the subject of a complaint or been 
investigated, disciplined, or otherwise cited for a breach of ethics 
for unprofessional conduct before any court, administrative agency 
(e.g., an Inspector General's office), professional association 
disciplinary committee, or other ethics enforcement entity at any time? 
Have you ever been interviewed regarding your own conduct as part of 
any such inquiry or investigation? If so, provide details, regardless 
of the outcome.

        No.

 2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than a minor traffic offense? Have you ever been interviewed 
regarding your own conduct as part of any such inquiry or 
investigation? If so, provide details.

        No.

 3.  Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

        No.

 4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

        No.

 5.  Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

        None.

                     E. TESTIFYING BEFORE CONGRESS

 1.  If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

        Yes.

 2.  If you are confirmed by the Senate, are you willing to provide 
such information as is requested by such committees?

        I will provide an appropriate response to such requests for 
        information.

                                 ______
                                 

                        United States Office of 
                           Government Ethics

                    1201 New York Avenue, Suite 500

                          Washington, DC 20005

_______________________________________________________________________

                                                   January 22, 2019

The Honorable Charles E. Grassley
Chairman
Committee on Finance
U.S. Senate
Washington, DC 20510

Dear Mr. Chairman:

    Under the Ethics in Government Act of 1978, Presidential nominees 
requiring Senate confirmation who are not expected to serve in their 
Government positions for more than 60 days in a calendar year are not 
required to file public financial disclosure reports. The Act, as 
amended, however, contains a provision in section 101(b) that allows 
the committee with jurisdiction to request any financial information it 
deems appropriate from the nominee.

    We understand that your committee desires to receive a financial 
disclosure report from any Presidential nominee for a position on the 
Social Security Advisory Board of the Social Security Administration, 
along with a written opinion from this Office regarding any possible 
conflicts of interest. Therefore, I am forwarding a copy of the 
confidential financial disclosure report (OGE Form 450) of Jason J. 
Fichtner, who has been nominated by President Trump for the position of 
Member of the Social Security Advisory Board.

    We have reviewed the report and have also obtained advice from the 
agency concerning any possible conflict in light of its functions and 
the nominee's proposed duties. Also enclosed is an ethics agreement 
outlining the actions that the nominee will undertake to avoid 
conflicts of interest. Unless a date for compliance is indicated in the 
ethics agreement, the nominee must fully comply within three months of 
confirmation with any action specified in the ethics agreement.

    Based thereon, we believe that this nominee is in compliance with 
applicable laws and regulations governing conflicts of interest.

            Sincerely,

            David J. Apol
            General Counsel

Enclosures

_______________________________________________________________________

Mr. Daniel F. Callahan
Designated Agency Ethics Official
Social Security Administration
Room 617 Altmeyer Building
6401 Security Boulevard
Woodlawn, MD 21235

                             July 19, 2018

Dear Mr. Callahan:

    The purpose of this letter is to describe the steps that I will 
take to avoid any actual or apparent conflict of interest in the event 
that I am confirmed as a Member of the Social Security Advisory Board.

    As required by 18 U.S.C. Sec. 208(a), I will not participate 
personally and substantially in any particular matter in which I know 
that I have a financial interest directly and predictably affected by 
the matter, or in which I know that a person whose interests are 
imputed to me has a financial interest directly and predictably 
affected by the matter, unless I first obtain a written waiver, 
pursuant to 18 U.S.C. Sec. 208(6)(1), or qualify for a regulatory 
exemption, pursuant to 18 U.S.C. Sec. 208(b)(2). I understand that the 
interests of the following persons are imputed to me; any spouse or 
minor child of mine any general partner of a partnership in which I am 
a limited or general partner; any organization in which I serve as 
officer, director, trustee, general partner or employee; and any person 
or organization with which I am negotiating or have an arrangement 
concerning prospective employment.

    I am an employee of Johns Hopkins University. I will not 
participate personally and substantially in any particular matter that 
to my knowledge has a direct and predictable effect on the financial 
interests of Johns Hopkins University, unless I first obtain a written 
waiver, pursuant to 18 U.S.C. Sec. 208(b)(1), or qualify for a 
regulatory exemption, pursuant to 18 U.S.C. Sec. 208(b)(2).

    I have resigned from my positions with the Mercatus Center at 
George Mason University and Georgetown University. For a period of one 
year after my resignation from each of these entities, I will not 
participate personally and substantially in any particular matter 
involving specific parties in which I know that entity is a party or 
represents a party, unless I am first authorized to participate, 
pursuant to 5 CFR Sec. 2635.502(d).

    I received consulting fees from TIAA and MSL Group. For a period of 
one year after I last provided service to each of these entities, l 
will not participate personally and substantially in any particular 
matter involving specific parties in which I know that entity is a 
party or represents a party, unless I am first authorized to 
participate, pursuant to 5 CFR Sec. 2635.502(d).

    I received honoraria from AARP, the Bipartisan Policy Center, the 
University of Pennsylvania, and the Urban Institute. For a period of 
one year after I last provided service to each of these entities, I 
will not participate personally and substantially in any particular 
matter involving specific parties in which I know that entity is a 
party or represents a party, unless I am first authorized to 
participate, pursuant to 5 CFR Sec. 2635.502(d).

    I have been advised that I will likely serve on the board for no 
more than 60 days in any period of 365 consecutive days. Accordingly, I 
understand that I may not, under 18 U.S.C. Sec. Sec. 203(c)(l) and 
205(c)(l), provide any representational services or act as agent or 
attorney for another in any particular matter involving specific 
parties in which I have participated personally and substantially as a 
government official. I also understand that I may not receive a share 
of any payment made for such representational services performed by 
another. I understand that additional requirements of 18 U.S.C. 
Sec. 203(c)(2) and 205(c)(2) will apply to me if I serve for more than 
60 days in any period of 365 consecutive days. In that event, l will 
comply with all applicable requirements, and I will consult your office 
if l have any questions about those requirements.

    I will meet in person with you before my first meeting of the 
Social Security Advisory Board in order to complete the initial ethics 
briefing required under 5 CFR Sec. 2638.305. Within 90 days of my 
confirmation, I will document my compliance with this ethics agreement 
by notifying you in writing when I have completed the steps described 
in this ethics agreement.

            Sincerely,

            Jason J. Fichtner

                                 ______
                                 
     Questions Submitted for the Record to Jason J. Fichtner, Ph.D.
               Questions Submitted by Hon. Chuck Grassley
    Question. Some members of this committee asked prior nominees for 
advisory positions related to Social Security questions related to 
whether the nominees would refrain from freely writing about issues 
related to Social Security while they served in the advisory positions.

    For the advisory board to which you have been nominated, the 
authorizing statute states that ``. . . members shall be chosen on the 
basis of their integrity, impartiality, and good judgment. . . .''

    My view, and the view of many others, is that you meet those 
criteria. And, partly because of that, I don't believe that there 
should be any restriction on what you write or your free speech.

    My question is whether, in your writing, you strive to be impartial 
and exercise good judgment?

    Answer. Yes. I always strive to be impartial and exercise good 
judgement in both my research, writing, public speaking and teaching.

    Question. Your resume says that you are a fellow at the Bipartisan 
Policy Center. Can you describe any work related to Social Security 
that you have done at that Center, and whether you have worked in 
collaboration with Democrats, as the bipartisan part of the Center's 
title suggests?

    Answer. Thank you for the question, Senator. Just to provide you 
and members of the committee with two examples of where I've worked in 
a bipartisan manner at the Bipartisan Policy Center, including 
Democrats, the first was BPC's report on improving SSDI. The full 
report and the list of those I worked with on the report can be found 
here: https://bipartisanpolicy.org/report/ssdi-program/.

    Below is the list of the working group members--which includes 
those who identify themselves as conservatives, liberals, Republicans, 
and Democrats: Doug Badger; Alison Barkoff; Henry Claypool; Lisa Ekman; 
Jason J. Fichtner; Marty Ford; Connie Garner; Martin Gerry; G. William 
Hoagland; Andrew J. Imparato; Pam Mazerski; Martin McGuinness; Jennifer 
Laszlo Mizrahi; Jeanne Morin; Lauren Rothfarb; Robert ``Bobby'' 
Silverstein; James Smith; David Stapleton; Madeleine Will; Aliya Wong; 
and Ethel Zelenske.

    The second was a paper published by BPC that I co-authored with 
Bill Gale of the Brookings Institution and Jeff Trinca on IRS Tax 
Administration. The full paper can be downloaded here: https://
bipartisanpolicy.org/wp-content/uploads/2019/04/Tax-Administration-
Compliance-Complexity-Capacity.pdf.

    Additionally, though not a BPC project, I published two papers with 
the Committee for a Responsible Federal Budget (CRFB) on SSDI reform 
chaired on a bipartisan basis by former Congressman Earl Pomeroy and 
Congressman Jim McCrery, former Democratic and Republican chairs of the 
Social Security Subcommittee of the House Committee on Ways and Means. 
For more information, please see the following internet links: http://
www.crfb.org/project/ssdi/ssdisolutions-book and http://www.crfb.org/
project/ssdi/selected-proposals-phase-ii.

                                 ______
                                 
                Questions Submitted by Hon. John Cornyn
    Question. As a member of the Social Security Advisory Board, you 
will be making recommendations on the quality of service that the 
Social Security Administration (SSA) provides to the public. With this 
mind, concerns remain about the SSA's decision not to allow States to 
test and evaluate all available options to modernize its processing 
system for disability claims (``Disability Case Processing System'' 
(DCPS)). Congress expressed support for these efforts through 
appropriations report language in the past 4 fiscal years. Furthermore, 
in its December 2019 report, the SSA Inspector General stated it 
``could not conclude that SSA's cost and schedule estimates for 
developing and implementing DCPS were reasonable.'' Critics also argue 
that the DCPS project demonstrates that SSA is not operating in the 
best interests of the American public and that States should have the 
option to select the best available choice that provides the best 
quality of service to the American public.

    What is your understanding of the States' permission to install, 
test, and select the best option to modernize their case processing 
systems?

    Do you acknowledge each State's option of this choice? If not, why 
not?

    What is your understanding of SSA's support to ensure each State 
can exercise this option?

    Answer. Senator, in general, I am supportive of SSA's efforts to 
provide consistency and reliability to the Disability Determination 
Services (DDS) and the disability determination process. In concept, 
the Disability Case Processing System (DCPS) is designed to accomplish 
this goal and, if successful, will help reduce future infrastructure 
costs. However, in the December 2019 report you referenced, the OIG 
noted that ``. . . SSA plans to continue developing DCPS beyond 
November 2019, and it is unknown when DCPS will provide the 
functionality needed for a DDS to completely stop using its existing 
case processing system.'' I am not familiar with any specific State-
level requests to select their own options for modernizing the 
disability case processing system, and therefore can't speak to the 
merits of any specific State-level request. That said, I would be 
concerned if different States that had different processes for 
determination led to different and inconsistent results across the 
Nation. I do think it is important that determination processes be 
applied uniformly across the country to ensure consistency and fairness 
in the delivery of services. If confirmed as a member of the Social 
Security Advisory Board, I pledge to discuss with issue further with my 
colleagues on the SSAB and to look into the matter further with SSA.

                                 ______
                                 
                 Question Submitted by Hon. John Thune
    Question. As someone who has worked in multiple roles within the 
Social Security Administration, what do you think the agency's biggest 
challenge is? In other words, knowing what you know, what topics do you 
think the Social Security Advisory Board should be focusing on?

    Answer. Senator, thank you for the question. It's not just one big 
challenge. There are multiple big challenges that the Social Security 
Administration faces, and which the Social Security Advisory Board 
should be focusing on. For example, SSA faces significant budgetary 
constraints. In an environment where many government agencies are being 
asked to do more with less, SSA needs to effectively staff and manage 
approximately 1,200 field offices and work to reduce the disability 
backlog. Further, SSA needs to continue to modernize its Information 
technology infrastructure for records management and service delivery. 
Additionally, SSA needs to constantly strive to protect its systems 
from cyber-attacks and protect beneficiary information. SSA also needs 
to remain vigilant in reducing improper payments, including issues 
where SSA made a mistake in calculating the proper benefit amount or 
sent payment to the wrong person; a failure to obtain accurate 
information necessary to continue benefits or provide the proper 
benefit amount; prevent individuals from fraudulently claiming 
benefits, and strive to minimize and prevent identify theft. I will 
also note that I think the SSAB should continue to provide 
opportunities for Board members to visit field offices, meet and talk 
with employees, and talk with members of the public. This of course 
requires budgetary resources, but meetings with the employees and the 
public should be one of the Board's priorities.

                                 ______
                                 
                 Questions Submitted by Hon. Ron Wyden
                              value added
    Question. I know you are familiar with the reports and work that 
the Advisory Board has produced. There are lots of organizations that 
produce reports on Social Security policy: CRS, GAO, CBO, to just name 
a few. I think the unique value of the Advisory Board is that the 
Advisory Board members often meet with people all across the country: 
Social Security employees, beneficiaries, young workers, and community-
based organizations.

    I hope you will work to promote this unique aspect of the Advisory 
Board.

    Can you comment on what outreach you will undertake if confirmed?

    Answer. Senator Wyden, thank you for this question. As you note, it 
is very important that members of advisory boards meet with the public 
and receive input from those that are directly affected by agency 
decisions and board recommendations. I mentioned in a response to a 
question from Senator Thune that I felt one of the areas that the SSAB 
should prioritize is meeting with the public. In my response I wrote 
that ``. . . I think the SSAB should continue to provide opportunities 
for Board members to visit field offices, meet and talk with employees, 
and talk with members of the public. This of course requires budgetary 
resources, but meetings with the employees and the public should be one 
of the Board's priorities.'' This would include meeting with employers, 
employees, beneficiaries, younger workers, older workers, community-
based organizations, and members of Congress and their staff.
                      consensus style of the board
    Question. As you are probably aware, most of the material the SSAB 
produces are the consensus opinion of the Board. It is a rare SSAB 
product that includes ``minority views'' or ``dissenting opinions,'' 
although it does seems to be happening more recently these days. 
Striving for consensus is a very important--and refreshing--feature of 
the Advisory Board.

    Do you agree about the importance of continuing the consensus 
operating style of the Advisory Board?

    Answer. Yes, I do. The SSAB is an advisory board, not a governing 
board. Both the Board's ability for its recommendations to carry weight 
and the legitimacy of its recommendations rest in the Board's ability 
to reach consensus in a bipartisan manner.
                            balancing roles
    Question. You've testified many times before Congress and are a 
strong advocate--by writing articles and giving speeches--for your 
policy views. There's nothing wrong with that. The committee wants 
smart people who know the material working for the SSAB. At the same 
time, we want you to be able to work collegially with your colleagues.

    Do you see any problem with nominees to a Federal advisory board 
like the SSAB writing articles on controversial subjects, especially on 
issues that may come before the Board?

    Answer. I actually currently have a good collegial working and 
personal relationship with members of the SSAB. Further, I always 
strive to be impartial and exercise good judgement in my research, 
writing, public speaking, and teaching. I do think that it's okay to 
write articles on issues that may come before the Board, but I think 
it's important that my role on the Board, if confirmed, not be one that 
uses the position as a vehicle to advance any personal opinions that I 
may have. If confirmed, I would help make sure that the best possible 
information on all the issues possible to improve the programs and the 
administration of the Social Security Administration are presented to 
the Congress, the White House, and the public in an objective manner.

                                 ______
                                 
               Questions Submitted by Hon. Maria Cantwell
          social security administration accessibility issues
    Question. Over the past 20 years, nearly one in 10 Social Security 
field offices has closed, and average wait times have increased 
(source: Washington Post). In Washington State, two of our Social 
Security benefits offices--in the Belltown and International District 
neighborhoods--were merged into the Jackson Federal building in 
downtown Seattle. This has created access issues for many beneficiaries 
who have to navigate public transportation and other barriers in order 
to reach the new office. In-person help is crucial for seniors to 
understand their benefits. These office consolidations are not only 
reducing access, but they are also contributing to longer wait times 
while a record number of people are reaching retirement age every day.

    Will you commit to providing recommendations to the Social Security 
Administration (SSA) to review the office closures and their effects on 
wait times and access?

    Answer. If confirmed, I will work with my colleagues on the SSAB to 
provide recommendations to SSA on how best to determine whether field 
offices should be closed or consolidated, or whether and where new 
field offices should be open, balancing SSA's resource constraints with 
service delivery needs, including effects on wait times and access.

    Question. Will you prioritize keeping field offices open to ensure 
seniors have access to in-person assistance with their Social Security 
benefits?

    Answer. The SSAB does not have the authority to direct the 
allocation of SSA's resources. As an advisory board, it only makes 
recommendations. If confirmed, I will work with my colleagues and SSA 
on recommendations to ensure that in-person service delivery needs 
remain a viable option for beneficiaries and the public.
              administrative law judges at social security
    Question. As you know, administrative law judges (ALJs) perform 
adjudication of Social Security benefit cases, such as appeals. It is 
essential that they remain independent and not politically influenced 
in making decisions about earned benefits. However, in July 2018, 
President Trump issued an executive order to reclassify ALJs so they 
can be selected based on their political views. That is why I 
introduced a bipartisan bill--S. 2348, the ALJ Competitive Service 
Restoration Act--to restore administrative law judges to the 
competitive service. One of the functions of the Social Security 
Advisory Board is to make recommendations with respect to the quality 
of service that SSA provides the public.

    If confirmed, will you commit to respecting the independence of 
ALJs at the Social Security Administration? What steps would you take 
to ensure non-partisanship is restored to the system?

    Will you respect the independence of any audits by the Inspector 
General into the agency's administrative law judges?

    Answer. I fully agree with ensuring due process and that people 
denied benefits should have a right to have their case heard before an 
independent administrative law judge (ALJ). I also believe that justice 
applied inconsistently across the country denies justice fairly applied 
to all. An ALJ should not face political pressure for partisan purposes 
or gain. But that doesn't mean quality standards shouldn't be used or 
that ALJs are above oversight or review by the OIG. Further, I've 
always respected the independence of the OIG and will continue to do 
so.

                                 ______
                                 
               Questions Submitted by Hon. Sherrod Brown
    Question. On November 18, 2019, the Social Security Administration 
issued a Notice of Proposed Rulemaking, ``Rules Regarding the Frequency 
and Notice of Continuing Disability Reviews.''


    Are you at all concerned that this proposal will negatively affect 
disabled Social Security and Supplemental Security Income 
beneficiaries?

    Are you concerned that this proposal will add to--instead of 
reduce--the Social Security Administration's disability backlog?

    Answer. Any concern I may have would depend on how the rule is 
implemented and evaluated. Continuing Disability Reviews, or CDRs, are 
an important part of SSA's program integrity measures. CDRs help to 
ensure that beneficiaries who have medically improved and no longer 
meet program eligibility rules no longer continue to receive benefits. 
Any change to the rules regarding the administration of the SSDI and 
SSI programs should be done in a manner so that proper evaluation can 
be performed to ensure any rule changes are having their intended 
effects and are not placing an undue burden on beneficiaries. Any 
change to the rules that would increase CDRs could result in additional 
appeals that would have to first be addressed at the State-level 
disability determination offices, which if not properly funded, could 
result in less resources dedicated to reducing the SSDI backlog. I 
fully support the budgetary funding necessary for SSA to provide both 
adequate staffing levels to conduct and complete CDRs on a timely basis 
and continue to reduce the SSDI backlog, and to ensure that there is 
adequate staffing to handle any additional appeals as a result of 
cessation of benefits due to CDRs.

    Question. Office of Management and Budget Director Mick Mulvaney 
has stated SSDI is ``a very wasteful program.'' Do you agree with that?

    Answer. I do not know the context in which Director Mulvaney made 
such a statement. From my own viewpoint, if the term ``wasteful'' is 
meant profligate or extravagant, then no, I do not think the SSDI 
program is wasteful. If ``wasteful'' is meant money that is spent that 
shouldn't be, then there is some amount of improper payments in the 
SSDI program, which is why I support SSA's efforts to improve program 
integrity in the SSDI program.

    Question. Do you believe too many people receive SSDI benefits?

    Answer. I neither believe that too many, nor too little, people 
receive SSDI benefits. Those who meet the program's eligibility 
requirements should receive benefits.

    Question. Do you believe there are people currently receiving SSDI 
benefits who should not be? If so, do you believe it is be possible to 
develop a means to identify beneficiaries, based off of demographic 
data or other trends, who are likely to be people receiving benefits 
who should not be?

    Answer. First, while not rampant, there is fraud in the SSDI 
program and, hence, by definition, there are some people receiving 
benefits who should not be. I'm encouraged by the joint work of SSA and 
the OIG Cooperative Disability Investigation (CDI) units in helping to 
reduce fraud in the program. Second, the use of data analytics and 
probability modeling can help identify people who are likely to receive 
SSDI benefits and fast-track a determination. SSA does this, for 
example, with the Quick Disability Determinations process. Data can 
also be used to model and suggest which people might no longer be 
eligible for benefits. But such models should only help inform and 
prioritize workload and resource allocation resources for the agency, 
including CDRs, or for targeting those that may be better suited for 
work demonstration projects. Such models should never be the sole 
determination though of who should and should not receive benefits.

    Question. Do you believe the Social Security Administration should 
monitor the social media posts of SSDI applicants and beneficiaries, 
for any reason?

    Answer. I do think there are some valid reasons for SSA to review 
social media posts for purposes of ensuring that fraud isn't being 
committed. That said, social media posts can be misleading or someone 
reviewing social media posts may not understand the full and proper 
context. Hence, social media posts should never be the sole 
determination through which a person is denied benefits or removed from 
a program, and it's probably best to leave any review of social media 
under the domain of the OIG.

    Question. The SSI program's asset limits have not been updated 
since 1989. In what ways, if any, do you believe it would be 
appropriate to reform SSI's asset limits?

    Answer. The SSI's program asset limits are confusing to 
beneficiaries and have not been updated to reflect inflation. I support 
a review of the current asset limits to bring them up to 2020 dollar 
values and further research on how to better communicate program rules 
to the public.

    Question. In your position on the Advisory Board, do you plan to 
advocate for raising the Social Security retirement age or means 
testing Social Security benefits? If you'd support means testing Social 
Security benefits, please describe the circumstances under which you 
believe this is appropriate and how you would apply it.

    Answer. Should I be confirmed as a member of the Social Security 
Advisory Board, I would not view my position as one that should or 
would advocate for any particular reform position, but rather help make 
sure that the best possible information on all the reforms possible to 
improve the programs and ensure the solvency of the trust funds are 
presented to the Congress, the White House, and the public in an 
objective manner.

    Question. Do you agree that it is crucial for the due process of 
the American people that they have Social Security hearings in front of 
administrative law judges who are independent and completely free from 
political pressure? Are you concerned with the ongoing effort to 
obstruct that independence from this administration?

    Answer. I fully agree with ensuring due process and that people 
denied benefits should have a right to have their case heard before an 
independent administrative law judge (ALJ). I also believe that justice 
applied inconsistently across the country denies justice fairly applied 
to all. An ALJ should not face political pressure for partisan purposes 
or gain. But that doesn't mean quality standards shouldn't be used or 
that ALJs are above oversight or review by the OIG.

                                 ______
                                 
            Questions Submitted by Hon. Robert P. Casey, Jr.
    Question. You have written extensively about how you believe Social 
Security should be reformed and in what ways you believe Social 
Security retirement and disability benefits should be modified. For 
example, you have stated that the full retirement age for Social 
Security retirement benefits should be increased, and in a February 
2019 paper with Jason Seligman titled ``Developing Social Security 
Disability (SSDI) Reform Demonstrations to Improve Opportunities and 
Outcomes Based on Lessons Learned,'' you proposed making all disability 
benefit awards temporary. Do you continue to stand by all of the 
proposals to reform Social Security retirement and disability benefits 
that you have put forward in the past? Will you continue to advocate 
for those changes to Social Security retirement and disability benefits 
if you are confirmed?

    Answer. I stand by my research. That said, should I be confirmed as 
a member of the Social Security Advisory Board, I would not view my 
position as one that should or would advocate for any particular reform 
position, but rather help make sure that the best possible information 
on all the reforms possible to improve the programs and ensure the 
solvency of the trust funds are presented to the Congress, the White 
House, and the public in an objective manner.

    Question. During the hearing, you stated that one of your top 
research priorities would be ``fraud, waste, and abuse.'' Can you state 
specifically what you consider to fall into these categories and 
exactly what you intend to focus on should you be confirmed?

    Answer. Issues of ``fraud, waste, and abuse'' are often 
collectively referred to under ``improper payments.'' Examples include 
issues where SSA made a mistake in calculating the proper benefit 
amount or sent payment to the wrong person, a failure to obtain 
accurate information necessary to continue benefits or provide the 
proper benefit amount, individuals fraudulently claiming benefits, and 
identify theft. Reducing improper payments is a priority for SSA and 
will be a priority of mine, should I be confirmed. Improper payments 
can be reduced through more data sharing agreements, staffing 
Cooperative Disability Investigations (CDIs), improving SSA's IT 
infrastructure, ensuring adequate staffing to process beneficiary 
requests.

    Question. During the hearing, you stated that among your top 
research priorities are demonstration projects for individuals on SSDI. 
Can you state specifically what types of demonstration projects you are 
referring to and how you believe these demonstration projects should be 
implemented?

    Answer. Sections 821-23 of the Bipartisan Budget Act of 2015 
granted expanded authority for the Social Security Administration to 
engage in demonstration projects aimed at improving the opportunity for 
disability beneficiaries to remain attached to the labor force or 
return to work. Piloting reforms via demonstration projects is an 
important part of that process. However, while there is strong interest 
in pilots, there is also strong skepticism in them given prior 
experiences with SSDI demonstration projects. U.S. government agencies 
and the research community generally agree the demonstration process 
has suffered from weak design and execution. Thus, strong interest in 
pilots now includes some basic questions: which agency or entity should 
design them, who should administer them, how to ensure adequate data 
collection, whether participation should be voluntary, and when pilots 
should be expanded or discontinued. Fortunately, past demonstration 
projects and the program design literature offer important lessons. If 
confirmed, I will work with my colleagues on the SSAB and stakeholders 
to help provide recommendations to SSA in the proper design and 
evaluation of demonstration projects that are meant to strive toward 
three objectives: (1) understanding whether and to what extent each 
feature might increase reengagement in the workforce, (2) reducing exit 
from the workforce, and (3) better understanding the interacting 
benefits of other social support programs.

    Question. Any changes to the way in which Social Security programs 
are administered or benefits are delivered to beneficiaries can have 
serious and significant effects on the lives of millions of Americans. 
To understand these potential effects, it is important to not only 
consult academic experts and Social Security career professionals, but 
stakeholder and advocacy organizations that work with Social Security 
claimants daily as well. If you are confirmed, will you commit to 
meeting with constituent and advocacy groups of Social Security 
claimants when evaluating current Social Security practices and policy?

    Answer. Yes.

                                 ______
                                 
           Question Submitted by Hon. Catherine Cortez Masto
    Question. As you know well, seniors on Social Security who have 
elected to enroll in Medicare Part B have their premiums for that 
program deducted from their Social Security checks. It's an incredibly 
convenient mechanism that boosts enrollment in Part B, helping to 
ensure seniors' access to physician services. But we've begun to hear 
from some organizations that it would be helpful to have the option to 
pull Social Security out of the mix and pay those premiums directly to 
CMS on behalf of their members. Is that a request you've come across 
before? As a Social Security advisor, what would your take be on 
efforts to boost enrollment in Part B by allowing for premium 
sponsorship?

    Answer. I am not familiar with that request. But I pledge to you 
that I will look into this issue further, should I be confirmed as a 
member of the Social Security Advisory Board. Obviously, ensuring that 
Medicare Part B premiums continue to be paid in a convenient and secure 
manner is very important.

                                 ______
                                 
              Prepared Statement of Hon. Chuck Grassley, 
                        a U.S. Senator From Iowa
    Today the Finance Committee will hear from three nominees. We will 
hear from a nominee to be an Assistant Secretary at the Department of 
the Treasury, a nominee to be an Assistant Secretary at the Department 
of Health and Human Services, and a nominee to the Social Security 
Advisory Board.

    First we will hear from Kipp Kranbuhl, nominated to be Assistant 
Secretary of the Treasury for Financial Markets. This position is 
responsible for Federal debt management and essentially works to 
finance the Federal Government. Though this position certainly does not 
set Federal fiscal policy, which is done by Congress, it carries out 
the day-to-day operations to keep the government funded so it may carry 
out all of the programs our constituents depend on.

    Next we will hear from Sarah Arbes, who is nominated to be 
Assistant Secretary for Legislation at the Department of Health and 
Human Services. Ms. Arbes has been Acting Assistant Secretary for 
Legislation for the past 8 months, so I'm pleased we are working to 
confirm her for this important position. Senators on this committee and 
their offices are likely familiar with Ms. Arbes, as she was the Deputy 
ASL prior to her serving in the acting capacity. I have greatly 
appreciated her assistance on efforts to lower prescription drug costs 
and on other issues. I know we are working through problems with HHS 
regarding its responses to written inquires and requests from myself 
and other Senators on this committee. I appreciate those efforts, and I 
am pleased that the committee finally seems to be receiving some 
digital productions on very longstanding requests. However, I have been 
frustrated by the pace of these negotiations and that certain 
productions so far have been provided multiple times in an unusable 
format. I look forward to resolving this issue quickly and hope our 
staffs can continue a productive dialogue. I have long held that the 
Department must be responsive to congressional inquiries, and I ask 
that Ms. Arbes focus on ensuring prompt, meaningful, and efficient 
responses. I also note that, while the ASL serves as top advisor to the 
Secretary on legislative matters, the position is not directly 
responsible for regulations issued by the Department or its agencies. I 
ask Senators to keep that in mind as we conduct this hearing.

    Finally, we will hear from Jason Fichtner, nominated to the Social 
Security Advisory Board. Created as a ``bipartisan, independent Federal 
Government agency established in 1994 to advise the President, the 
Congress, and the Commissioner of Social Security on matters of policy 
and administration,'' the Social Security Advisory Board is comprised 
of seven members. Dr. Fichtner is one of the three who are appointed by 
the President.

    Thank you all for your willingness to serve and for your testimony 
here today.

                                 ______
                                 
    Prepared Statement of Kipp Kranbuhl, Nominated to be Assistant 
      Secretary for Financial Markets, Department of the Treasury
    Chairman Grassley, Ranking Member Wyden, and members of the 
committee, thank you for the opportunity to appear before you today. I 
am honored to be the President's nominee to be Assistant Secretary of 
the Treasury for Financial Markets, and I am grateful for Secretary 
Mnuchin's confidence in me.

    Before proceeding, I would like to take a moment to acknowledge the 
love and support of my family, colleagues, and friends, including those 
here with me: my wife of 16 years, Page, whose years of public service 
working on Capitol Hill for Senator Alexander and others has inspired 
me; our two curious and determined children, Curry and Turner; my 
mother, Dr. Ann Weichert Kranbuhl; and my father, Dr. Michael Kranbuhl, 
who was unable to join us today. Their tireless work as physicians in 
southwest Ohio instilled in me the value of helping others.

    For the past 22 years, I have worked in the financial markets and 
securities industry. Through this work, I developed practical 
experience with many of the policy issues covered by Treasury's Office 
of Financial Markets. This has enabled me to appreciate the impact that 
many of our Nation's policies and regulations have on all Americans.

    Since the spring of 2017, I have been privileged to serve in a 
variety of capacities within the Office of Domestic Finance at the 
Treasury Department, and I have appreciated the opportunity to engage 
with many of you and your staff throughout this time.

    I began my work at the Treasury Department as the Deputy Assistant 
Secretary for Small Business, Community Development, and Affordable 
Housing Policy. After roughly a year, I was asked to take on the role 
of Acting Assistant Secretary for Financial Institutions. I held this 
position for nearly a year prior to taking on my current role as the 
Principal Deputy Assistant Secretary for Financial Markets, where I 
have worked with Treasury's teams from the Offices of Federal Finance, 
Capital Markets, and Public Finance.

    In my time at Treasury, I have led or participated in hundreds of 
stakeholder meetings in order to gather input from a broad range of 
sources so as to inform our perspectives. Through these efforts, I have 
worked with others at Treasury to formulate policy recommendations that 
have led to significant progress toward improving the competitiveness 
of the American financial system, while ensuring that taxpayer 
protection and safety and soundness are at the forefront of everything 
that we do. We have worked closely with our executive branch colleagues 
in other departments and regulatory agencies, as well as Congress, in 
order to reduce the risks to the financial markets and the American 
people, while fostering the functioning of vibrant financial markets.

    We are also responsible for the financing of the Federal Government 
and the management and issuance of Federal debt--the Treasury 
Department's original purpose, and one of its most important. Here, we 
have worked diligently and successfully to maintain our commitment to 
achieving the lowest cost of financing for the American taxpayer by 
expanding both our product portfolio and our investor base.

    Additionally, while keeping the interests of our Nation at the top 
of mind, we have worked closely with our international partners in 
order to prepare for the continuing evolution of the global financial 
markets amidst ever-changing times.

    As I approach the Treasury building each morning on my way to work, 
I walk past scores of visitors who have come to Washington from all 
parts of our country, and who are lined up to catch a glimpse of our 
Federal buildings and of how our government functions. As I do, I am 
reminded of the responsibility and commitment that I have made to each 
of them as Americans. They inspire, focus, and motivate me.

    If confirmed for this position, I look forward to continuing to 
work closely with Congress, Secretary Mnuchin, the outstanding Treasury 
staff, and others in the administration, and to continuing to serve the 
American people.

    Thank you again for the honor of this hearing, and I look forward 
to answering your questions.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

 1.  Name (include any former names used): Michael Kipp Kranbuhl. I 
primarily use the name Kipp Kranbuhl.

 2.  Position to which nominated: Assistant Secretary for Financial 
Markets, United States Department of the Treasury.

 3.  Date of nomination: October 15, 2019.

 4.  Address (list current residence, office, and mailing addresses):

 5.  Date and place of birth: Cincinnati, Ohio, September 17, 1976.

 6.  Marital status (include maiden name of wife or husband's name):

 7.  Names and ages of children:

 8.  Education (list all secondary and higher education institutions, 
dates attended, degree received, and date degree granted):

        Cincinnati Country Day School.
        Dates attended: August 1990 to June 1994.
        Degree received: High school diploma.
        Date degree granted: June 1994.

        Vanderbilt University.
        Dates attended: August 1994 to May 1995.
        Degree received: N/A.
        Date degree granted: N/A.

        Duke University.
        Dates attended: August 1995 to May 1998.
        Degree received: Bachelor of arts (May 1998); Major: political 
        science; Minor: economics.

        University of Michigan Business School.
        Dates attended: August 2002 to April 2004.
        Degree received: Masters of business administration (April 
        2004).

 9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment for each job):

        Wheat First Union Securities/First Union Securities, Inc.
        Title and description of job: Financial analyst (investment 
        banking and corporate finance).
        Location: Richmond, Virginia.
        Dates of employment: July 1998 to June 2000

        Petra Capital Partners.
        Title and description of job: Associate (direct lending and 
        private equity investing).
        Location: Nashville, Tennessee.
        Dates of employment: July 2000 to June 2002.

        Overseas Private Investment Corporation.
        Title and description of job: Summer associate (direct 
        lending).
        Location: Washington, DC.
        Dates of employment: May 2003 to August 2003.

        Gladstone Management Corporation.
        Title and description of job: Associate/principal/director 
        (direct lending and private equity investing).
        Location: McLean, Virginia.
        Dates of employment: March 2005 to February 2016.

        Self-Employed.
        Description of job: Private equity consulting.
        Location: Washington, DC.
        Dates of employment: February 2016 to June 2017.

        U.S. Department of the Treasury.
        Title: Principal Deputy Assistant Secretary, Financial Markets.
        Location: Washington, DC.
        Dates of employment: August 2019 to present.

        Title: Acting Assistant Secretary, Office of Financial 
        Institutions.
        Location: Washington, DC.
        Dates of employment: July 2018 to June 2019.

        Title: Deputy Assistant Secretary, Small Business, Community 
        Development, and Affordable Housing Policy.
        Location: Washington, DC.
        Dates of employment: June 2017 to August 2019.

10.  Government experience (list any current and former advisory, 
consultative, honorary, or other part-time service or positions with 
Federal, State, or local governments held since college, including 
dates, other than those listed above):

        None other than those listed in question 9.

11.  Business relationships (list all current and former positions held 
as an officer, director, trustee, partner (e.g., limited partner, non-
voting, etc.), proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, other business enterprise, or 
educational or other institution):

        Board positions for Gladstone Investment Corporation and 
        Gladstone Capital Corporation Portfolio companies:

          Chase Doors Corporation, board member of the Gladstone 
Investment Corporation portfolio company and its affiliates, April 2009 
to December 2010.

          Cavert Wire Company, board member of the Gladstone 
Investment Corporation portfolio company and its affiliates, May 2009 
to September 2015.

          Sunshine Media True North Custom Publishing, board member of 
the Gladstone Capital Corporation portfolio company and its affiliates, 
January 2011 to April 2013.

          Behrens Manufacturing, board member of the Gladstone 
Investment Corporation and Gladstone Capital Corporation portfolio 
company and its affiliates, December 2013 to February 2016.

        Consulting Relationships:

          Gladstone Management Corporation, employed full time--March 
2005 to February 2016. Consulting on strategic options for various 
Gladstone portfolio companies and paid directly by Gladstone Management 
Corporation--February 2016 to September 2016.

          Behrens Manufacturing, LLC, consulting on corporate strategy 
and paid directly by Behrens Manufacturing--October 2016 to December 
2016. Board member (per the above) of the Gladstone Investment 
Corporation and Gladstone Capital Corporation portfolio company and its 
affiliates, December 2013 to February 2016.

          Galaxy Technologies, consulting on corporate strategy--July 
2016 to November 2016 and paid directly by Galaxy Technologies.

          Kathryn A. Weichert, M.D., Inc., consulting and assisting on 
record-keeping activity--2004-2011.

        Charitable or Educational Organizations:

          Weichert-Kranbuhl Family Foundation, treasurer of the 
Charitable Foundation, 1998 to June 2017.

          National Child Research Center (Washington, DC), board 
member of the school, 2012 to 2015.

          Nashville's Table (Nashville, TN), board member of the 
charitable organization focused on food rescue and distribution, 2001-
2003.

          The Tomorrow Fund (Nashville, TN), board member of 
charitable foundation within the Community Foundation of Middle 
Tennessee, 2001-2002.

        Professional Organizations:

          Nashville Healthcare Council's Leadership Healthcare 
(Nashville, TN), board member of the professional organization, 2010 to 
2013.

12.  Memberships (list all current and former memberships, as well as 
any current and former offices held in professional, fraternal, 
scholarly, civic, business, charitable, and other organizations dating 
back to college, including dates for these memberships and offices):

        Social Organizations: Chevy Chase Club (Chevy Chase, MD)--
        member 2010 to present; Metropolitan Club (Washington, DC)--
        member 2018 to present; Kappa Sigma Fraternity, Duke 
        University--member 1996 to 1998.

13.  Political affiliations and activities:

        a.  List all public offices for which you have been a candidate 
        dating back to the age of 18.

       None.

        b.  List all memberships and offices held in and services 
        rendered to all political parties or election committees, 
        currently and during the last 10 years prior to the date of 
        your nomination.

       None.

        c.  Itemize all political contributions to any individual, 
        campaign organization, political party, political action 
        committee, or similar entity of $50 or more for the past 10 
        years prior to the date of your nomination.

       Portman for Senate Committee (Senator Rob Portman).
       Date: June 2, 2015.
       Amount: $250.

       Carter for Governor (Jason Carter for Governor of Georgia).
       Date: June 30, 2014.
       Amount: $150.

       Alexander for Senate (Senator Lamar Alexander).
       Date: May 13, 2013.
       Amount: $500.

14.  Honors and awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement received 
since the age of 18):

        University of Michigan merit scholarship recipient.
        Date: August 2002-April 2004.

        Cum laude, Duke University.
        Date: May 1998.

15.  Published writings (list the titles, publishers, dates, and 
hyperlinks (as applicable) of all books, articles, reports, blog posts, 
or other published materials you have written):

        None.

16.  Speeches (list all formal speeches and presentations (e.g., 
PowerPoint) you have delivered during the past 5 years which are on 
topics relevant to the position for which you have been nominated, 
including dates):

        Deputy Assistant Secretary, Small Business, Community 
        Development and Affordable Housing Policy:

          Urban Institute/JP Morgan Chase Convening, Washington, DC--
September 25, 2017.
          National Development Council Panel, Washington, DC--October 
23, 2017.
          American Bar Association, Community Reinvestment Act 
Discussion, Washington, DC--January 19, 2018.
          Consumer Bankers Association, Orlando, Florida--March 13, 
2018.
          House of Representatives--Committee on Oversight and 
Government Reform: Subcommittee on Intergovernmental Affairs, and 
Subcommittee on Government Operations--May 22, 2018.

        Acting Assistant Secretary, Financial Institutions:

          P-20 Conference (Electronic Payments Industry), Atlanta, 
Georgia--October 10, 2018.
          Council of Independent Insurance Agents and Brokers, Annual 
Insurance Legislative Summit, Washington, DC--Fedruary 13, 2019.

17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

        I have worked in the securities industry focusing on investing 
        debt and equity capital since 1998 and have first-hand 
        experience with policy issues covered by the Office of 
        Financial Markets within the Office of Domestic Finance. I 
        believe that I bring an experiential lens to analyzing many of 
        these issues, as I am able to quickly assess the practical 
        impact of many of our Nation's policies and regulations.

        Additionally, I have been working at the Department of Treasury 
        since June 2017, where I have been a leader within the Office 
        of Domestic Finance, serving as a Deputy Assistant Secretary 
        throughout that period. I have also held a number of related 
        roles, including serving as Acting Assistant Secretary for 
        Financial Institutions for nearly a year from July 2018 until 
        late June 2019, and Principal Deputy Assistant Secretary for 
        Financial Markets since August 2019.

        I would be honored to serve the Department of the Treasury and 
        the American people in this new capacity and would do so with 
        focus, dedication, and commitment to the tasks at hand and to 
        the challenges that will inevitably be presented.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

 1.  Will you sever all connections (including participation in future 
benefit arrangements) with your present employers, business firms, 
associations, or organizations if you are confirmed by the Senate? If 
not, provide details.

        I do not have any current connection with any employer other 
        than the U.S. Department of Treasury.

 2.  Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, provide details.

        No.

 3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

        No.

 4.  If you are confirmed by the Senate, do you expect to serve out 
your full term or until the next presidential election, whichever is 
applicable? If not, explain.

        Yes.

                  C.  POTENTIAL CONFLICTS OF INTEREST

 1.  Indicate any current and former investments, obligations, 
liabilities, or other personal relationships, including spousal or 
family employment, which could involve potential conflicts of interest 
in the position to which you have been nominated.

        Any potential conflicts of interest have been identified and 
        resolved in accordance with the terms and conditions of my 
        ethics agreement with the Department of the Treasury, which is 
        documented by the letter to Brian Sonfield, Designated Agency 
        Ethics Official and Assistant General Counsel for General Law 
        and Ethics. Should any potential conflict of interest arise in 
        the future, I will seek guidance from a Treasury ethics 
        official.

 2.  Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years (prior to the 
date of your nomination), whether for yourself, on behalf of a client, 
or acting as an agent, that could in any way constitute or result in a 
possible conflict of interest in the position to which you have been 
nominated.

        Any potential conflicts of interest have been identified and 
        resolved in accordance with the terms and conditions of my 
        ethics agreement with the Department of the Treasury, which is 
        documented by the letter to Brian Sonfield, Designated Agency 
        Ethics Official and Assistant General Counsel for General Law 
        and Ethics. Should any potential conflict of interest arise in 
        the future, I will seek guidance from a Treasury ethics 
        official.

 3.  Describe any activity during the past 10 years (prior to the date 
of your nomination) in which you have engaged for the purpose of 
directly or indirectly influencing the passage, defeat, or modification 
of any legislation or affecting the administration and execution of law 
or public policy. Activities performed as an employee of the Federal 
government need not be listed.

        In my roles at Gladstone and with the Nashville Healthcare 
        Council, I participated in occasional industry ``fly-in'' 
        events on Capitol Hill.

 4.  Explain how you will resolve any potential conflict of interest, 
including any that are disclosed by your responses to the above items. 
(Provide the committee with two copies of any trust or other 
agreements.)

        Any potential conflicts of interest have been identified and 
        resolved in accordance with the terms and conditions of my 
        ethics agreement with the Department of the Treasury, which is 
        documented by the letter to Brian Sonfield, Designated Agency 
        Ethics Official and Assistant General Counsel for General Law 
        and Ethics. Should any potential conflict of interest arise in 
        the future, I will seek guidance from a Treasury ethics 
        official.

                       D. LEGAL AND OTHER MATTERS

 1.  Have you ever been the subject of a complaint or been 
investigated, disciplined, or otherwise cited for a breach of ethics 
for unprofessional conduct before any court, administrative agency 
(e.g., an Inspector General's office), professional association, 
disciplinary committee, or other ethics enforcement entity at any time? 
Have you ever been interviewed regarding your own conduct as part of 
any such inquiry or investigation? If so, provide details, regardless 
of the outcome.

        No.

 2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than a minor traffic offense? Have you ever been interviewed 
regarding your own conduct as part of any such inquiry or 
investigation? If so, provide details.

        No.

 3.  Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

        No.

 4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

        No.

 5.  Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

        None.

                     E. TESTIFYING BEFORE CONGRESS

 1.  If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

        Yes.

 2.  If you are confirmed by the Senate, are you willing to provide 
such information as is requested by such committees?

        Yes.

                                 ______
                                 
          Questions Submitted for the Record to Kipp Kranbuhl
               Questions Submitted by Hon. Chuck Grassley
    Question. Recent reports identify that Treasury will issue a 20-
year debt security, and is considering other long-term debt 
instruments. As I understand it, over the past several years, Treasury 
and the Treasury Borrowing Advisory Committee--or TBAC--and other 
market participants have analyzed and proposed issuing the 20-year 
Treasury bond.

    My understanding is also that over many administrations, Treasury's 
financing objective has been ``to achieve the lowest borrowing cost, 
over time, for the Federal Government's financing needs.'' And that is 
done by Treasury's commitment to regular and predictable issuance of 
securities across a wide range of types of securities.

    As former Treasury Secretary Lew said: ``We seek to finance the 
government at the least possible cost to taxpayers over time, and we 
will continue to evaluate other potential new products to meet that 
goal.'' So, it sounds like Treasury is fairly regularly looking at 
various ways in which we issue debt.

    Could you give an overview of the depth of analysis that Treasury 
seems to regularly engage in, including work with the TBAC, to ensure 
that we achieve the lowest borrowing cost over time?

    Answer. As part of our mission to finance the government at the 
least cost to the taxpayer over time, Treasury is always evaluating its 
existing financing approach and considering how best to prepare for 
future financing needs. Treasury regularly engages with a broad range 
of market participants, including the primary dealers, the Treasury 
Borrowing Advisory Committee, and investors. Input from market 
participants helps Treasury to understand key developments in the 
Treasury market and identify consistent sources of demand for Treasury 
securities. As an example, Treasury recently announced plans to 
introduce a 20-year bond, which we expect to increase Treasury's 
financing capacity based on strong demand from many segments of the 
market, including from pensions and other long-term investors.

    Question. Members of this committee had difficult times getting 
information from Treasury Secretaries Geithner and Lew when the U.S. 
approached a debt limit. That is very unfortunate, because information 
about our government's finances, including how much cash is in the 
Federal till, should not be something that is withheld from members of 
this committee or from the American people.

    In response to reasonable requests for information from Congress, 
do you commit to a policy of responsiveness?

    Answer. Yes.

                                 ______
                                 
                 Question Submitted by Hon. John Thune
    Question. As you mentioned in your opening statement, the issuance 
of Federal debt is one of the key functions of the Treasury Department 
that you would oversee as Assistant Secretary. In an effort to 
accommodate our Nation's future borrowing needs in the most fiscally 
responsible way for taxpayers, what specific actions has Treasury taken 
as of late to finance our debt that you feel have been most effective 
toward meeting this end?

    Answer. Treasury's mission in debt management is to finance the 
government at the least cost to the taxpayer over time. Treasury is 
always evaluating its existing financing approach and considering how 
best to prepare for future financing needs.

    To this end, Treasury has recently taken several important actions 
to improve our suite of securities offerings. As announced on January 
16, 2020, Treasury plans to introduce a 20-year bond in the first half 
of this year. Additionally, Treasury in recent years enhanced and 
expanded its Treasury Inflation Protected Securities offerings and 
launched a 2-month Treasury bill. These actions were informed by deep 
engagement with a broad range of market participants and help Treasury 
to maximize demand for its securities, thereby delivering the lowest-
cost financing for the taxpayer.

                                 ______
                                 
                 Questions Submitted by Hon. Todd Young
    Question. Can you explain the overall interest and strategy behind 
issuing a 20-year bond in this economic environment?

    Answer. Treasury aims to finance the government at the lowest cost 
to the taxpayer over time. Treasury is always evaluating its existing 
financing approach and considering how best to prepare for future 
financing needs. As part of this process, Treasury regularly engages 
with a broad range of market participants, including the primary 
dealers, the Treasury Borrowing Advisory Committee, and investors. 
Treasury concluded that there would be strong and consistent demand for 
a 20-year bond from many segments of the market, including from 
pensions and other long-term investors. The 20-year bond will increase 
Treasury's financing capacity over the long term, and help Treasury 
achieve is low-cost financing goal.

    Question. With LIBOR scheduled to be phased out by the end of 2021, 
how is your office working on the transition from LIBOR to SOFR?

    Answer. Treasury is taking several steps to help ensure a smooth 
transition from LIBOR to SOFR. As an ex-officio member of the 
Alternative Reference Rates Committee (ARRC), Treasury participated in 
the development of the Paced Transition Plan, and continues to engage 
with the ARRC in the support and implementation of this plan. 
Treasury's Office of Financial Research (OFR) adopted a final rule in 
February 2019 that establishes a data collection on centrally cleared 
repo transactions; those data will be used to support the Federal 
Reserve's calculation of SOFR. In October 2019, Treasury and the 
Internal Revenue Service (IRS) issued proposed regulations allowing 
taxpayers to avoid adverse tax consequences from changing the terms of 
debt, derivatives, and other financial contracts to replace reference 
rates based on LIBOR and similar rates with certain alternative 
reference rates, including SOFR. Finally, in the most recent Quarterly 
Refunding Statement, Treasury announced its intent to issue a request 
for information (RFI) in the first half of 2020 to solicit input from 
the public on the demand for a SOFR-indexed 
floating-rate note (FRN).

                                 ______
                                 
               Questions Submitted by Hon. Sherrod Brown
    Question. Fannie Mae and Freddie Mac have a statutory duty to serve 
underserved housing markets. One of the three underserved markets 
defined in the duty to serve statute is preservation of affordable 
housing. One of the most important tools for affordable housing 
development and preservation is the Low-Income Housing Tax Credit 
(LIHTC).

    Do you support and will you continue to support the GSEs' 
multifamily businesses facilitating loans for and providing equity 
investments in LIHTC properties in their regular business and as part 
of their duty to serve obligations?

    Answer. I support the GSEs' longstanding role in promoting access 
to affordable mortgage credit, including access by low- and moderate-
income, rural, and other historically underserved borrowers. As stated 
in the Treasury Housing Reform Plan, ``[a]ccess to affordable housing 
is far too difficult for many Americans, with rising housing costs 
forcing many families to dedicate larger shares of their income to 
housing.''\1\ Sustainable home ownership for American families should 
be a benchmark for success for housing finance reform.
---------------------------------------------------------------------------
    \1\ See U.S. Department of the Treasury Housing Reform Plan 
(September 2019), available at https://home.treasury.gov/system/files/
136/Treasury-Housing-Finance-Reform-Plan.pdf.

    Each GSE also has a statutory duty to serve underserved markets 
requirement to provide leadership in developing products to facilitate 
a secondary market for mortgages in three specific markets: rural 
housing, manufactured housing, and preservation of affordable housing. 
Under the statute, the Federal Housing Finance Agency (FHFA) implements 
the Duty to Serve requirement, including reviewing and approving the 
types of products and services the GSEs may offer through their 
Underserved Markets Plans. I support affordable housing activities that 
effectively target support for low- and moderate-income and 
historically underserved borrowers and believe Congress and the FHFA 
should promote efficient, transparent, and accountable mechanisms for 
---------------------------------------------------------------------------
delivering this support.

    Question. Treasury launched a review of the Community Reinvestment 
Act (CRA) back in 2017. This law is critical to ensure that banks are 
lending and making investments in underserved communities. I am 
concerned about the OCC's recent CRA proposal, which incentivizes banks 
to make the easiest possible investments, rather than investing in more 
complex--but more beneficial--community development efforts, like those 
involving Low-Income Housing Tax Credits and New Markets Tax Credits.

    Have you been or will you be involved in the Treasury Department's 
work on CRA? If not, please indicate which division within Treasury is 
responsible for this work.

    Answer. In my previous role as Treasury's Deputy Assistant 
Secretary for Small Business, Community Development, and Affordable 
Housing Policy, I oversaw the development of the memorandum Treasury 
published in April 2018 with recommendations to the Federal banking 
regulators on ideas for modernizing the CRA. The implementation of 
those recommendations, or other CRA reforms, is the responsibility of 
the Office of the Comptroller of the Currency, the Federal Deposit 
Insurance Corporation, and the Board of Governors of the Federal 
Reserve System. Treasury's recently renamed Office of Community and 
Economic Development continues to monitor the banking regulators' 
rulemaking process. However, I no longer lead that office.

    Question. Will you and the administration commit to focus CRA on 
lending and investments that truly make a difference for low- and 
moderate-income people and neighborhoods?

    Answer. As stated in Treasury's April 2018 memorandum and 
recommendations on the CRA, Treasury believes that the purpose of the 
CRA is to encourage banks to meet the credit and deposit needs of the 
communities they serve, including low- and moderate-income communities, 
and that CRA activities should align with those needs. I support 
efforts to fulfill that statutory goal. The independent Federal banking 
regulators are responsible for implementing and enforcing the CRA in a 
manner consistent with its requirements.

    Question. When asked about the Treasury Department's position on 
maintaining the existing affordable housing goals, statutory duty to 
serve, and Housing Trust Fund and Capital Magnet Fund during your 
nomination hearing, you said that ``these goals are all important, that 
they need to be revised, reformed to allow for greater accountability, 
but we recommend no cuts to any of these positions, any of these 
goals.'' I am concerned that ``reforming'' any of these provisions may 
not be consistent with ``maintaining'' these provisions.

    As you know, these three programs are measured in different ways. 
The affordable housing goals are percentages of acquisitions devoted to 
low-income families, families in low-income areas, and very low-income 
families, while the Housing Trust Fund and Capital Magnet Fund 
contributions are a set number of basis points of unpaid principal 
balance on originations and duty to serve is not quantified in statute. 
Please clarify what you mean when you say that Treasury recommends ``no 
cuts to any of these positions, any of these goals.''

    Answer. Treasury does not propose, and indeed opposes, reducing or 
eliminating the GSEs' longstanding support for affordable housing. 
Comprehensive housing finance reform legislation could preserve and 
improve support for low- and moderate-income and other historically 
underserved borrowers and renters.

    With respect to the statutory affordability mandates enumerated in 
the Treasury Housing Reform Plan, Treasury's recommended reforms are 
focused primarily on the statutory affordable housing goals for the 
GSEs' acquisitions of mortgage loans to low- and moderate-income 
borrowers and mortgage loans to borrowers in low-
income areas. In particular, Treasury recommends that ``Congress should 
replace the GSEs' statutory affordable housing goals with a more 
efficient, transparent, and accountable mechanism for delivering 
tailored support to first-time home buyers and low- and moderate-
income, rural, and other historically underserved borrowers, with a 
portion of the associated funding potentially transferred to HUD to 
expand its affordable housing activities.''

    Except to suggest that reforms could ``more effectively target 
support for affordable housing,'' the Treasury Housing Reform Plan did 
not include specific recommendations to alter the duty to serve 
specified underserved markets or the periodic contributions to the 
Housing Trust Fund and Capital Magnet Fund.

    Question. Does Treasury recommend statutory revisions to any of 
these three programs?

    Answer. See previous answer to Senator Brown's question.

    Question. Please clarify how Treasury recommends that all three of 
these statutory provisions be ``reformed.''

    Answer. See previous answer to Senator Brown's question.

    Question. During your nomination hearing, we discussed the growing 
role of private equity in the housing market, including through private 
equity acquisitions of apartment buildings and manufactured housing 
communities. You stated that you would need to learn more about the 
specific challenges that private equity ownership presents for 
residents. Unfortunately we have seen these challenges in manufactured 
housing communities in my home State of Ohio, as well as Finance 
Committee Chairman Grassley's home State of Iowa. In some cases the 
GSEs facilitate these transactions, while in others they use purely 
private financing. As documented in the articles below, in some cases 
these firms have raised rent by 58 percent to 69 percent, resulting in 
massive rent burdens for tenants, many of whom are very low-income, 
elderly, or on fixed incomes.

    I have also been informed of changes in policies by these new 
owners that, in addition to raising rent, now require residents to pay 
utilities and other fees separately, resulting in still further cost 
increases. In the case of manufactured housing, residents often own the 
home but rent the pad underneath and may be financially unable to 
relocate from the community to escape rising rents. They face the 
impossible choice between paying more than they have or losing their 
home.

    You stated that Treasury was ``aware'' of the situation described 
above. Has the Treasury Department been monitoring the purchase of 
residential real estate, including single-family homes, apartments, and 
manufactured housing communities by private equity firms? If so, please 
describe the tools Treasury is currently using to monitor this 
important trend and its impact on housing affordability. If not, please 
explain why Treasury does not believe that this is a priority.

    Answer. Treasury engages regularly with market participants and 
stakeholders across the housing finance marketplace to monitor trends 
and to inform administration policy. Insufficient affordable housing 
across the country is a critical challenge. As stated in the Treasury 
Housing Reform Plan, ``Access to affordable housing is far too 
difficult for many Americans, with rising housing costs forcing many 
families to dedicate larger shares of their income to housing.'' 
Treasury is engaged in efforts to address the critical shortage of 
affordable housing through its participation on the White House Council 
on Eliminating Regulatory Barriers to Affordable Housing, established 
under Executive Order 13878. Federal, State, and local efforts to 
address these barriers and encourage the development, rehabilitation, 
and preservation of affordable housing can help remediate the supply 
constraints that artificially raise the cost housing development, and, 
as a result, raise housing costs for hardworking families.

    Question. After reviewing the articles below [at end of document], 
do you agree that residents face new affordable housing challenges when 
their manufactured housing communities are purchased by private equity 
companies?

    Answer. I agree that, based on these articles, many residents of 
the referenced communities appear to have experienced new affordable 
housing challenges.

    Question. Based on the articles below [at end of document], do you 
believe that the growth in private equity ownership of residential 
housing could exacerbate housing affordability challenges in 
manufacturing housing communities and throughout the country?

    Answer. Based on the referenced articles, I believe that the 
residents in the referenced communities appear to have experienced new 
affordable housing challenges. However, without further review of the 
specific cases, it would be inappropriate to draw general conclusions 
about the impact of certain types of market participants on housing 
affordability. A dynamic housing market should accommodate diverse 
forms of capital, competing to promote consumer choice.

    I support efforts underway at Treasury and across the 
administration to address regulatory barriers that limit affordable 
housing supply and artificially raise the cost of housing development. 
As stated in the Treasury Housing Reform Plan, ``Access to affordable 
housing is far too difficult for many Americans, with rising housing 
costs forcing many families to dedicate larger shares of their income 
to housing.'' Treasury is engaged in efforts to address the critical 
shortage of affordable housing through its participation on the White 
House Council on Eliminating Regulatory Barriers to Affordable Housing, 
established under Executive Order 13878. Federal, State, and local 
efforts to address these barriers and encourage the development, 
rehabilitation, and preservation of affordable housing can help 
remediate these supply constraints and help relieve affordability 
challenges, including for manufactured housing.

    Question. Do you believe that the Treasury Department and other 
Federal regulators have a role to play in maintaining the affordability 
and accessibility of housing, including through oversight of private 
equity ownership? If so, please describe what steps Treasury or other 
regulators can take. If not, please explain why not.

    Answer. The Federal Government has a longstanding role promoting 
affordable housing through a range of programs and subsidies spanning 
multiple Federal agencies. One critical way Treasury is supporting 
efforts to maintain and expand affordable housing is through our 
participation on the White House Council on Eliminating Barriers to 
Affordable Housing, as established by Executive Order 13878. Access to 
affordable housing is far too difficult for many Americans, with rising 
housing costs forcing many families to dedicate larger shares of their 
income to housing. Treasury continues to engage through the White House 
Council to identify and address Federal, State, and local barriers that 
artificially raise the cost of affordable housing.

                                 ______
                                 
                Hon. Sherrod Brown Supplemental articles
                            (for question 4)

                From Associated Press,\2\ April 20, 2019
---------------------------------------------------------------------------

    \2\ https://www.usnews.com/topics/author/associated-press.
---------------------------------------------------------------------------

      Private Equity Firms Rapidly Investing in Mobile Home Parks

A growing number of large private equity firms are investing into 
mobile home park ownership across the country.

             By Zachary Oren Smith, Iowa City Press-Citizen

IOWA CITY, Iowa (AP)--Mobile home owners who for years have enjoyed 
some immunity from rising housing costs are increasingly finding 
themselves subjected to massive rent increases, not just here in 
Iowa,\3\ but across the country.
---------------------------------------------------------------------------
    \3\ https://www.usnews.com/news/best-states/iowa.

Havenpark Capital, a Utah-based \4\ real estate investment firm, raised 
eyebrows--along with rents--after it purchased parks in the Iowa City 
and Des Moines metro areas and immediately announced plans for rent 
spikes. In North Liberty, rents at Golfview Mobile Home Park will rise 
58 percent and in Waukee, rents at Midwest Country Estates will rise 69 
percent. Havenpark Capital recently purchased two more mobile 
communities: Iowa City's Sunrise Village and West Branch's West Branch 
Village. And as it turns out these are just the tip of the iceberg, the 
Iowa City Press-Citizen reported.
---------------------------------------------------------------------------
    \4\ https://www.usnews.com/news/best-states/utah.

There is a growing trend among some of the largest private equity firms 
and institutional investors to acquire assets in the manufactured 
housing sector, according to a 2019 report put together by three 
housing advocates groups: Private Equity Stakeholder Project, 
Manufactured Housing Action and Americans for Financial Reform 
---------------------------------------------------------------------------
Education Fund.

The top 50 manufactured housing community owners together own 680,000 
home sites--a 26-percent increase between 2016 and 2018, according to 
data from the National Manufactured Home Owners's Manufactured Housing 
Institute. The authors of the report note that the need to produce 
greater profits is leading to cost increases for park residents 
nationwide.

``Manufactured home communities are interesting communities,'' said 
Kevin Borden, co-director of Manufactured Housing Action, a Washington 
D.C.-based nonprofit that organizes residents of mobile home parks to 
pursue housing affordability and resident protections. ``They are 
relatively affordable for low income workers immigrant workers and 
seniors on fixed incomes. They provide folks with a sense of a home 
community.''

In 2018, there were approximately 8.5 million manufactured homes in the 
United States, accounting for nearly 10 percent of the Nation's housing 
stock, according to the Manufactured Housing Institute. This has been a 
source of affordable housing, in particular for rural and low-income 
residents.

``These are affordable homes for low-income folks,'' said Liz Voigt of 
Manufactured Housing Action and a co-author of the 2019 report. 
``That's what the market has been for a long time. It hasn't really 
occurred to people that they could gouge them for 80 percent of their 
Social Security check. That's the analysis that these companies have 
seen: they could make a very big increase in profits based on rent 
increases in nearly any conditions.''

In a statement to the Press-Citizen in reference to their rent increase 
in North Liberty, Havenpark Capital said the previous owner's rent 
prices had not kept pace with the market. They wrote that if it were 
not for Havenpark stepping in, the property might have been taken over 
by commercial retail developers. But even if the land remained a park, 
seniors on fixed incomes, low-wage earners on limited incomes may not 
have much of an option in the end.

Part of the issue is residents commonly own their mobile home but not 
the land underneath it. If lot rents become unaffordable, residents may 
have no other option but to try and sell their home to the park or 
abandon it all together. Moving homes to another park can cost 
thousands of dollars and moving often means sustaining damage to the 
home, further depreciating its value.

The 2019 report quotes material from Mobile Home University, a project 
of RV Horizons aimed at educating aspiring mobile home park investors 
on the revenue model: ``The fact that tenants can't afford the $5,000 
it takes to move a mobile home makes it easy to raise rent without 
losing any occupancy.''

Compared to larger private equity firms like YES! Communities, which 
own 54,000 home sites, Havenpark Capital is relatively small. But Voigt 
and Borden said the private real estate firm benefits from the same 
investment strategy.

To create protections for these communities, there are three 
``buckets'' of policy solutions Voigt pointed to that she said 
localities and States should pursue to add protections for manufactured 
home owners in their communities.

``There is a regulatory environment in which (these firms) operate that 
has created an enormously profitable business on the backs of poor 
people,'' Voigt said.

The first strategy would be to find some consistent means of regulating 
rent. Voigt emphasized that these regulations look different in 
different places.

One example is in Humboldt County, California \5\ where voters passed 
an ordinance to regulate rent increases for spaces in mobile home parks 
with ten or more spaces in the unincorporated area of Humboldt County. 
Rents can only legally be increased to keep up with the consumer price 
index; to afford capital improvements with approval of a majority of 
tenants; or in the case of a new resident, at a maximum of 5 percent.
---------------------------------------------------------------------------
    \5\ https://www.usnews.com/news/best-states/california.

In Delaware,\6\ property owners can raise rent above the consumer price 
index provided they have not received any violations that threaten the 
health or safety or residents that persists for more than 15 days and 
the increase is directly related to operating, maintaining or improving 
the manufactured home community.
---------------------------------------------------------------------------
    \6\ https://www.usnews.com/news/best-states/delaware.

``There are different ways to get there,'' Voigt said. ``But the idea 
is (property owners) shouldn't just have total control over setting 
---------------------------------------------------------------------------
these arbitrary rent increases.''

The second strategy is for residents to have a say in how the park they 
live in is improved, and an avenue for making complaints if it is not 
being taken care of properly.

``(Large firms) don't seem to have a long term investment in the 
community's ongoing infrastructure and communities sustained health,'' 
Voigt said. ``There are laws in most places about basic code standards, 
but making those clear responsibilities for the community owner would 
incentivize investment.''

In addition, Voigt said it is important for residents to have a clear 
path to report problems with health and safety risks, management, lease 
provisions, invoices and other problems. When the owner is out of 
State, this might mean site managers and mandated grievance procedures.

The third strategy is more complicated. Even if there are limits on the 
amount rent can be increased and residents have the ability to reliably 
file grievances, an investment firm is in business to generate revenue. 
While this doesn't necessarily put them at odds with residents, a 58-
percent tax increase does.

``There needs to be a clear path toward alternative forms of 
ownership,'' Voigt said.

They ask States to enact laws that give mobile park tenants and 
associations a chance to buy their park if property owners are 
approached with an offer. Voigt said that if our goal is to keep these 
parks affordable in the long term, drastic changes in ownership might 
be one of the few ways to keep the needs of tenants at the heart of 
decision making.

``As this trend picks up and bigger and bigger private equity groups 
with huge access to capital buy more and more of these communities, it 
is going to put increasing pressures on mom and pop parks to sell 
out,'' Voigt said.

https://www.usnews.com/news/best-states/iowa/articles/2019-04-20/
private-equity-firms-rapidly-investing-in-mobile-home-parks.

                                 ______
                                 

              From The Des Moines Register, April 1, 2019

       After Mobile Home Park Owner Raises Rents by 69 Percent, 
  Neighbors Worry Elderly, Fixed-Income Residents May Lose Their Homes

                           By Ian Richardson

Janet Hook has done the math, and she's concerned.

On Friday, the single mother of two found a letter taped to the door of 
her white and green mobile home announcing that Midwest Country Estates 
in Waukee, where she's rented a lot for 12 years, has a new owner.

As one of its first acts, the Utah-based company said it was increasing 
her rent $205 per month to $500, starting June 1st--a 69-percent 
increase.

``It would leave me with $88 for food and gas after all my bills are 
paid,'' said Hook, who works at Waukee High School during the school 
year and Dairy Queen in the summer. ``I'm going to have to get a second 
job other than the ones I already have.''

She's not alone. Every resident of the 300-lot manufactured home park 
received the same letter. Among them are more single parents, elderly 
residents and people on fixed incomes.

``It's going to take me right down to my last dollar,'' said 91-year-
old Arletta Swain. ``I'm afraid.''

Swain has lived in the mobile home park for nearly 50 years. Her only 
income is her Federal pension.

The new owner, Havenpark Capital, said the rent increase is necessary 
to bring it more in line with what it says are similar quality 
communities in the metro. ``Without raising your rent, our community 
would be at risk of going away because it is in a high-growth area--one 
of the fastest growing in the country,'' the letter to residents says.

Iowa law does not set a cap on how much landlords are allowed to 
increase rental rates as long as they provide adequate notice and 
respect existing lease agreements.

Residents said relocating to a less expensive park likely won't be an 
option for many since the mobile homes they own are too old to move.

``We're sitting ducks is what we are,'' Hook said. ``There's a lot of 
us out here who don't know what we're going to do.''

New Owners Blame Rising Land Values

Havenpark Capital taped the rent increase announcement to residents' 
doors two days after purchasing the roughly 64-acre site for $17.5 
million.

``Rent will be going up to protect our community,'' the letter says. 
``If the rent did not go up, the land where Midwest Country Estates 
sits today would have been more valuable if it were changed into 
apartments, or a large retail store, causing all of our residents to be 
evicted.''

The company set a standard monthly rent of $500 for basic lots. 
Residents at Midwest Country Estates own their own mobile homes, but 
rent the land from the company.

Those on corner lots or double-wide homes face an additional $25 per 
month ``premium site'' fee.

Each resident must sign a new lease within 30 days, the letter says.

In a statement, the company said rental rates at Midwest Country 
Estates have ``fallen significantly behind comparable four-star 
manufactured home communities in the Des Moines area,'' which makes it 
a ``ripe target'' for redevelopment. It said a survey of comparable 
parks in the Des Moines metro showed an average lot rate of $522 per 
month.

``Our purchase and investment in the park will ensure this area remains 
available for housing rather than be taken over by commercial retail 
developers,'' the statement says.

An NAI Iowa Realty Commercial survey of 13 mobile home parks in the Des 
Moines metro from October 2018 showed rents ranging from $244 to $596 
per month, with an average monthly rent of $436.

Joanne Stevens, an NAI Iowa Realty agent who helped with the Midwest 
Country Estates sale, said owners that want to stay in the mobile home 
business long-term need market rate rents to keep parks operational and 
well-maintained.

``I think that's very much needed in that community,'' she said.

Havenpark Capital owns properties in nine States, including North 
American Mobile Home Park in Indianola.

The company said it plans to invest more than $1 million into Midwest 
Country Estates over the next 12 months to install 20 new homes, build 
a safe play area for children, repave sections of road, install new 
mailboxes, build a new entryway monument sign and complete landscaping 
projects.

The company said it does not want to lose residents but will assist any 
who are moving out with the sale of their homes.

Built in 1969 along Hickman Road, Midwest Country Estates is now 
surrounded on three sides by single-family homes.

A row of businesses including a bank, dental office, and fast food 
restaurants now sits between the mobile home park and Hickman Road.

Over the past 4 years, the property's assessed value has grown from 
approximately $1.3 million to $3.8 million, according to Dallas County 
assessor's data. The mobile home park's taxes have increased nearly 
$10,000--from $81,042 in the 2015-2016 tax year to $90,481.59 in 2018-
19.

The property is specifically zoned for a mobile home park, Waukee 
Development Services Director Brad Deets said. However, apartments or 
retail space could fit within the city's comprehensive plan for the 
area, which includes a mixture of commercial and residential land along 
the Hickman Road corridor, he said.

``Mobile Homes Depreciate in Value Like a Car''

Alex Kornya, assistant litigation director with Iowa Legal Aid, said 
tenants of mobile home parks often find themselves in difficult 
positions when rents rise because moving their homes often isn't 
feasible.

``They are built with the intention they could be moved, but it is 
almost never the case that they can be,'' Kornya said. ``Mobile homes 
depreciate in value like a car, and it doesn't take long for them to 
acquire the problems where moving them is not possible.''

Residents of mobile home parks are more likely to be older and have 
lower incomes or net worth, according to a 2014 study by the Consumer 
Finance Protection Bureau.\7\
---------------------------------------------------------------------------
    \7\ https://files.consumerfinance.gov/f/
201409_cfpb_report_manufactured-housing.pdf.

Kornya said when people make an investment in their own mobile home, 
many people end up forfeiting the investment because they can't move 
---------------------------------------------------------------------------
the home with them.

However, rent increases are typically legal if made with at least a 60-
day advanced notice for tenants who own their own homes and at least 30 
days for tenants who rent homes.

A rent increase cannot be made until a tenant's original lease term is 
concluded. Midwest Country Estates residents who spoke to the Register 
said they were on month-to-month leases.

Kornya said Iowa Legal Aid, which offers free civil legal assistance to 
the elderly, low-income, veterans and other vulnerable groups, sees a 
``high proportion'' of people coming to its office with mobile home-
related issues. It offers assistance to tenants in landlord-tenant 
disputes.

``Some Compassion Would Be Lovely''

Since receiving the letter, Midwest Country Estates residents have been 
working together to learn more about the purchase and how the rent 
increase will affect the park's low-income renters.

Matt Chapman started a Facebook group where residents are posting their 
stories. He has gathered accounts from several residents who say it 
will be difficult to budget for the increase with their fixed incomes.

Chapman said he knows the new company is abiding by the law and the 
rent increase will likely happen, but he wants to be sure those facing 
tough decisions don't fly under the radar.

``We want to find out who the most vulnerable people in here are and we 
want to make sure they don't lose their home or they're not going to be 
cutting their medications in half or going without them,'' he said.

Chapman said he wants to organize a forum where residents can meet with 
each other and community leaders, as well as learn about what available 
resources can help them out financially.

Hook, the single mother, said she would like to see a third party 
mediate discussions between residents and the company. She's hopeful 
that could result in the company adopting an incremental increase.

``We've looked into the laws and all they have to do is give us 60-day 
notice,'' she said. ``But some compassion would be lovely.''

https://www.desmoinesregister.com/story/news/local/waukee/2019/03/27/
waukee-midwest-country-estates-mobile-home-park-havenpark-capital-utah-
rent-increase-rates-iowa/3267410002/.

                                 ______
                                 
           Questions Submitted by Hon. Catherine Cortez Masto
    Question. If you are confirmed to serve as Assistant Secretary for 
Financial Markets, will you seek any effort to restrict Fannie Mae and 
Freddie Mac financing for about apartment buildings, condominiums, and 
cooperatives and other multi-family homes?

    Answer. The GSEs continue to provide liquidity to the multifamily 
lending market, in particular to support the availability of rental 
units that are affordable to low- and moderate-income and other 
historically underserved renters. Treasury's Housing Reform Plan 
recommends that Congress authorize an explicit, paid-for guarantee of 
qualifying mortgage-backed securities collateralized by eligible 
multifamily mortgage loans. The funding advantage conferred by an 
explicit guarantee could risk crowding out existing private sector 
funding of multifamily loans. As such, Treasury recommends that 
Congress and the FHFA revisit the framework for ensuring that the 
Federal Government's support of the multifamily secondary market is 
tailored to an affordability mission. In September 2019, the FHFA 
announced changes to the restrictions on GSE multifamily loan 
purchases.\8\ Treasury believes these changes are consistent with the 
recommendations in the Treasury Housing Reform Plan.
---------------------------------------------------------------------------
    \8\ See ``FHFA Revises Multifamily Loan Purchase Caps for Fannie 
Mae and Freddie Mac'' (September 13, 2019), available at https://
www.fhfa.gov/Media/PublicAffairs/Pages/FHFA-Revises-Multifamily-Loan-
Purchase-Caps-for-Fannie-Mae-and-Freddie-Mac.aspx.

    Question. The Supreme Court's June 2017 unanimous decision in 
Kokesh vs. SEC limited the Security and Exchange Commission's ability 
to make fraudsters repay ill-gotten gains (disgorgement) to a 5-year 
statute of limitations. Do you think the Supreme Court's Kokesh 
decision, limiting the SEC's ability to obtain disgorgement within a 
---------------------------------------------------------------------------
short, 5-year period will harm investors and make markets riskier?

    Answer. The U.S. capital markets are the largest, deepest, and most 
vibrant in the world and are critically important in supporting the 
U.S. economy. Protecting retail investors, and punishing those who 
violate our securities laws, are important efforts to maintain 
confidence in our markets. The SEC Chairman has publicly expressed his 
concerns about the impacts of the Supreme Court's decision in Kokesh 
vs. SEC and has expressed his interest in working with Congress to 
address this issue.\9\ I am supportive of his efforts.
---------------------------------------------------------------------------
    \9\ See SEC Chairman Jay Clayton, keynote remarks at Mid-Atlantic 
Regional Conference (June 4, 2019), available at https://www.sec.gov/
news/speech/clayton-keynote-mid-atlantic-regional-conference-2019.

    Question. What is your plan to ensure a smooth transition from 
---------------------------------------------------------------------------
LIBOR to SOFR?

    Answer. Treasury is taking several steps to help ensure a smooth 
transition from LIBOR to SOFR. As an ex-officio member of the 
Alternative Reference Rates Committee (ARRC), Treasury participated in 
the development of the Paced Transition Plan, and continues to engage 
with the ARRC in the support and implementation of this plan. 
Treasury's Office of Financial Research (OFR) adopted a final rule in 
February 2019 that establishes a data collection on centrally cleared 
repo transactions; those data will be used to support the Federal 
Reserve's calculation of SOFR. In October 2019, Treasury and the 
Internal Revenue Service (IRS) issued proposed regulations allowing 
taxpayers to avoid adverse tax consequences from changing the terms of 
debt, derivatives, and other financial contracts to replace reference 
rates based on LIBOR and similar rates with certain alternative 
reference rates, including SOFR. Finally, in the most recent Quarterly 
Refunding Statement, Treasury announced its intent to issue a request 
for information (RFI) in the first half of 2020 to solicit input from 
the public on the demand for a SOFR-indexed 
floating-rate note (FRN).

    Question. After the financial crisis, the largest banks were 
required to maintain sufficient capital and liquidity to ensure their 
resiliency against economic and financial shocks. In recent years, 
banking regulators have loosened these restrictions. Do you think the 
largest banks are appropriately capitalized? Are you concerned that 
stress tests for the largest banks might not capture the actual risks?

    Answer. The safety and soundness of banks of all sizes is of 
paramount importance to the strength of the U.S. economy and the 
stability of our financial system. The largest banks now have 
significantly more capital and liquidity than they did before the 
financial crisis, which increases their ability to withstand future 
stresses. At the same time, it is important to tailor these 
requirements based on the risks posed by the institutions. Similarly, 
stress-testing requirements should appropriately reflect the size and 
complexity of the banks.

    Question. Do you think that the credit rating agencies like 
Moody's, Fitch, and S&P are accurately evaluating risk?

    Answer. The Dodd-Frank Wall Street Reform and Consumer Protection 
Act eliminated regulatory reliance on credit rating agencies' ratings 
by requiring that references to credit ratings be removed from Federal 
laws and regulations. Dodd-Frank also enhanced the SEC's supervisory 
authority over registered credit rating agencies, including new 
requirements pertaining to internal controls, reporting, disclosure, 
and accountability. These reforms have improved the process by which 
ratings are assigned. At the same time, credit rating agencies continue 
to play an important gatekeeper role in certain markets. The SEC should 
continue to closely monitor the role that credit ratings play in 
financial markets and the processes the ratings agencies use in 
evaluating risks.

    Question. Do you support changes made to the Volcker rule 
implementation? Do you have any concerns that permitting financial 
institutions to invest on their own behalf provides them an unfair 
advantage compared to other investors?

    Answer. Regulators have tailored the rule's compliance requirements 
based on the size of a firm's trading assets and liabilities, with the 
most stringent requirements applied to banking entities with the most 
trading activity. I support regulators' efforts to implement changes to 
the Volcker Rule consistent with Treasury's previous recommendations 
\10\ and the requirements under the Economic Growth, Regulatory Relief, 
and Consumer Protection Act.
---------------------------------------------------------------------------
    \10\ See ``Treasury, a Financial System That Creates Economic 
Opportunities: Banks and Credit Unions'' (June 2017), available at 
https://www.treasury.gov/press-center/press-releases/Documents/
A%20Financial%20System.pdf.

    Question. What will the Treasury Department do to increase the home 
---------------------------------------------------------------------------
ownership rate for African Americans and Latinos?

    Answer. Treasury recently published its Housing Reform Plan, as 
directed by the President's March 27, 2019 memorandum. Consistent with 
the Presidential Memorandum, sustainable homeownership for American 
families should be a benchmark for success for housing finance reform. 
In its Housing Reform Plan, Treasury recommends replacing the GSEs 
affordable housing goals with a more efficient, transparent, and 
accountable mechanism for delivering tailored support to first-time 
homebuyers and low- and moderate-income, rural, and other historically 
underserved borrowers. Critically, the legislative reforms Treasury 
recommends in Treasury's Housing Reform Plan should preserve and 
improve support for low- and 
moderate-income and other historically underserved groups. Legislative 
reforms should also preserve and improve support for low- and moderate-
income and other historically underserved renters.

    A robust affordable housing policy starts with a strong economy. 
Since the President's 2016 election, the economy has added 7 million 
jobs, wages have grown more than 3 percent for 18 consecutive months, 
and the unemployment rate remains at near historic lows, including for 
African American and Hispanic households. Treasury will continue to 
support the President's economic agenda to help working families.

                                 ______
                                 
               Questions Submitted by Hon. Maggie Hassan
    Question. As you know, Community Development Financial Institutions 
(CDFIs) are Treasury-certified financial institutions which specialize 
in addressing the needs of underserved, economically disadvantaged 
communities. In my home State of New Hampshire, the New Hampshire 
Community Loan Fund is a CDFI which has been expanding access to 
affordable housing and business capital for over 35 years. However, 
despite the success of CDFIs across the country, the FY 2018, 2019, and 
2020 Treasury Department budget proposals would have eliminated funding 
for Community Development Financial Institution programs. What role, if 
any, did you play in developing these budget proposals while serving at 
the Treasury Department? Do you support eliminating funding for 
Community Development Financial Institution programs?

    Answer. As Deputy Assistant Secretary for Small Business, Community 
Development, and Affordable Housing Policy and as Acting Assistant 
Secretary for Financial Institutions, I administered the programs at 
the funding levels appropriated by the Congress.

    Question. Currently, about $26 billion in matured U.S. savings 
bonds, such as paper bonds issued during World War II, have not been 
redeemed by the holders of these bonds. New Hampshire bond holders own 
about $100 million of these unclaimed bonds. I am a cosponsor of 
Senator Kennedy's bill, the Unclaimed Savings Bonds Act, which directs 
Treasury to work with States, like New Hampshire, to return unclaimed 
U.S. savings bonds to their rightful bondholders. Can you describe the 
ongoing efforts at Treasury aimed at returning matured but unclaimed 
U.S. savings bonds to their owners? If confirmed, will you commit to 
working with Congress to address this issue?

    Answer. The issue of matured unredeemed savings bonds does not fall 
under the purview of the Assistant Secretary for Financial Markets, and 
so neither I nor my team is directly involved in this matter. However, 
Treasury has assembled a dedicated team that is working with Senator 
Kennedy on the issue of matured unredeemed debt. Treasury has launched 
a new and secure version of Treasury Hunt, an online tool that allows 
bond owners to determine whether they own matured savings bonds. In 
addition, Congress appropriated $25 million this year for digitizing 
bond records. To make the best use of these funds, Treasury is 
conducting market research and hosted an industry day designed to 
identify the most promising and cost-effective technologies to digitize 
and improve the accessibility of savings bond records. Using the funds 
Congress made available, we are committed to improving access to our 
savings bonds records and helping bond owners redeem their matured 
savings bonds. Treasury looks forward to working collaboratively with 
the States and Congress on this effort.

                                 ______
                                 
             Questions Submitted by Hon. Sheldon Whitehouse
    Question. Numerous respected economists and financial institutions 
are warning of severe economic risks from climate change and from 
policy inaction. These risks include the crashing of fossil-fuel-
related stocks and the flooding of coastal communities due to sea-level 
rise. Does the Treasury Department take these warnings seriously?

    Answer. As Secretary Mnuchin has stated, Treasury believes that 
there are a range of important environmental issues, including climate 
change, that can have an impact on the economy.

    Question. What is Treasury doing to address these warnings and to 
prepare the economy for any fallout?

    Answer. Treasury is committed to working with others in the 
executive branch to review and study the potential economic impacts 
that environmental issues present.

    Question. What influence does the fossil fuel industry exert with 
respect to the Treasury Department's response to climate change?

    Answer. I am not aware of any efforts of the fossil fuel industry 
to exert influence with respect to Treasury's efforts related to 
climate change.

    Question. What is the Treasury Department doing to protect the 
financial system against climate-related risks?

    Answer. Treasury is committed to working with others in the 
executive branch to review and study the potential economic impacts 
that environmental issues present.

    Question. If confirmed, do you plan to address and to elevate the 
issue of climate change within Treasury? If so, how?

    Answer. As Secretary Mnuchin has stated, there are a range of 
important environmental issues, including climate change, that can have 
an impact on the economy. Treasury is committed to working with others 
in the executive branch to review and study the potential economic 
impacts that environmental issues present. I support this commitment 
and, if confirmed, I hope that we can all work together on these 
important issues.

                                 ______
                                 
                 Prepared Statement of Hon. Ron Wyden, 
                       a U.S. Senator From Oregon
    This morning the Finance Committee meets to consider three 
nominations: Jason Fichtner is nominated to serve on the Social 
Security Advisory Board, Sarah Arbes is nominated to serve as HHS 
Assistant Secretary for Legislation, and Kipp Kranbuhl is nominated to 
serve as Assistant Treasury Secretary for Financial Markets.

    I'll have just a few brief remarks on these nominees. If confirmed, 
Mr. Fichtner will dive into important work the Social Security Advisory 
Board is doing with respect to customer service and IT. The Board is 
also working hard to address challenges that come with serving some of 
the most vulnerable Social Security beneficiaries, individuals who are 
unable to manage their own finances.

    If confirmed, Mr. Kranbuhl will take on a job at the Treasury 
Department that deals with a lot of tough subjects including debt 
management, housing finance, and the stability of our financial 
markets.

    Both are important roles that can affect the well-being of millions 
of Americans. They call for an even-handed approach from individuals 
willing to work with people from all sides. I hope these nominees serve 
in that manner.

    Finally, Sarah Arbes is nominated to serve in a role at HHS that 
involves working directly with the Congress as the Department's chief 
point of contact between us. One of our top priorities on this 
committee, for example, is bringing down the cost of prescription 
drugs. This committee also takes its oversight role very seriously. 
That means we've sent oversight letters to HHS on a variety of topics, 
including the appalling treatment of migrant children and families at 
our southern border, and the waste of taxpayer dollars on public 
relations contracts for the head of CMS.

    At times, it has been awfully hard to get HHS to respond to our 
oversight inquiries. I understand that there's been some recent 
progress on the committee's bipartisan investigation of children's 
shelters, and I'm thankful for that. But to my mind, it's consistently 
been much harder than it needs to be to get the information that this 
committee and its members need to carry out our oversight 
responsibilities. This committee has worked closely and productively 
with Ms. Arbes in the past, so we're going to count on her to help turn 
that around. But make no mistake, there needs to be improvement in how 
HHS responds to this committee. My expectation is that HHS will provide 
the remaining information over the next several days. If that is the 
case, I will support moving this nomination forward.

                                  [all]


</pre></body></html>
